<html>
<title> - DEPARTMENTS OF TRANSPORTATION, TREASURY AND GENERAL GOVERNMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2004</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
  DEPARTMENTS OF TRANSPORTATION, TREASURY AND GENERAL GOVERNMENT, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2004

                              ----------                              


                         THURSDAY, MAY 22, 2003

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:46 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Patty Murray presiding.
    Present: Senators Campbell, DeWine, and Murray.

                      DEPARTMENT OF TRANSPORTATION

             National Highway Traffic Safety Administration

STATEMENT OF JEFFREY W. RUNGE, M.D., ADMINISTRATOR

               OPENING STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. Good morning. With the concurrence of the 
Chair, I am going to open up this committee hearing this 
morning.
    Welcome to all our guests, and I will do my opening 
statement.
    First of all, I want to commend our Chairman, who I 
understand will be here shortly, for once again holding a very 
special hearing to focus on our highway safety challenges. I 
hope we will call this hearing every year to continue to 
aggressively monitor the progress of the Department of 
Transportation in reducing the number of accidents and 
fatalities on our highways.
    Unfortunately, the news since our last hearing on this 
topic has not been good. The latest data shows that for 
calendar year 2002 at least 42,850 people died on our Nation's 
highways. That is the highest number since 1990 and it 
represents an increase in the number of fatalities for the 
fourth successive year.
    Almost 18,000 of these fatalities had their root cause in 
drunk driving. That is an increase of 3 percent from just last 
year and marks the third year in a row of increases in alcohol-
related highway deaths. These statistics show that the 
Department of Transportation has missed its stated performance 
goal for highway safety, a goal that it testified to in last 
year's hearing.
    I think that all of us on this panel will agree that this 
record is unacceptable and must be reversed. We know what is 
required to reduce death on our highways. We know what law 
enforcement methods work and we know what works to change 
driver behavior. What we do not know is whether we, as a 
Nation, have the will to force citizens to stop driving 
aggressively and to stop driving drunk. And we do not know yet 
if the Federal Government has the will to commit the necessary 
resources to change that deadly behavior.
    When the lives of Americans are threatened by a danger we 
take action. We did it after September 11th by dramatically 
improving airport security. Drunk and aggressive driving poses 
another threat to all Americans and it is one where we can make 
a real difference if we are willing to make a commitment.
    Each month more than 3,000 people die on our highways. That 
is an astounding figure and we can reduce it if we make a 
commitment. I would like to see the same commitment to highway 
safety as we put on airport safety because we can make a 
difference and save lives.
    Earlier this week the Bush Administration unveiled its 
``SAFETEA'' reauthorization proposal. The administration claims 
the bill will double the amount of money spent on safety in 
comparison to the 6-year period covered by the TEA-21 law.
    However, a review of the details of the administration's 
proposal reveals that roughly half of this funding is committed 
to efforts to construct safer highways. And while the 
construction of safer highways unquestionably saves lives, 
there does not appear to be anywhere near that level of growth 
committed towards programs designed to change driver behavior.
    Last week, I participated with Mothers Against Drunk 
Driving in the commemoration of the 15th anniversary of the 
worst drunk driving accident in our history. A drunk driver 
struck a school bus, killing 24 schoolchildren. I met with a 
few of the parents of those victims as well as a student who 
survived that crash. I am sorry the entire subcommittee could 
not participate in that event. I think it would have served as 
a stark reminder to all of us that each day roughly 49 
individuals die as a result of drunk driving in this country.
    Given these facts, I am concerned that the President's 
transportation budget does not adequately address the challenge 
that we face. For the second year in a row the budget proposes 
to cut funding for the impaired driving program in NHTSA's 
operations budget. Together, the Chairman and I served to 
increase rather than decrease funding for this program in last 
year's appropriations bill, and I hope that we will do the same 
again this year.
    Also, while the administration is proposing a new $50 
million initiative to reduce drunk driving in those States with 
the worst record, the legislation eliminates $150 million in 
existing programs that are targeted on drunk driving.
    Moreover, the administration's new drunk driving grant 
program gives little direction to the States on how 
specifically these funds ought to be spent. Recently, the GAO 
reported that NHTSA has not required much by way of 
accountability on the part of States in using Federal funds to 
actually advance highway safety. I think we need to be very 
suspicious of initiatives that seek to attack the drunk driving 
problem by sharing revenue with the States with no strings 
attached.
    I must also point out that the President's budget, for the 
second year in a row, eliminates the funding for the targeted 
paid advertising initiatives that this committee championed. 
One of those initiatives, the ``Click It or Ticket'' program, 
is targeted on improving seatbelt use. Last year, we started 
another paid media initiative entitled ``You Drink, You Drive, 
You Lose''. Both of these initiatives are eliminated in the 
President's budget.
    I hope here again that we can work together with the other 
members of the subcommittee to continue our leadership in this 
area whether the administration wants to join us or not.
    And finally, I have to say that I am very pleased that 
Annette Sandberg, our new Federal Motor Carrier Safety 
Administrator, is here with us today. She and I have worked 
well together in the past and I look forward to working with 
you again.
    The safety challenges in the motor carrier industry are no 
different than they are with the average driver. We need to 
make sure that truck drivers buckle up, drive safely, and drive 
responsibly. Ms. Sandberg's experience as the former chief of 
Washington State's Highway Patrol makes her uniquely qualified 
to lead the Federal Motor Carrier Safety Administration.
    At this time, I will turn it over to Senator Campbell for 
an opening statement. And I just would let you know that I have 
an amendment up on the floor that I am managing right now. I 
have to leave and hope to come back. I do have questions that I 
will submit for the record if I get caught and cannot return.

                           PREPARED STATEMENT

    But I do think this is a critical hearing. I think the 
topic of this discussion is absolutely important and I want to 
work with all of you to make sure that we address these 
important safety issues.
    [The statement follows:]
               Prepared Statement of Senator Patty Murray
    I commend you, Mr. Chairman for once again holding a special 
hearing to focus on our highway safety challenges. I hope we will call 
this hearing every year to continue to aggressively monitor the 
progress of the Department of Transportation in reducing the number of 
accidents and fatalities on our highways.
    Unfortunately the news since our last hearing on this topic has not 
been good. The latest data indicate that for calendar year 2002, at 
least 42,850 people died on our Nation's highways. That is the highest 
number since 1990, and it represents an increase in the number of 
fatalities for the fourth successive year. Almost 18,000 of these 
fatalities had their root cause in drunk driving. That's an increase of 
3 percent from just last year and marks the third year in a row of 
increases in alcohol-related highway deaths. These statistics bear show 
that the Department of Transportation has missed its stated performance 
goal for highway safety, a goal that it testified to in last year's 
hearing. I think that all of us on this panel would all agree that this 
record is unacceptable, and must be reversed.
    We know what is required to reduce death on our highways. We know 
what law enforcement methods work, and what works to change driver 
behavior. What we don't know is whether we as a Nation have the will to 
force citizens to stop driving aggressively and to stop driving drunk. 
And we don't yet know if the Federal Government has the will to commit 
the necessary resources to change that deadly behavior.
    When the lives of Americans are threatened by a danger, we take 
action. We did it after the tragic events of September 11th by 
dramatically improving airport security. Drunk and aggressive driving 
poses another threat to all Americans, and it's one where we can make a 
real difference if we are willing to make a commitment. Each month, 
more than 3,000 people die on our highways. That's an astounding 
figure, and we can reduce it if we make a commitment. I'd like to see 
the same commitment on highway safety as we've put on airport safety, 
because we can make a difference and save lives.
    Earlier this week, the Bush Administration unveiled its so-called 
``SAFETEA'' Reauthorization proposal. The Administration claims the 
bill will double the amount of money spent on safety in comparison to 
the 6-year period covered by the TEA-21 law. However, a review of the 
details of the Administration's proposal reveals that roughly half of 
this funding is committed to efforts to construct safer highways. While 
the construction of safer highways unquestionably saves lives, there 
doesn't appear to be anywhere near that level of growth committed 
toward programs designed to change driver behavior.
    Last week, I participated with Mothers Against Drunk Driving in the 
commemoration of the fifteenth anniversary of the worst drunk driving 
accident in our history. A drunk driver struck a school bus, killing 24 
schoolchildren. I met with the parents of the victims as well as a 
student that survived the crash. I am sorry the entire Subcommittee 
could not participate in that event. I think it would have served as a 
stark reminder to all of us that each day roughly 49 individuals will 
die as a result of drunk driving in this country.
    Given these facts, I'm concerned that President's transportation 
budget does not adequately address the challenge we face. For the 
second year in a row, the budget proposes to cut funding for the 
impaired driving program in NHTSA's operation's budget. Together Mr. 
Chairman, you and I served to increase rather than decrease funding for 
this program in last year's Appropriations Bill. I hope we will do the 
same again this year.
    Also, while the Administration is proposing a new $50 million 
initiative to reduce drunk driving in those States with the worst 
record, the legislation eliminates $150 million in existing programs 
that are targeted on drunk driving. Moreover, the Administration's new 
drunk driving grant program gives little direction to the States on how 
specifically these funds ought to be spent.
    Recently the GAO reported that NHTSA has not required much by way 
of accountability on the part of States in using Federal funds to 
actually advance highway safety. I think we need to be very suspicious 
of initiatives that seek to attack the drunk-driving problem by sharing 
revenue with the States with no strings attached.
    I must also point out that the President's budget, for the second 
year in a row, eliminates the funding for the targeted paid advertising 
initiatives that this Committee championed. One of those initiative--
the ``Click It Or Ticket'' program--is targeted on improving seatbelt 
use. Last year, we started another paid media initiative entitled ``You 
Drink--You Drive--You Lose.'' Both of these initiatives are eliminated 
in the President's budget. I hope here again we can work together with 
the other members of the Subcommittee to continue our leadership in 
this area whether the Administration wants to join us or not.
    Finally, I am pleased that Annette Sandberg, our new Federal Motor 
Carrier Safety Administrator, is here with us today. The safety 
challenges in the motor carrier industry are no different than they are 
with the average driver. We need to make sure that truck drivers buckle 
up, drive safely and drive responsibly. Ms. Sandberg's experience as 
the former Chief of Washington State's Highway Patrol makes her 
uniquely qualified to lead the motor carrier safety agency.
    Thank you Mr. Chairman.

            PREPARED STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Murray. Senator Shelby has submitted a statement 
which he would like included for the record.
    [The statement follows:]

            Prepared Statement of Senator Richard C. Shelby

    Good Morning. The Subcommittee will come to order. I want to thank 
each of the witnesses for being here today to discuss fiscal year 2004 
highway safety initiatives. As we approach Memorial Day, one of the 
most dangerous weekends for highway travel, I cannot think of a better 
time to discuss what I believe is a very important, yet all too often 
overlooked issue.
    Last year, 43,000 people died on our Nation's highways and roughly 
18,000 of the deaths were in alcohol-related crashes. Just as troubling 
is the fact that 4.5 million people visit the emergency room each year 
as a result of a motor vehicle accident. As the leading cause of death 
in the United States for Americans ages 1 to 35, I believe that this 
problem has reached epidemic proportions.
    Much like the medical community treats cancer or heart disease, we 
need to develop a plan to research and enact effective, data driven 
programs to reduce the number of highway fatalities.
    I am struck, however, by the lack of scientific method or 
comprehensive rational approach to combating drunk and drugged driving, 
to increasing seatbelt use in those demographics that under-perform the 
national average, or to changing dangerous behavior where we can 
identify it and isolate it.
    Dr. Runge, as a physician you can not possibly subscribe to doing 
the same thing for an extended period of time if the patient did not 
improve--you would discontinue treatments that didn't work, prescribe 
treatments that did work, and try new treatments for conditions that 
you could identify and diagnose. That is all I am asking you to do 
here--identify, diagnose, and treat. We must start saving lives.
    This year, the Department of Transportation has declared safety to 
be its No. 1 priority for its current budget request and for its 
reauthorization proposal, SAFETEA as well. Highway deaths have 
increased every year for the past 4 years and alcohol-related deaths 
increased for the third consecutive year, and I agree that there is no 
greater priority than reversing these alarming trends.
    When I look at this budget proposal, I see no new initiatives that 
help us improve our poor highway safety record. The data tells me that 
what we are doing is not working, and it is preposterous to believe 
that we can continue to do the same thing each year and expect a 
different result. Too many lives are lost while many States, with 
NHTSA's approval, use their safety grants to use bobble-head dolls, key 
chains and air fresheners to get the message out without any results. 
It is beyond me how these trinkets are increasing seat belt usage or 
deterring impaired driving. I support State flexibility, but trinkets 
don't save lives. We must change our course if we expect to reduce the 
carnage on our Nation's highways.
    The Administration's goal is to reach a 78 percent usage rate by 
the end of 2003. However, the budget proposes nothing specific to 
further increase usage rates and despite the remarkable success of the 
Click It or Ticket mobilizations, NHTSA has never requested specific 
funding for the program. It may not be a silver bullet, but I am not 
aware of another program that is as effective as these campaigns in 
increasing seat belt usage. To me, that goal rings hollow unless the 
budget justification outlines the steps we must take to achieve a 78 
percent usage rate. This budget does not meet that test.
    On the other hand, we are making modest improvement in large truck 
crashes which continued to decline this year, but much more needs to be 
done. I think that the data derived from the large truck crash 
causation study will provide an important blueprint to guide FMCSA in 
the future.
    The Federal Motor Carrier Safety Administration was granted 
additional authorities with the enactment of the Motor Carrier Safety 
Improvement Act. FMCSA has a major new management challenge at hand to 
fully implement the new entrant program, and the first year will be the 
most difficult in identifying the riskiest operators and monitoring 
their safety records. I urge FMCSA to work with stakeholders and State 
enforcement authorities to coordinate and implement the new entrant 
program. I also encourage you to look into the possibility of 
designating a Federal tiger team to augment the efforts of the States 
to investigate the carriers who pose the greatest risks.
    Again, I will say that I am disappointed by what I perceive to be a 
lack of innovative and creative thinking to allow our government to 
improve highway safety numbers. I appreciate that the responsibility to 
make our highways safer does not rest solely with your two agencies. In 
fact, everyone who gets behind the wheel shares some accountability.
    Nevertheless, it is important for all agencies within the 
Department to work together to identify strategies for improvement and 
implement programs that are effective. If programs have reached a 
plateau or outlived their usefulness, then we must create and implement 
new approaches. We cannot sit idly by and hope that highway safety will 
spontaneously improve.
    I look forward to hearing the testimony and am hopeful you will 
provide additional insight that will prove more promising than what I 
have seen so far.

    Senator Murray. Senator Campbell?

              STATEMENT OF SENATOR BEN NIGHTHORSE CAMPBELL

    Senator Campbell [presiding.] Thank you, Madame Chairman.
    I will submit my opening statement for the record and just 
associate myself with your comments.
    It is rather ironic that--maybe ironic is not even the 
proper word--but we have killed more people on American 
highways than we did in Iraq during the same time frame we have 
been involved in that engagement, and people do not seem to get 
excited. When one serviceman tragically loses his life in Iraq, 
we see it on the headlines of every newspaper in America. 
During that same time frame, as I mentioned, in Iraq, we have 
lost so many Americans.
    I know that we are trying to focus at the State and Federal 
level on trying to improve devices in the car. We have done it 
with seatbelts. We have done it with airbags and a number of 
other things. We are certainly trying, by the highway bills we 
have passed and the appropriations, to improve the surfaces and 
the conditions on which people drive and that is great. But I 
think that we are really not doing as good a job as we could 
on, as Senator Murray said, on changing the behavior of 
drivers.
    I know some States are taking on, as an example, the use of 
cellphones and other distractions that have proven to be 
distracting to a point of increased accidents because of their 
use. And I know we have dealt with alcohol-related deaths a 
great deal. And we have done it, I think, an awful lot through 
the penalty side of the equation. To me we are not doing enough 
on the side of the equation that requires better training and 
better education to change that behavior.
    So I have about three or four other questions I would also 
like to ask, but will yield to Senator DeWine if he has an 
opening statement and then we will go ahead and take testimony.
    Senator DeWine. I have no opening statement. I will have 
questions.
    Senator Campbell. We welcome Dr. Jeffrey Runge, the 
Administrator of the National Highway Traffic Safety 
Administration, Ms. Annette Sandberg, who I understand used to 
be a State Patrolwoman and I was very delighted to hear that. I 
am sure she brings a great deal of on-the-ground experience to 
her job as the Acting Administrator of the Federal Motor 
Carriers Safety Administration. Ms. Wendy Hamilton, the 
President of Mothers Against Drunk Driving. And finally, to Mr. 
Chuck Hurley, the Vice President of the National Safety Council 
and Executive Director of the Airbag and Seatbelt Safety 
Campaign.
    Why don't we just start in that range. If Dr. Runge would 
like to start. We will take the comments from all of you before 
we ask some questions.

                  STATEMENT OF JEFFREY W. RUNGE, M.D.

    Dr. Runge. Senator Campbell, Senator DeWine, thank you very 
much for a chance to appear this morning, along with my 
colleagues from the FMCSA and MADD and the National Safety 
Council.
    This group has spent many hours collaborating on ways to 
improve highway safety over the years. The fiscal year 2004 
budget request is intended to build on successes we have had in 
the past, as well as address growing national safety 
priorities.
    Over the last 35 years, the fatality rate has been reduced 
on our Nation's highways from 5.5 fatalities per 100 million 
vehicle miles traveled (VMT) to its present rate of 1.5 per 
million VMT. This represents significant progress.
    Our programs support Secretary Mineta's departmental goal 
to reduce this number to 1.0 by 2008. We have an interim target 
for 2004 of 1.38 fatalities per 100 million VMT. This will be a 
very challenging target, based on the current trends.
    In order to reach these targets, we need the full 
cooperation of our sister agencies in the administration, of 
Congress, of State legislatures, and indeed, the will of the 
Nation.
    Under our reauthorization bill, we will use our 
appropriated grant funds to encourage States to use funds where 
they can be most effective, as States must share in the 
accountability with us.
    Our proposed fiscal year 2004 budget of $665 million is 
performance-based, with clear goals and effectiveness measures, 
and it emphasizes our five priorities: increasing safety belt 
use, decreasing impaired driving, vehicle rollover, vehicle 
compatibility, and traffic records and data improvement. I will 
talk briefly about each priority, but they are interrelated and 
their solutions, in many ways, are common.
    Safety belt use is our most effective tool in reducing 
death and injury on the highways. It cuts the risk of death in 
a crash in half. But you have to wear it. The good news is that 
belt use reached 75 percent last year, which is a record. But 
the bad news is that 25 percent of Americans involved in a 
motor vehicle crash who did not buckle their safety belts 
resulted in 6,800 preventable deaths and 170,000 hospitalizable 
injuries. This failure to wear seatbelts cost Americans $20 
billion, mostly in medical costs and lost productivity.
    Our national target for next year is 79 percent belt use. 
Reaching that would save 1,000 lives a year and prevent more 
than 28,000 injuries. If we reach a 90 percent usage, we will 
see 4,000 more lives saved every year. This is not a dream. 
More than 90 percent belt use has been achieved in California, 
Washington, Hawaii, and Puerto Rico. We know what is required 
for States to achieve these high levels--primary belt laws, 
strict enforcement, public education, using paid media and 
earned media, and our high-profile law-enforcement programs, 
such as ``Click It or Ticket''.
    We conducted a highly effective ``Click It or Ticket'' 
program in eight southeastern States in 2001. In 2002, we 
conducted a similar campaign in 30 States, involving media 
saturation and highly visible enforcement. In the 10 States 
that completely adopted our model, belt use increased an 
average of 9 percentage points, with Vermont experiencing a 19 
percentage point increase and West Virginia a 15 percentage 
point increase.
    We are now in the middle of our 2003 ``Click It or Ticket'' 
national campaign. With the help of this committee, we have 
national ``Click It or Ticket'' advertising going on as we 
speak. This year, 43 States, D.C., and Puerto Rico chose to 
join the campaign.
    But for high visibility enforcement campaigns to work 
fully, States must have standard safety belt laws. But only 18 
currently have them. In fiscal year 2004, NHTSA's budget 
proposes a new, primary safety belt incentive grant program 
that we expect to result in more States enacting primary belt 
laws.
    Regarding impaired driving, preliminary data for 2002 show 
an estimated 17,970 people dying in alcohol-related crashes, 
which is 42 percent of total traffic deaths. Alcohol traffic 
deaths are down 25 percent since 1988, but are 3 percent higher 
than in 2001. Our target for 2004 is to reduce the rate of 
alcohol traffic deaths to 0.53 per 100 million VMT from our 
0.64 that we experienced last year.
    This will not be done by doing business as usual. We need 
to focus resources on where they are most needed, encourage 
States that are doing a good job to keep it up, and to help 
those States that are not to begin to do a good job.
    So, in addition to focusing highly visible law enforcement 
campaigns in 2004, we are proposing a grant program that will 
provide additional resources to those States that have 
particularly severe impaired driving problems.
    Rollovers account for less than 5 percent of all vehicle 
crashes, but one-third of vehicle fatalities. In 2002, 10,000 
people died in the United States in rollover crashes, up nearly 
5 percent from the previous year. Light trucks, including SUVs 
and pickups, are most at risk. We began rating vehicles in 2001 
for their likelihood of rollover, which correlates closely with 
experience in real world crashes. The National Academy of 
Sciences recently evaluated our rollover ratings and found them 
valuable and accurate, but reported that ratings could be 
better if we evaluated vehicles in a dynamic rollover test that 
measures performance in emergency steering. NHTSA's fiscal year 
2004 budget proposes to implement that change.
    The U.S. fleet has changed dramatically in the last 20 
years, producing mismatches between trucks and cars, and while 
light trucks and vans account for 38 percent of all registered 
vehicles, they are involved in about half of all two-vehicle 
crashes involving passenger cars. About 80 percent of the 
deaths occur in passenger cars. Since light trucks are half of 
all new vehicle sales today, we cannot delay action to address 
this problem.
    Regarding traffic records, our budget request includes $10 
million to enable us to update NHTSA's crash causation data, 
last generated in the 1970's. A lot has changed since then--
vehicles, traffic patterns, numbers and types of vehicles, on 
board technologies, and driver demographics. Therefore, we are 
requesting support for a new traffic records and data 
improvement program in the States that will provide money where 
it is needed to support State traffic records.
    My final point, we are proposing to restructure our highway 
safety grants to make the program simpler, smarter, and more 
effective. We are simplifying the grant delivery system by 
reducing the number of programs and increasing States' 
flexibility to use the grant funds.

                           PREPARED STATEMENT

    Mr. Chairman, this concludes my statement. In closing, I 
would like to thank the committee for its support of our 
programs in the past. I look forward to working with you in the 
future.
    Senator Campbell. Thank you.
    [The statement follows:]

              Prepared Statement of Jeffrey W. Runge, M.D.

    Mr. Chairman and members of the Committee: I welcome the 
opportunity to appear before you to discuss our country's priority 
highway and motor vehicle safety issues that are administered by the 
National Highway Traffic Safety Administration (NHTSA). My staff and I 
look forward to working with this committee in addressing these issues 
of great national importance. Today I am pleased to appear with my 
fellow highway safety colleagues.
    In these uncertain times, the American public is looking to the 
highest levels of government for assurance of its safety. The President 
has pledged that the safety and security of our citizens is this 
Nation's highest priority. To that end, the Secretary of Transportation 
has established transportation safety as the Department's number one 
priority. NHTSA is pledged to solving the highway safety issues 
confronting this Nation.
    NHTSA's fiscal year 2004 budget request of $665 million will help 
us build on past successes to address highway safety. The paramount 
highway safety goal within the Department is to reduce the fatality 
rate on our Nation's roadways to no more than 1.0 fatality for every 
100 million vehicle miles traveled (VMT) by 2008. This is not just a 
NHTSA goal; it is a goal of the entire Department of Transportation. 
Our fiscal year 2004 budget request reflects the resources NHTSA needs 
if we are to attain this goal, along with the help of our DOT 
colleagues, the States, and the many non-Governmental organizations 
that are partners in this effort.
    Motor vehicle crashes are responsible for 95 percent of all 
transportation-related deaths and 99 percent of all transportation-
related injuries. They are the leading cause of death for Americans 
ages 2-33. The total number of highway fatalities has been increasing 
slightly since 1998, while the rate per vehicle miles traveled has 
decreased. Preliminary estimates for 2002 indicate that an estimated 
42,850 people were killed on America's roads and highways, up 1.7 
percent from 2001. The fatality rate per 100 million vehicle miles 
traveled (VMT) remained unchanged at 1.51, according to these 
estimates. Collectively, we have much work to do since the Department 
has established a performance goal of no more than 1.38 fatalities per 
100 million VMT by the end of fiscal year 2004.
    Traffic injuries in police-reported crashes decreased by four 
percent in 2002. This is excellent news. But we still are faced with 
the overwhelming fact that, during that same year, nearly 3 million 
people were injured in these crashes. The average cost for a critically 
injured survivor is estimated at $1.1 million over a lifetime. This 
figure does not even begin to reflect the physical and psychological 
suffering of the victims and their families.
    Traffic crashes are not only a grave public health problem for our 
Nation, but also a significant economic problem. Traffic crashes cost 
our economy $230.6 billion in 2000, or 2.3 percent of the U.S. gross 
domestic product. This translates to an average of $820 for every 
person living in the United States. Included in this figure is $81 
billion in lost productivity, $32.6 billion in medical expenses, and 
$59 billion in property damage. If safety is our number one priority, 
our Nation must become more aware of the deaths of nearly 43,000 
Americans, the cost of these deaths, and the solutions. Given increased 
mobility estimates and the likely increase in miles traveled, a failure 
to improve the fatality rate will result in more than 50,000 Americans 
killed annually by 2008.
    Consequently, our fiscal year 2004 budget request of $665 million 
is a performance-based budget with clear goals and measures. In 
addition, the budget is established around two major performance-based 
programs: Vehicle Safety and Traffic Injury Control. Program budgets 
are grouped under their corresponding goals for more efficient use of 
resources and more accurate performance measurement in meeting each 
goal. The budget includes measurable performance targets and outputs 
that clearly demonstrate not only how, but also how well, the budgetary 
resources are expended.
    Before discussing the highlights of our program, I want to describe 
briefly the restructuring we are proposing for highway safety grants. 
The fiscal year 2004 budget consolidates all highway traffic safety 
grant resources provided by TEA-21 ($447 million) within NHTSA. This 
includes $222 million of resources for the Sections 157 and 163 grant 
programs formerly appropriated in the Federal Highway Administration's 
budget. NHTSA has administered these funds since their creation; the 
fiscal year 2004 budget merely proposes that those same funds be 
appropriated directly to NHTSA.
    The grant award process under TEA-21 was very complex and time 
consuming for the States, and resulted in increased administrative 
overhead that could otherwise be applied to safety programs. It 
contained eight programs with various qualification and administrative 
requirements. NHTSA wants to simplify the system by reducing the number 
of programs and streamlining the process to qualify for, and 
administer, grant funds. NHTSA is also tying additional Section 402 
funds to a State's highway safety performance, based on performance 
measures that are aligned with the national highway safety goals. Last 
week, the Administration released its proposal to reauthorize the 
surface transportation programs. These reforms are outlined in that 
proposal.

                           PROGRAM HIGHLIGHTS

    Deaths and injuries can be prevented by building on the proven 
success of existing programs and, when indicated, developing new 
programs and evaluating their effectiveness. Within the two broad 
program areas, our programmatic emphasis for fiscal year 2004 focuses 
on five priority areas: safety belt and child restraint use, impaired 
driving, vehicle rollover, vehicle compatibility and traffic records/
data collection. We have set up internal Integrated Project Teams 
(IPTs) in four of these areas to examine the issues and recommend 
solutions. The teams have recently concluded their work and have 
developed recommendations for the agency to pursue. Recently, the 
Secretary reiterated his commitment to implementing a balanced program 
focused on the 3 Es of Injury Prevention--engineering, enforcement, and 
education. The IPTs' work reflects the program strategies and options 
needed to produce such a balanced effort. My statement will address 
each of these.

Safety Belt and Child Restraint Use
    Safety belt use cuts the risk of death in a crash in half. The good 
news is that in 2002, safety belt use in the United States reached 75 
percent--an all-time high. All 50 States, the District of Columbia, and 
Puerto Rico had child passenger safety laws, and 49 States had adult 
safety belt laws in effect. As of October 2002, eighteen States, the 
District of Columbia, and Puerto Rico had primary safety belt laws in 
effect, meaning that drivers and passengers can be cited for failure to 
wear a safety belt. The remaining States, except New Hampshire, had 
laws preventing police from issuing a citation unless another traffic 
law was broken. These are referred to as secondary laws. New Hampshire 
continues to have no adult safety belt law. We are pleased to report 
that, due to immense effort and a successful partnership among 
government, safety groups, and African-American interest groups, safety 
belt use among African-Americans increased to 77 percent, a level above 
that of the general population, and an eight percentage-point increase 
since 2000. Belt use among those living in rural areas increased to 73 
percent in 2002, a five percentage-point gain. However, the bad news is 
that despite these success stories, we continue to have entrenched and 
intractable problems that continue to challenge us. Most notably, 
during 2002, the 25 percent of passenger vehicle occupants who failed 
to use safety belts cost themselves and America 6,800 preventable 
deaths and 170,000 preventable injuries, resulting in $18 billion in 
medical costs, lost productivity, and other injury-related expenses.
    Our safety belt use target for 2003 is 78 percent, and our 2004 
target is 79 percent nationwide. These targets are optimistic but 
achievable. Based on the National Occupant Protection Use Survey 
(NOPUS) data for 1994-2001, the agency estimates that each year 
approximately 8.5 percent of non-safety belt users have converted to 
being regular belt users. Continuing to convert this percentage each 
year becomes increasingly more difficult because, as the conversion 
occurs, the hard-core non-users become a higher proportion of the 
remaining non-users. If we are successful in meeting the 2004 target, 
an estimated 1,000 more lives would be saved and 28,000 more injuries 
prevented.
    Most passenger vehicle occupants killed in motor vehicle crashes 
continue to be totally unrestrained. If we were to achieve a national 
90 percent belt use, nearly 4,000 additional lives would be saved each 
year. This usage rate is not only possible, it can be exceeded. For 
example, in 2002, Hawaii achieved a 90.4 percent use rate, Puerto Rico 
a 90.5 percent use rate, California a 91.1 percent use rate, and 
Washington State a 92.6 percent use rate. To achieve these high use 
targets in the remaining States, NHTSA will need to continue to employ 
a combination of education, enforcement, and engineering strategies to 
raise belt use, particularly among the most at risk populations.
    States achieve high levels of belt use through enacting primary 
safety belt laws, strict enforcement of existing laws, public education 
using paid and earned media, and high profile law enforcement programs, 
such as the Click it or Ticket campaign. Highway safety research and 
our continuing evaluation of our programs have demonstrated that an 
intensive, high visibility traffic enforcement program significantly 
increases safety belt use.
    NHTSA has supported high visibility enforcement for the last 
decade, following a model that was developed in several States in the 
early 1990s. With funding authorized under TEA-21 and with support from 
this Committee, these campaigns have grown tremendously, saving 
thousands of lives. Following a highly effective Click It or Ticket 
program in eight southeastern States in 2001, the agency undertook a 
similar campaign involving media saturation and highly visible 
enforcement in 30 States in May 2002. In a study of ten States that 
completely adopted the model, safety belt use was shown to increase an 
average of nine percentage points, with one State--Vermont--
experiencing a 19 percentage-point increase, followed by West Virginia 
with a 15 percentage-point increase.
    We are in the midst of carrying out the 2003 Click It or Ticket 
national campaign. This year, 43 States, the District of Columbia, and 
Puerto Rico qualified for grant funds to support Click It or Ticket 
campaigns. This year, Congress provided funding for NHTSA to purchase 
$10 million of national advertising that will further enhance the 
benefit of these State and local enforcement campaigns. These ads are 
currently playing. In addition, the occupant protection program 
includes demonstrations of new strategies for increasing belt use among 
high-risk, low-use groups, such as pick-up truck drivers, minorities, 
and teens. Support for the high visibility enforcement campaigns, 
together with resources to support paid and earned media and new 
strategies for reaching high-risk groups, will contribute to achieving 
our 2003 target and prepare for further gains in coming years.
    In fiscal year 2004, NHTSA plans to continue to encourage States to 
embrace the Click It or Ticket campaign and to begin investigating 
strategies to assist States with integrating high visibility 
enforcement into their ongoing routine enforcement. NHTSA has proposed 
a new primary safety belt law incentive grant program that is expected 
to result in additional States upgrading their laws, and a performance-
based safety belt use rate grant program for States to encourage them 
to make progress on raising safety belt use. In 2002, States with 
primary safety belt laws averaged 80 percent use, 11 percentage points 
higher than those with secondary laws. We are hopeful that by rewarding 
States for enacting primary safety belt laws or achieving 90 percent 
use rates, fatalities and injuries in those States will decline. As an 
additional inducement, we are proposing that the States receiving such 
incentive awards be permitted to apply those funds to highway safety 
infrastructure projects contained in the State's Integrated Highway 
Safety Improvement Program. In addition, the agency will utilize the 
results of our high-risk group demonstration programs to develop 
educational programs and materials that are intended to increase use 
among these populations.
    We will continue these high profile programs in fiscal year 2004 
because they succeed in reminding the motoring public that using safety 
belts and child safety seats saves lives, and create an added incentive 
to wear belts for those who currently break the law. We are serious 
about reducing the yearly financial toll to America from the failure to 
wear safety belts.
    In addition to our success in raising safety belt use, we have made 
steady progress in getting more children restrained. Restraint use by 
young children rose to unprecedented levels in 2002. In 2002, NHTSA's 
NOPUS survey showed that the rate for child restraint use was 99 
percent for infants (under 12 months), 94 percent for toddlers (1-3 
years), and 83 percent for children ages 4-7. Our 2002 estimates 
indicate that fatalities among children ages 0-7 years continued to 
decline, reaching another historic low. Unfortunately, these data also 
show an increase in highway deaths for children 8-15 years. The number 
of occupant fatalities for children in this age range rose by nearly 
nine percent over 2001.
    To comply with the Transportation Recall Enhancement, 
Accountability, and Documentation (TREAD) Act's goal of reducing deaths 
and injuries by 25 percent among 4- to 8-year-olds by 2006, NHTSA 
published a five-year strategic plan in a report to Congress in June 
2002, focusing on improving consumer awareness, booster seat safety 
benefits, and the enforcement of booster seat laws, as well as a study 
on the overall effectiveness of booster seats. A November 5, 2002, 
final rule established a consumer information program to rate child 
restraints on ease-of-use. The fiscal year 2004 New Car Assessment 
Program (NCAP) budget request will support child safety seat Ease-of-
Use ratings for over 90 percent of the child safety seats on the 
market. These ratings will be published annually in a brochure and on 
the Internet, starting this spring.

Impaired Driving
    Impaired driving rates have decreased for drivers of all age groups 
involved in fatal crashes over the past decade, with drivers 25 to 34 
years old experiencing the greatest decrease, followed by drivers 16 to 
20 years old. However, our 2002 estimates indicate that alcohol-related 
fatalities rose for the third consecutive year. Preliminary 2002 data 
indicate that an estimated 17,970 people died in alcohol-related 
crashes (42 percent of the total fatalities for the year), and even 
though this is a 25 percent reduction from the 23,833 alcohol-related 
fatalities in 1988, it is an increase of 3 percent over 2001. We must 
reduce these statistics even further through more aggressive programs 
that deter impaired driving.
    NHTSA's target for 2004 is to reduce the rate of alcohol related 
fatalities to 0.53 per 100 million VMT from the current 2002 actual 
rate of 0.64.
    In 2003, the agency is encouraging States to adopt high-profile law 
enforcement programs, combined with paid and earned media saturation. 
These programs will combine a high level of sustained enforcement with 
intense enforcement mobilizations around the July 4 and December 
holiday periods. As with the Click It or Ticket campaign, these 
programs will use both paid and earned media to alert the public about 
the increased risk of arrest if they fail to observe highway safety 
laws. In fiscal year 2002, Congress provided $11 million for paid media 
and $1 million for evaluation in support of these programs. NHTSA is 
working intensely with 13 States on this type of high visibility, 
enforcement-focused campaign. The first of these campaigns was in 
December 2002 through early January 2003. We are currently collecting 
the data from these States to determine the overall success of this 
mobilization on the numbers of deaths and injuries. We appreciate the 
support of Congress in enhancing these law enforcement campaigns.
    In fiscal year 2003, we are also continuing to support State 
activities to upgrade impaired driving laws. Currently, 39 States, the 
District of Columbia, and Puerto Rico have enacted laws making it 
unlawful for a driver to operate a motor vehicle with a blood alcohol 
concentration (BAC) of .08 percent, up from 28 this time last year. In 
addition, all States and the District of Columbia now have zero 
tolerance laws setting the illegal BAC limit at no higher than .02 for 
drivers under age 21. We will continue to urge strong State legislation 
as a framework for an effective impaired driving program. In addition, 
NHTSA is conducting a range of demonstration programs to develop 
strategies for upgrading prosecution and adjudication processes, and 
improving impaired driver records systems to track repeat offenders.
    NHTSA's fiscal year 2004 impaired driving program will continue to 
focus on highly sustained and periodic law enforcement campaigns, 
together with implementing improvements to the prosecution, 
adjudication, and records systems. We will also be developing 
additional strategies based in part on what we learn from the You Drink 
& Drive. You Lose. campaign results. For fiscal year 2004, the agency 
has proposed a State grant program that will focus resources on a small 
number of States with high alcohol-related crashes. The grant program 
will include support for States to conduct detailed reviews of their 
impaired driving systems by a team of experts and assist them in 
developing a strategic plan for improving programs, processes, and 
reducing impaired driving-related fatalities and injuries. This year, 
we have begun implementing recommendations from the Criminal Justice 
Summit on Impaired Driving held in November 2002. These include 
training and legal advice in the prosecution and adjudication of DWI 
cases, and working with licensing and criminal justice authorities to 
close legal loopholes. NHTSA will also focus on the increasing rates of 
motorcycle fatalities, particularly since 37 percent of all motorcycle 
fatalities are alcohol-related. Finally, in addition to the enforcement 
campaign and grant program, in fiscal year 2004 we will continue to 
focus on the most at-risk populations such as youth, 21-34-year-olds, 
and repeat offenders, and conduct more studies on finding vehicle-based 
solutions for impaired driving behavior including using the National 
Advanced Driving Simulator. These studies will be used to refine agency 
countermeasures and regulatory initiatives.
    NHTSA believes that continued nationwide use of sustained high-
visibility enforcement, encouraging States to adopt proven remedies and 
paid and earned media campaigns, together with the targeted State grant 
program and support activities, will lead to a resumption of the 
downward trend in alcohol-related fatalities that we experienced over 
the past decade.

Vehicle Rollover
    Rollovers account for less than five percent of all passenger 
vehicle crashes, but one-third of passenger vehicle occupant deaths. In 
2002, an estimated 10,626 people died in the United States in rollover 
crashes, up 4.9 percent from 10,130 in 2001. This type of crash 
accounts for less than five percent of all passenger vehicle crashes, 
but one-third of passenger vehicle occupant deaths. Light trucks 
(particularly pickup trucks and sport utility vehicles) have a rollover 
rate significantly higher than passenger cars because light trucks have 
higher centers of gravity and are more prone to rollover during certain 
handling maneuvers. Fatalities in rollover crashes involving pickup 
trucks and sport utility vehicles accounted for 53 percent of the 
estimated increase in highway fatalities for 2002. Since light trucks 
account for an increasing portion of total light vehicle sales, deaths 
and injuries in rollover crashes will become a greater safety problem 
unless something changes.
    One step we have taken (beginning in 2001) is to rate vehicles in 
our New Car Assessment Program (NCAP) for their propensity to rollover. 
Our NCAP ratings are based on the vehicle's static stability factor, 
which is calculated based on the height of the vehicle's center of 
gravity and its track width. These rollover ratings correlate very 
closely with experience in real-world crashes. The lowest rated, one-
star vehicles in our rollover NCAP have a 40 percent chance of rollover 
per single vehicle crash compared to a 10 percent chance for vehicles 
with the highest five-star rating. The National Academy of Sciences 
independently evaluated our rollover NCAP ratings and found that our 
current ratings are valuable and accurate, but suggested the ratings 
could be even better if we also evaluated vehicles in a dynamic 
rollover test that measures how vehicles perform in emergency steering 
conditions. We have proposed to adopt this change, consistent with 
Congress's direction in the TREAD Act, and our fiscal year 2004 budget 
includes $1.9 million to implement this change in the 2004 model year. 
We believe this combined rollover rating will help us understand the 
real-world rollover experience and thereby give the American public a 
more useful piece of information for choosing a new vehicle.
    Our experience in rating vehicles for rollover shows that vehicles 
differ significantly. For instance, sport utility vehicles receive from 
one star to four stars for rollover resistance. Pickup trucks range 
from one star to three stars. We want to make sure that people who are 
choosing to drive sport utility vehicles and pickup trucks have the 
information that will allow them to choose the ones less prone to roll 
over.
    While we would like to prevent rollovers from happening in the 
first place, we recognize that some rollover crashes will occur. Thus, 
we must also consider other actions that will help reduce deaths and 
injuries in rollover crashes. We expect to announce proposed upgrades 
of our door lock requirements and our roof crush standard in fiscal 
year 2004. Finally, we are considering a proposal to reduce ejections 
through windows.
    However, there is another step that we need to emphasize for 
improved safety in rollovers--one that can be taken today with no 
changes whatever to vehicles. We can significantly reduce deaths and 
injuries in rollover crashes if we can get more Americans to use the 
safety belts that are in their vehicles today. Most people killed in 
rollovers are ejected totally or partially from the vehicle. Safety 
belts can prevent nearly all of these ejections. Safety belts are 80 
percent effective in preventing deaths in rollovers involving light 
trucks and 74 percent effective in rollovers involving passenger cars.

Vehicle Compatibility
    The vehicle fleet has changed dramatically in the last 20 years, 
and these changes have given rise to an unprecedented vehicle mismatch 
in vehicle-to-vehicle crashes. Of course, vehicle compatibility has 
been a concern for longer than the past 20 years, but the earlier 
concerns about compatibility among different vehicles on the road were 
primarily related to differences between large and small cars, and the 
primary difference was simply the mass of the vehicles. However, more 
recently, the rising popularity of light trucks, vans, and SUVs has 
made the problem substantially more complex. Now, in addition to 
differences in vehicle mass, we must address inherent design 
differences, including disparities in vehicle height, geometry, and 
vehicle stiffness. The fleet average weight of light passenger vehicles 
that was approximately 3,000 pounds in 1990 is almost 4,000 pounds 
today. Similar changes are occurring in front-end heights and 
stiffness. The average initial stiffness of light trucks is about twice 
that of passenger cars. This increases the risk of death and injury to 
occupants in certain passenger vehicles when they interact with the 
more aggressive ones.
    While light trucks and vans (LTVs) account for 38 percent of all 
registered vehicles, they are involved in approximately half of all 
fatal two-vehicle crashes involving passenger cars. In these 
collisions, about 80 percent of the fatalities are passenger car 
occupants. We need to address this problem now since LTVs constitute 
half of all new vehicle sales.
    An Integrated Project Team from offices within the agency has been 
addressing this issue. I expect to publish that team's recommendations 
for public comment in the very near future. This team has identified 
some ways in which the safety features of a struck vehicle may be 
improved to better protect the occupants in a crash with a more 
aggressive vehicle and measures to reduce the aggressiveness of 
striking vehicles. The safety problems associated with vehicle 
compatibility are complex and will need focused research and other 
efforts to solve them.
    The greatest problem in vehicle compatibility occurs when an LTV 
strikes a passenger car in the side. In the near term, we expect to 
propose a significant upgrade to our side impact protection standard. 
While improving upon the protection already provided to the chest and 
pelvis in our side impact standard, this upgrade will also add a 
measure of head protection to our side impact standard, because our 
data show that head injury is a serious risk in side crashes. We will 
also explore the idea of adding different sized dummies to our side 
impact standard.
    I am also happy to tell you that NHTSA is not the only party that 
is trying to address compatibility. Vehicle manufacturers have 
acknowledged that they also have a responsibility to address this 
issue. Manufacturers have formed their own working groups to develop 
recommendations for some voluntary actions that can be taken to improve 
vehicle compatibility. These manufacturers have committed to developing 
initial recommendations by late spring. In addition, the government of 
Japan has committed to share test data and other information with NHTSA 
on the issue of vehicle compatibility. With this international 
cooperation, the American people will get a much quicker response to 
the problem of vehicle compatibility than if NHTSA were to address this 
issue by itself.

Traffic Records/Data Collection
            Crash Causation Data
    NHTSA's fiscal year 2004 budget request includes a proposal to 
enable us to update our crash causation data, last generated 
comprehensively in the 1970s. Vehicle design, traffic patterns, numbers 
and types of vehicles in use, on-board technologies, and lifestyles 
have changed dramatically in the last 30 years. Old assumptions about 
the causes of crashes may no longer be valid. Since the agency depends 
on causation data to form the basis for its priorities, we must ensure 
that this data is current and accurate. We have requested $10 million 
to perform a comprehensive update of our crash causation data that will 
allow us to target our efforts for the next decade on the factors that 
are the most frequent causes of crashes on American roads.
    NHTSA has in place an infrastructure of investigation teams that 
will enable us to perform the study efficiently and accurately. These 
teams are currently performing a similar study for large, commercial 
truck crashes and are adept at gathering evidence from the crash 
scenes, the hospital, and from victim and witness interviews. Their 
findings will guide the agency's programs in crash avoidance, including 
vehicle technologies, as well as human factors.

            State Traffic Records
    Reliable, valid, and comprehensive crash data are the backbone of 
all efforts to improve highway safety. Accurate problem identification 
is vital if the highway safety community is to understand the scope and 
extent of their crash issues. Problematic to this is the fact that 
States are under increasing budgetary constraints that severely impact 
their ability to maintain or improve their Traffic Records System (TRS) 
data. Due to personnel reductions, law enforcement agencies in many 
States now maintain data only on fatal and severe injury crashes as 
opposed to crashes of all severities. Deficiencies in States' TRS data 
negatively impact national databases including the Fatality Analysis 
Reporting System, General Estimates System, National Driver Register, 
Highway Safety Information System, and Commercial Driver License 
Information System, as well as State data used to identify local safety 
problems. In fiscal year 2004, NHTSA is requesting an additional $50 
million for a new Traffic Records/Data Improvement Program in the 
States. The new initiative will provide incentive grants to States to 
support improved TRS data. In addition to police reports, emergency 
medical services, driver licensing, vehicle registration, and citation/
court data provide essential information not available elsewhere. All 
would be improved by this program. Accurate State TRS data are critical 
to identifying local safety issues, applying focused safety 
countermeasures, and evaluating the effectiveness of countermeasures.
    Mr. Chairman, this concludes my statement. I would like to thank 
the Committee for its continued steadfast support of our programs. I 
look forward to working with you, as well as my partners appearing 
today to testify, in developing a strong and productive performance-
based, results-oriented, safety program that will provide national 
leadership through effective and efficient programs. I would be pleased 
to answer any questions.

              Federal Motor Carrier Safety Administration

STATEMENT OF ANNETTE SANDBERG, ACTING ADMINISTRATOR
    Senator Campbell. Ms. Sandberg.
    By the way, your complete written testimony will be 
included in the record. If anyone on the panel wants to 
abbreviate, feel free to do so.
    Ms. Sandberg. Thank you, sir.
    Good morning, Mr. Chairman and members of the committee.
    Thank you for the opportunity to appear before you today to 
discuss the Federal Motor Carrier Safety Administration's 
initiatives in fiscal year 2004. I want to thank you for your 
support and the resources you have provided to our agency since 
our creation in 1999.
    Fatalities and crashes involving large trucks have declined 
4 years in a row. This is significant progress. However, we 
know we can make our highways even safer.
    Accordingly, a goal of the Bush Administration is to 
improve safety and to reduce the number of accidents and deaths 
on our highways. Fulfilling this goal is Secretary Mineta's top 
priority. I, too, share this priority.
    DOT's current highway safety goal is to reduce the fatality 
rate by 41 percent by the year 2008. This equates to a rate of 
1 fatality per 100 million vehicle miles traveled.
    The Federal Motor Carrier Safety Administration has a goal 
that is part of the overall Department goal. The Federal Motor 
Carrier Safety Administration's goal is a rate of 1.65 
commercial vehicle crash fatalities per 100 million miles of 
truck travel. Achieving our goal will be challenging, as 
commercial vehicle miles of travel is increasing at a rate 
faster than passenger car miles of travel.
    The Motor Carrier's performance-based budget is consistent 
with the goals and programs established in SAFETEA, the 
administration's reauthorization proposal. Our fiscal year 2004 
request focuses resources in several critical areas.
    One of these areas is our New Entrant Program. As directed 
by Congress, the New Entrant Program will require that new car 
carriers undergo a safety audit within their first 18 months of 
operation. New entrants represent a significant commercial 
motor vehicle safety risk. Statistics show new carriers are 
less likely to know and to comply with Federal safety 
standards.
    Our fiscal year 2004 budget request includes resources for 
a Federal/State partnership to implement the New Entrant 
Program. Forty-six States are committed to working with us, in 
full or in part, to conduct new entrants safety audits. We 
believe that the Federal/State partnership will yield 
significant benefits.
    Another area for investment is hazardous materials 
transportation. Each day more than 800,000 hazardous material 
shipments cross the United States, 94 percent of which travel 
by highway. Our goal is to achieve a 20 percent reduction in 
truck-related HAZMAT incidents by the year 2010. We will 
accomplish this goal through targeted enforcement and 
compliance efforts, including the implementation of a 
permitting program for certain carriers of extremely hazardous 
materials.
    In partnership with the States, we propose to expand 
inspection efforts at the northern border with an emphasis on 
increased roadside inspections at remote border crossings. 
Inspecting commercial motor vehicles transporting hazardous 
materials will be a priority with emphasis on driver's license 
checks and vehicle screening for explosives. We anticipate that 
the program will yield more inspections of Canadian vehicles, 
more inspections of vehicles transporting HAZMAT, and an 
increased inspection presence at the U.S. and Canadian border 
crossings.
    Southern border safety also remains a priority for our 
agency. The fiscal year 2002 Appropriations Act required that 
the DOT Inspector General verify that a number of statutory 
conditions be met before the U.S./Mexican border could order to 
long haul commercial traffic. The Federal Motor Carrier Safety 
Administration has met these requirements.
    Currently, the border remains closed due to a ruling of the 
9th Circuit Court of Appeals. The administration is considering 
appropriate next steps. Meanwhile, our agency is ready now to 
ensure the safety of border operations and will be ready 
whenever the border opens.
    Another area of investment is the Commercial Drivers 
License Grant Program. We propose increasing the CDL grant 
funding in fiscal year 2004 to improve State control and 
oversight of licensing and third-party testing facilities to 
detect and prevent fraudulent testing and licensing activities, 
and to support the transfer of Mexican and Canadian driver 
conviction and disqualification data from the States to the 
Federal Motor Carrier Safety Administration's central 
depository.
    FMCSA is concerned about the increasing number of consumer 
household goods complaints. The FMCSA receives thousands of 
complaints annually about household goods carriers. In our 
fiscal year 2004 budget request, FMCSA requested additional 
staff to enhance our ability to pursue enforcement against 
these abusive carriers.
    Finally, it is crucial that the Federal Motor Carrier 
Safety Administration institute a number of medical 
certification programs in the fiscal year 2004, including an 
establishment of a medical review board, the certification of 
medical examiners, and the pilot programs on medical waivers 
and exemptions. Establishment of the registry would respond to 
the National Transportation Safety Board, which issued eight 
safety recommendations in September, 2001, recommending that 
FMCSA establish more comprehensive standards for qualifying 
medical providers and conducting medical qualification exams.

                           PREPARED STATEMENT

    I look forward to working with this subcommittee to advance 
our mutual goal of improving safety on our Nation's highways, 
and would be happy to answer any questions that you may have.
    Thank you very much.
    [The statement follows:]

                 Prepared Statement of Annette Sandberg

    Good morning, Chairman Shelby, Ranking Member Murray, and Senators. 
Thank you for this opportunity to discuss plans for the Federal Motor 
Carrier Safety Administration (FMCSA) in fiscal year 2004. The ongoing 
support provided by this Committee has enabled FMCSA to make 
significant progress on several safety fronts, including increased 
safety enforcement and compliance, as well as enhanced border safety 
operations. Though we have seen fatalities in crashes involving trucks 
reduced for four years in a row, clearly there is more that needs to be 
done. My commitment is to improve commercial motor vehicle safety by 
bringing greater efficiency and effectiveness to FMCSA's programs and 
activities as reflected in the Administration's fiscal year 2004 budget 
submission, and as envisioned by Congress when the agency was created. 
This budget is consistent with the goals and programs established in 
the Administration's reauthorization proposal, the Safe, Accountable, 
Flexible, and Efficient Transportation Equity Act of 2003 (SAFETEA), 
released on May 14.
    The Department recognizes that a collaborative effort among 
agencies is needed to significantly reduce the fatality rate on our 
Nation's highways. The DOT highway safety goal is to reduce the 
fatality rate by 41 percent by 2008. This equates to a rate of one 
fatality per 100 million vehicle-miles-traveled. To achieve the DOT 
goal, FMCSA, along with the National Highway Traffic Safety 
Administration and the Federal Highway Administration, set goals within 
their respective programs to contribute to meeting the Department-wide 
target. FMCSA's targeted contribution to the DOT goal is set at a rate 
of 1.65 commercial vehicle crash fatalities per 100 million miles of 
truck travel by 2008. Achieving our goal will be a particular 
challenge, as commercial vehicle miles of travel have been growing at a 
faster rate than passenger car miles of travel. On average, over the 
past 15 years, truck and bus travel has increased by 3.4 percent 
annually while passenger car travel increases have been running at 2.8 
percent. This trend is projected to continue.
    I believe that our success will be driven by how well we target our 
resources at safety problems. To do this effectively, we must use the 
multiple data sources available to us. FMCSA is a data-driven, 
performance-based organization. This makes the timely collection of 
complete data a critical goal for us. Our programs and activities will 
be focused on reliable and timely data upon which to base our policy 
and programmatic decision-making and allocation of our operational 
resources. Our performance-based approach will enable us to accomplish 
three critical objectives: 1) achieve dramatic improvements in 
commercial motor vehicle safety; 2) ensure that resources are directed 
toward activities with the potential for the greatest safety impact; 
and 3) develop information that demonstrates the value of the 
government's investment in safety.
    FMCSA's fiscal year 2004 budget request has been structured to 
strengthen the linkage between resources and accomplishment of these 
objectives. We have integrated our budget and performance information, 
framed around the achievement of objectives in several critical areas.

                          NEW ENTRANT PROGRAM

    Let me begin by outlining a critical area for investment, FMCSA's 
New Entrant Program. As Congress set out in the Motor Carrier Safety 
Improvement Act of 1999, a new entrant program to bring motor carriers 
into compliance with safety regulations at the onset of operations can 
improve safety. These new entrants, numbering 40,000-50,000 annually, 
represent a significant commercial motor vehicle safety risk. Our 
fiscal year 2004 budget request includes resources for a Federal-State 
partnership effort to implement the New Entrant Program.
    Overseeing and supporting the conduct of safety audits, 
establishing baseline data, and implementing a program of regular data 
collection to assess the progress of the New Entrant Program will 
enable FMCSA to fulfill the statutory mandate to improve new entrant 
safety performance. This program will also meet the requirements set 
out in Section 350 of the fiscal year 2002 DOT Appropriations Act as a 
precondition to opening the Southern border to Mexican commercial 
vehicles.
    We know already that 46 States will work with us, in full or in 
part, to conduct new entrant safety audits. These States have agreed to 
provide approximately 195 of the estimated 262 State and Federal 
personnel needed to audit the 40,000 to 50,000 new entrants per year. 
The State personnel will be either new hires or be reassigned from 
other law enforcement duties. In fiscal year 2003, these individuals 
are supported through Motor Carrier Safety Assistance Program grant 
funds. Contracted safety auditors will be used to make up the balance 
of staff needed. We also plan to hire 32 full-time Federal staff to 
cover program oversight, including management, review, and approval of 
the safety audits. We believe this Federal-State partnership will yield 
significant results by placing funds in the hands of those closest to 
the new entrant population, while maintaining appropriate Federal 
support and oversight.

                       HAZMAT SAFETY AND SECURITY

    Another area where resources are needed is in the transportation of 
hazardous materials. Each day, there are more than 800,000 shipments of 
HAZMAT in the United States, 94 percent of which move by highway. We 
have established a goal of a 20 percent reduction in truck-related 
hazardous materials incidents by 2010, as measured from the baseline of 
2000. We plan to accomplish this through targeted enforcement and 
compliance efforts.
    First, our request includes funds for a HAZMAT permitting program 
for certain carriers of extremely hazardous materials, as required by 
Congress. This program will ensure that carriers of these dangerous 
materials have implemented safety and security measures. FMCSA 
anticipates issuing 2,700 HAZMAT permits in fiscal year 2004.
    Second, a program to enhance commercial motor vehicle safety and 
security at the northern border is being proposed. In partnership with 
the States, we propose to expand current inspection efforts at the 
northern border with an emphasis on conducting additional roadside 
inspections at or near the more remote border crossings. The highest 
priority will be given to inspecting commercial motor vehicles 
transporting HAZMAT, with emphasis on driver license checks and vehicle 
screening for explosives. It is anticipated that 200,000 HAZMAT vehicle 
inspections will be performed at the northern border in 2004 by the 
State inspectors hired under this program.
    Third, FMCSA will continue its base program of hazardous materials 
regulatory compliance and outreach and education. For example, 
responding to the events of September 11, FMCSA contacted nearly 42,000 
hazardous materials carriers and conducted nearly 31,000 Security 
Sensitivity Visits. FMCSA has since launched a program of ``Security 
Contact Reviews'' to maintain a high level of vigilance within the 
industry. Funds requested will enable FMCSA to integrate Security 
Sensitivity Visits into compliance review activities conducted by our 
field offices.

                      SOUTHERN BORDER ENFORCEMENT

    Southern Border safety activities remain a high priority for FMCSA. 
In the fiscal year 2002 Appropriations Act, Congress established 
requirements for opening the U.S.-Mexico border to long-haul commercial 
traffic. One of these requirements was that the DOT Inspector General 
must verify that all statutory conditions have been satisfied. As DOT 
Inspector General Ken Mead reported in March, FMCSA has met these 
requirements, including the hiring and training of enforcement 
personnel and the establishment of inspection facilities and safety 
procedures at the southern border. Because of our actions, Secretary 
Mineta was able to certify that the Department had met the requirements 
of Section 350 providing a basis for the President to lift the 
moratorium on granting operating authority for Mexican carriers to 
operate within the interior of the United States.
    Currently, the border remains closed due to the 9th Circuit Court 
ruling that DOT had not conducted the appropriate, in-depth 
environmental analysis for certain rules designed to satisfy the 
Congressional requirements. The Court held that the environmental 
assessment that the agency prepared was inadequate, and that FMCSA 
should have prepared an Environmental Impact Assessment and Clean Air 
Act Conformity Analysis. The Administration filed an en banc appeal of 
the decision to the 9th Circuit on March 10, which was denied. The 
Administration is considering appropriate next steps in responding to 
the ruling. Meanwhile, FMCSA is ready now, and will be ready whenever 
the border is opened, to ensure the safety of border operations. At 
present, border inspectors and auditors are conducting inspections and 
safety audits on commercial zone carriers. Border safety investigators 
are assisting other FMCSA staff in conducting compliance reviews to 
maintain their skills, as well as conducting compliance reviews on 
commercial zone carriers. Additionally, border safety investigators 
have been deployed to do additional inspections at the border.

                COMMERCIAL DRIVERS LICENSE (CDL) GRANTS

    Improving the accuracy and completeness of driver history records 
is key to enhanced safety. The driver's license is the main form of 
personal identification in the United States. Ensuring positive 
identification license holders is dependent upon a diverse set of 
security technologies. Particularly in the transport of hazardous 
materials, States need current driver licensing technology for security 
purposes. Grants under this program will allow States to enhance this 
technology.
    We are proposing increased CDL grant funding in fiscal year 2004 to 
accomplish: 1) improving State control and oversight of State licensing 
agency and third party testing facilities; 2) developing management 
control practices to detect and prevent fraudulent testing and 
licensing activities; 3) supporting State efforts to conduct Social 
Security Number and Immigration and Naturalization Service number 
verification for CDLs; and 4) maintaining the central depository of 
Mexican and Canadian driver convictions in the United States, the 
disqualification of unsafe Mexican and Canadian drivers, and the 
notification of Mexican and Canadian authorities of convictions and/or 
disqualifications.
    Together, these activities will add to the variety of driver's 
license technologies for safety and security, as well as enhancing our 
ability to identify problem drivers.

                      HOUSEHOLD GOODS ENFORCEMENT

    I am sure that the Chairman and Senators of this Subcommittee, as 
well as your Senate colleagues, have noticed an increase in the number 
of constituent complaints regarding unscrupulous household goods 
carriers. The letters we receive, as well as the calls coming into the 
FMCSA hotline, have been increasing. FMCSA receives thousands of 
consumer complaints annually. Currently, the Agency has three full-time 
commercial investigators devoted to the Household Goods Enforcement and 
Compliance program and has budgeted for more in fiscal year 2004 to 
expand enforcement of the Federal Motor Carrier Commercial Regulations.
    While the household moving industry as a whole performs over a 
million successful moves annually, a small group of unscrupulous people 
scattered over a handful of States has used this industry to defraud 
unsuspecting consumers of their hard-earned money. The complaints from 
the American moving public have reached significant proportions. FMCSA 
has gathered data to define how, when, and where to focus a limited 
number of requested resources to inoculate the public against these 
predators.
    These resources will establish a more visible enforcement program 
through increased investigations, and a more robust outreach effort to 
reduce the number of consumer complaints filed against household goods 
carriers and brokers. Our efforts will also be aimed at increasing 
consumer awareness to allow the public to make better-informed 
decisions before they move across State lines.
    FMCSA also proposes to conduct an extensive study of existing 
Household Goods Dispute Settlement Programs and alternative arbitration 
programs in the household goods moving industry. We need this critical 
information to determine the extent of the challenge, to determine 
effective strategies and countermeasures, and to evaluate the 
effectiveness of these programs in resolving loss and damage disputes 
and claims between shippers and carriers.
    Household goods carriers operating in interstate commerce are 
required to have or participate in an arbitration program as a 
condition of their registration with FMCSA. The arbitration programs 
must comply with the requirements of 49 U.S.C. 14708, and the carrier 
must submit to binding arbitration upon a shipper's request for cargo 
damage or loss claims of $5,000 or less. Seventy-five percent of the 
complaints we receive pertain to loss and damage claims. FMCSA believes 
this study is necessary to determine what changes are needed to assist 
the moving industry in establishing effective arbitration programs to 
resolve loss and damage disputes. Currently, FMCSA does not have 
adequate data or records to evaluate effectively the arbitration 
programs in the moving industry. We are hopeful that this study will 
provide a future roadmap to better address household goods complaints.

                         REGULATORY DEVELOPMENT

    Regulatory Development is the cornerstone of FMCSA's compliance and 
enforcement process. This is an area where greater attention and 
resources are needed to promulgate all mandated regulations to ensure 
program performance will not be compromised. For this reason, we are 
proposing to dedicate funds to our regulatory development program and 
have already implemented a defined operating procedure to further 
accelerate our efforts.
    I recently issued a directive to the agency establishing a revised 
process by which our agency will develop regulations. This directive is 
modeled on the procedures used in other Federal agencies. It promotes 
staff collaboration, establishes early regulatory evaluation and 
analysis, while setting out clear milestones. The new process is 
designed to improve both the quality and timeliness of our rulemakings. 
It is team-based and designed to build agency consensus through early 
involvement by senior managers. Staff has been instructed that all 
FMCSA rulemakings should immediately begin to follow the new procedures 
set forth in the order.
    The new process is already being put to use as FMCSA responds to a 
Writ of Mandamus. As you may know, on November 26, 2002, the DOT 
Secretary and FMCSA were served with a Petition for a Writ of Mandamus 
for Relief from Unlawfully Withheld Agency Action. Citizens for 
Reliable and Safe Highways (CRASH), Parents Against Tired Truckers 
(PATT), Teamsters for a Democratic Union (TDU), and Public Citizen 
filed the Petition. The Petition seeks a court order directing DOT to 
promulgate six regulations. In February 2003, the FMCSA, through a 
settlement agreement, committed to a timetable for completing these 
rules (referred to as the Mandamus rules). The Hours-of-Service rule 
was among them. FMCSA published the Final Rule on Hours-of-Service in 
the Federal Register on April 28, 2003. The effective date is June 27, 
2003, with a compliance date of January 4, 2004. This time period is 
needed to train 8,000 enforcement officers, update FMCSA computer 
systems and manuals, and to educate the industry.

                            MEDICAL PROGRAMS

    We will use our funds to examine alternative regulatory programs. 
Congress provided FMCSA with authority to establish exemption and pilot 
programs under strict safety controls. We now operate a vision 
exemption program where applications total more than 60 per month. We 
are approached routinely to consider other alternative programs to our 
safety regulations. These resource intensive programs require a 
consistent funding stream to operate successfully with ample oversight 
and over multiple years.
    Among the projected uses for regulatory development funding are the 
establishment of a medical review board and the creation of a national 
medical examiner registry. The medical review board will provide expert 
medical opinion and advice to the agency as we update our medical 
qualifications requirements. Expert medical advice will help us to 
supplement the experience of our staff and enhance our medical program.
    The medical examiner registry will permit FMCSA to provide more 
comprehensive information on medical practitioners to drivers and 
carriers. It will also help disseminate information to physicians 
regarding medical policies and requirements relevant to the physical 
qualifications of commercial drivers. This is an essential step to 
upgrade the quality of CDL driver medical qualification exams. With the 
registry, we will be able to better monitor the quality and practices 
of medical examiners. A certification process will ensure that medical 
examiners are qualified to perform driver physical exams. Establishment 
of a medical registry would respond to the National Transportation 
Safety Board, which issued eight safety recommendations in September 
2001 requesting that FMCSA establish more comprehensive standards for 
qualifying medical providers and conducting medical qualification 
exams.

                       ORGANIZATIONAL EXCELLENCE

    Finally, I would like to speak to FMCSA's organizational capacity. 
Many lessons have been learned during these first three formative 
years. The agency has experienced the traditional growing pains of a 
new organization, but has also had to grapple with some nontraditional 
ones as well. The rapid rate at which new programmatic and management 
responsibilities came to the agency could not have been predicted. 
These new activities, like the opening of the U.S.-Mexico border and 
Security Sensitivity Visits, exacted a toll on both FMCSA and FHWA's 
administrative capacities. Each agency was inundated with ever-
increasing workloads and heightened performance expectations.
    The agency now finds itself at a critical juncture in its 
organizational development. It is poised to meet the challenges of the 
President's Management Agenda through human capital management, 
improved financial performance, competitive sourcing, performance based 
budgeting, and E-government. However, the agency's administrative and 
information technology infrastructures are in need of additional 
resources to support its workload and continue to focus on improved 
safety performance. Our request in fiscal year 2004 will enable FMCSA 
to procure the necessary administrative and information technology 
resources at competitive market rates.

                               CONCLUSION

    Thank you Mr. Chairman, Ranking Member Murray, and Senators of the 
Subcommittee for this opportunity to present my plans for the Federal 
Motor Carrier Safety Administration. I believe that your continued 
investment in the agency will be rewarded by improved data collection, 
reporting, analysis, and most importantly, higher levels of safety on 
our Nation's highways. I look forward to working with you to achieve 
our mutual goals and would be happy to answer any questions you may 
have.

                       NONDEPARTMENTAL WITNESSES

STATEMENT OF WENDY J. HAMILTON, NATIONAL PRESIDENT, 
            MOTHERS AGAINST DRUNK DRIVING
    Senator Campbell. Ms. Hamilton?
    Ms. Hamilton. Good morning. I am Wendy Hamilton, the 
National President of Mothers Against Drunk Driving.
    It is an honor to be here today testifying on DOT's fiscal 
year 2004 request and MADD's priorities for the reauthorization 
of TEA-21. We look forward to working with this committee to 
develop transportation policies that save lives and prevent 
injuries on our Nation's highways.
    I would like to take a moment to thank Chairman Shelby and 
Ranking Member Murray for their commitment to reduce traffic 
crashes and injuries and fatalities.
    In DOT's fiscal year 2003 budget, this subcommittee 
dedicated increased funding to NHTSA's impaired driving program 
and began a historic effort by funding paid media to publicize 
law-enforcement mobilizations designed to increase seatbelt use 
and reduce alcohol impaired driving.
    Senator Shelby and Senator Murray, your efforts mark the 
beginning of what MADD hopes will be a renewed National, State 
and local effort to reverse the deadly trend on our Nation's 
highways.
    For the third consecutive year, alcohol-related traffic 
deaths have increased. Early statistics show that last year 
nearly 18,000 people were killed and hundreds of thousands more 
were injured in these crashes. Alcohol-involved crashes 
accounted for an overwhelming 46 percent of all fatal injury 
costs.
    Unfortunately, the data speaks for itself. The Nation, 
including its political leaders, has become complacent in this 
effort. Lack of funding for effective behavioral traffic safety 
programs and minimal resources for law-enforcement officers to 
enforce existing laws are a major part of the problem.
    Last week, MADD released its new Federal plan for the 
reauthorization of TEA-21. On that day, we heard from members 
of the Senate who expressed their firm commitment to move the 
Nation in the right direction. MADD sincerely thanks Senator 
Murray, Senator DeWine, Senator Lautenberg, and Senator Dorgan 
for their participation in this event and their leadership to 
reduce traffic death and injury.
    Today, MADD is asking Congress and the administration to 
adopt MADD's research-based plan. I would like to submit our 
plan for the record and I believe that you have all received 
copies of this.
    Senator Campbell. It will be included in the record.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Ms. Hamilton. MADD's plan establishes a national traffic 
safety fund of $1 billion annually. Under this fund, MADD 
recommends dedicating increased funding for highly visible law 
enforcement activities.
    The ``Click It or Ticket'' national law enforcement 
mobilization campaign has been very successful in increasing 
seatbelt usage. We know that sobriety checkpoints are one of 
the most effective tools this Nation has to stop impaired 
driving, and that they are especially effective when coupled 
with media campaigns that raise the visibility of these 
efforts.
    Thanks to this committee, funds were dedicated in fiscal 
year 2003 to conduct these mobilizations. Why then has NHTSA 
not requested any funding to continue this lifesaving effort?
    I would like to thank Senator DeWine and Senator Lautenberg 
for introducing legislation today that would provide 
substantial funding for enforcement efforts to stop drunk 
driving and increase seatbelt use. If enacted, this bill will 
save lives.
    MADD also recommends dedicating increased behavioral 
funding for State efforts to improve traffic safety. While 
NHTSA's funding appears to have increased dollars for 
behavioral funding, this is not the case. Only a percentage of 
this funding will be spent specifically on behavioral safety 
since States are able to use much of this funding for roadway 
construction and highway safety projects. Though NHTSA 
continuously states that reducing alcohol-related traffic 
fatalities is a top priority, the fiscal year 2004 budget 
request simply does not support these claims.
    MADD was shocked to learn that the impaired driving 
programs merit less than one page out of DOT's 378-page SAFETEA 
proposal. SAFETEA actually decreases funding for alcohol-
impaired programs by 67 percent. The only funding specifically 
allocated for impaired driving is $50 million. The overwhelming 
majority of safety funding in the SAFETEA proposal is budgeted 
in the new Highway Safety Improvement Program which is really 
dedicated to roadway construction safety projects. This 
specific construction safety program receives an overwhelming 
117 percent increase.
    While construction safety is important, the DOT itself, 
along with the GAO, recognizes that human behavior not roadway 
environment is overwhelmingly seen as the most prevalent 
contributing factor to crashes. To compare DOT's recreational 
trails program, funded at $60 million in fiscal year 2004, it 
receives 20 percent more funding than the impaired driving 
grants program. It appears, from a budget standpoint, that 
keeping recreational trails safe for a small population of 
users is even more important to DOT than keeping all highway 
users safe from impaired drivers. Again why?
    MADD's plan calls for greater accountability controls to 
ensure that Federal funds are being used in a strategic and 
coordinated manner. Recently the GAO, at the request of Senator 
Dorgan, released a detailed report detailing the management and 
use of Federal highway safety funds. GAO concluded and 
``NHTSA's oversight of highway safety programs is less 
effective than it could be, both in ensuring the efficient and 
proper use of Federal funds and in helping the States achieve 
their highway safety goals.''
    GAO's report shows that in the face of rising traffic 
deaths more Federal oversight and guidance is needed for the 
expenditure of Federal safety dollars to ensure that these 
funds are spent on effective behavioral programs. This is 
fiscal responsibility.
    MADD is urging Congress to strongly encourage States to 
enact proven traffic safety laws, such as a national primary 
safety belt standard and high risk driver standards. MADD knows 
that the best defense against a drunk driver is a seatbelt. As 
NHTSA proposes, States should be given financial incentives to 
enact primary belt laws.
    However, States that do not enact this lifesaving measure 
after 3 years should lose Federal highway construction funds.
    MADD also calls for the enactment of a national standard to 
combat higher risk drivers. While higher risk drivers are a 
small portion of the problem, they pose a significant threat to 
motorists.
    Again, we thank Senator Lautenberg and Senator DeWine for 
introducing legislation today that targets this dangerous 
population. If enacted, this bill would close loopholes to 
ensure that repeat and high blood alcohol concentration 
offenders do not continue to slip through the cracks.
    This priority is one that has personal meaning to me. On 
September 19th, 1984, a high BAC driver caused the head-on 
collision that killed my 32-year-old sister, Becky and my 22-
month-old nephew, Timmy. The crash occurred at 1:50 p.m. on a 
beautiful Wednesday afternoon filled with sunshine. Three hours 
after that crash, the offender tested at a .16 blood alcohol 
concentration and police pulled four empty bottles of alcohol 
from his vehicle.
    This Nation lacks a clear coordinated solution to reduce 
impaired driving fatalities. Maintaining the status quo or, 
even worse, decreasing resources dedicated to fighting drunk 
driving will not reverse this deadly trend. The reauthorization 
provides the best chance, a historic opportunity to provide 
adequate behavioral safety funding to ensure that these funds 
are being used effectively and to enact laws that will save 
lives.

                           PREPARED STATEMENT

    I urge Congress to adopt MADD's proposal and create safer 
roads for all Americans. Thank you and I welcome the 
opportunity to answer questions.
    [The statement follows:]

                Prepared Statement of Wendy J. Hamilton

    Good Morning. My name is Wendy Hamilton and I am the National 
President of Mothers Against Drunk Driving. I am honored to be here 
today to testify on the Department of Transportation's (DOT) fiscal 
year 2004 budget request and MADD's priorities for the reauthorization 
of the Transportation Equity Act for the 21st Century (TEA-21). We look 
forward to working with the Committee to develop transportation 
policies that provide appropriate funding and employ effective, 
aggressive countermeasures to prevent injuries and save lives on our 
Nation's roads.
    I would like to take this opportunity to thank Chairman Shelby and 
Ranking Member Murray for their commitment to reduce traffic crash 
fatalities and injuries. In DOT's fiscal year 2003 budget Senator 
Shelby and Senator Murray dedicated increased funding to the National 
Highway Traffic Safety Administration's (NHTSA) impaired driving 
program, and began a historic effort by funding paid media to publicize 
law enforcement mobilizations designed to increase seat belt use and 
reduce alcohol-impaired driving. Senator Shelby and Senator Murray--
MADD's 2 million members and supporters thank you for your dedication 
and leadership to highway safety. Your efforts mark the beginning of 
what MADD hopes will be a renewed national, State and local effort to 
reverse the deadly trend on our Nation's highways.

   ADMINISTRATION OUTLINES HIGHWAY SAFETY AS A PUBLIC HEALTH CRISIS; 
      HOWEVER, FUNDING REQUESTS DO NOT ADEQUATELY ADDRESS PROBLEM

    According to DOT, motor vehicle crashes are responsible for 95 
percent of transportation sector deaths and 99 percent of all 
transportation-related injuries within the United States as well as the 
leading cause of death for people ages 4 through 33. In 2002, an 
estimated 42,850 people died on the Nation's highways, up from 42,116 
in 2001.
    This alarming amount of injury and death on our Nation's roadways 
creates a tremendous drain on the Nation's economy. Economic losses due 
to motor vehicle crashes cost the Nation approximately $230.6 billion 
each year, an average of $820 for every person living in the United 
States.
    DOT's announcement of preliminary 2002 fatality estimates calls for 
``better State laws that address the causes of the problem and stricter 
enforcement.'' But DOT's fiscal year 2004 request and its 
reauthorization proposal cut funding for behavioral safety initiatives, 
even while DOT's own research demonstrates that human behavior is 
overwhelmingly the leading factor in death and injury on our Nation's 
roads.

 ALCOHOL-RELATED TRAFFIC FATALITIES ON THE RISE FOR THIRD CONSECUTIVE 
                                  YEAR

    For the third consecutive year, alcohol-related traffic deaths have 
increased. Preliminary statistics show that nearly 18,000 people were 
killed and hundreds of thousands more were injured in these crashes 
just last year. That's 49 deaths and hundreds of injuries day in and 
day out. Alcohol-involved crashes accounted for 21 percent of nonfatal 
injury crash costs, and an overwhelming 46 percent of all fatal injury 
crash costs. In order to reverse this trend, the Nation cannot maintain 
the status quo and expect a different result.
    Last week at a national news conference, MADD commemorated the 15-
year anniversary of the worst drunk driving crash in U.S. history--the 
Kentucky Bus Crash. On May 14, 1988, 27 people--24 children and 3 
adults--were killed and 30 others were injured coming home from a 
church outing. They were victims of a repeat drunk driving offender, 
behind the wheel of his pickup driving on the wrong side of the road. 
He had a blood alcohol concentration of .24--three times the illegal 
limit today in Kentucky and the majority of all other States and DC.
    The Kentucky Bus Crash was heard around the world because 27 
perished and 30 others were injured in an instant. But tragically, one 
by one, over the past 15 years, the equivalent to 10,400 Kentucky Bus 
Crashes have occurred in our country as nearly 281,000 Americans have 
been killed and millions of others have been injured in alcohol-related 
traffic crashes since that tragic day.
    Unfortunately, the data speaks for itself: the Nation--including 
its political leaders--has become complacent in this effort. Drunk 
drivers continue to slip through cracks in the system. Weak laws, lack 
of funding for effective traffic safety programs and minimal resources 
for law enforcement officers to enforce existing laws are all part of 
the problem. There is no coordinated effort at the national, State and 
local level to combat this public health problem. Additionally, drunk 
driving is still often treated as a minor traffic offense rather than 
what it really is--the most frequently committed violent crime in our 
country.

           MADD'S SAFETY PLAN: PUTTING RESEARCH INTO PRACTICE

    Last week MADD released its new Federal plan for the 
reauthorization of Federal traffic safety programs. In conjunction with 
MADD's announcement, we heard from Members of the Senate who expressed 
firm commitment to move the Nation in the right direction. MADD 
sincerely thanks Senator Patty Murray, Senator Frank Lautenberg, 
Senator Mike DeWine and Senator Byron Dorgan for their participation in 
this event and for their leadership to reduce traffic death and injury.
    Today, MADD is asking Congress and the Administration to ensure 
that highway safety is a cornerstone of the reauthorized TEA-21. And 
they can do so by embracing MADD's research-based reauthorization plan. 
MADD's plan would:
  --Establish a National Traffic Safety Fund (NTSF)--$1 billion 
        annually--to provide a major infusion of dedicated Federal 
        funds to support State and national traffic safety programs, 
        enforcement and data improvements;
  --Under the NTSF:
    --dedicate increased funding for States and local communities to 
            expand highly visible law enforcement activities to reduce 
            impaired driving and increase seat belt use, including 
            national enforcement mobilizations supported by paid media;
    --dedicate significantly increased funding for State efforts to 
            improve traffic safety by implementing data-driven 
            programs;
  --Create stricter accountability controls to ensure that Federal 
        funds are being used in a strategic and coordinated effort at 
        both the State and Federal level;
  --Encourage States to enact priority traffic safety laws, such as 
        primary seat belt enforcement, higher-risk driver and open 
        container standards.
    I want to briefly talk in more detail about MADD's reauthorization 
priorities.
    Funding is key to the success of national, State and local traffic 
safety programs to reduce drunk driving. But in the year 2001, while 
traffic crashes cost taxpayers $230 billion, the Federal government 
spent only $522 million on highway safety and only one-quarter of that 
was used to fight impaired driving. Compared to the financial and human 
costs of drunk driving, our Nation's spending is woefully inadequate to 
address the magnitude of this problem.
    Establishing a National Traffic Safety Fund would give those on the 
front lines an increased, ongoing and reliable funding stream for 
national, State and local highway safety programs. MADD recommends an 
annual $1 billion dedicated fund for traffic safety programs. We know 
that for every dollar spent on effective highway safety programs about 
$30 is saved by society in the reduced costs of crashes. This would be 
a wise investment.
    States must have additional resources if they are expected to reach 
their highway safety goals. Section 402, State and Community Highway 
Safety grants, provides funding to States to support highway safety 
programs designed to reduce traffic crashes and resulting deaths, 
injuries, and property damage. TEA-21 authorized $163 million in fiscal 
year 2003 for Section 402 grants. MADD recommends a substantial 
increase in Section 402 funding to help States reach their highway 
safety goals. Of the $1 billion annually, MADD recommends $425 million 
for the reauthorized Section 402.
    Although alcohol is a factor in 42 percent of all traffic deaths, 
only 26 percent of all highway safety funding available to the States 
through TEA-21 is spent on alcohol-impaired driving countermeasures. 
Too often highway safety funding made available to the States is used 
for other programs that may not save as many lives or prevent as many 
injuries as priority traffic safety programs. It is critical that these 
funds are spent on data-driven programs that include comprehensive 
impaired driving and seat belt initiatives.
    The National Traffic Safety Fund would also be used to expand 
States' well-publicized law enforcement activities to curb drunk 
driving and increase seat belt use. These law enforcement resources 
would support training, over-time, technology and paid advertising 
throughout the year. Additionally, funds would be available for three 
highly visible national impaired driving and seat belt law enforcement 
mobilizations.
    These law enforcement activities should utilize, when possible, 
frequent and highly visible sobriety checkpoints. These are among the 
most effective tools used by law enforcement to deter impaired driving. 
We know through research and real world experience that sobriety 
checkpoints save lives. The CDC found that sobriety checkpoints can 
reduce impaired driving crashes by 18 to 24 percent. These checkpoints 
are especially effective when coupled with media campaigns that raise 
the visibility and awareness of drunk driving enforcement efforts in 
the community with the bottom line goal of deterring impaired driving 
before it happens.
    Without significant increases in the level of funding for these 
critical safety programs, the current deadly trend will continue to 
worsen.
    But it is just as important to know where the money is going and 
how it is being spent. That is why MADD is asking Congress to hold 
States and the National Highway Traffic Safety Administration 
accountable for the expenditure of Federal highway safety funds. Our 
goal is not to make their jobs more difficult. It is to recognize that 
political pressures and ``flavor of the month'' traffic safety issues 
can influence how dollars are spent. If DOT's primary goal is to 
reverse the current trend, it is time to create a more consistent 
process that ensures the efficient and proper use of Federal funds to 
help the Nation achieve its highway safety goals.
    MADD also urges Congress to strongly encourage States to enact 
proven traffic safety laws, such as a national primary seat belt 
enforcement standard. According to NHTSA, for every percentage point 
increase in seat belt usage, 280 lives can be saved. MADD knows that 
the best defense against a drunk driver is a seat belt. The fact is, of 
those killed in alcohol-related traffic crashes, 76 percent were not 
wearing their seat belt. Had they been, a significant portion of them 
would be alive today.
    Drunk drivers typically do not buckle up, nor do they make sure 
their passengers are properly restrained. The sad fact is that two-
thirds of children killed in alcohol-related crashes are passengers 
driven by an impaired driver. We also know that seat belt use for 
children generally decreases the more impaired a driver becomes. MADD 
calls for the establishment of a national primary seat belt standard. 
States would be eligible for ``jumbo'' financial incentives for three 
years. States that have not enacted this lifesaving measure after three 
years would lose Federal highway construction funds.
    MADD also calls for the enactment of a national standard to combat 
``higher-risk drivers.'' ``Higher-risk drivers'' are defined as repeat 
offenders, those with BACs of .15 or higher, or persons caught driving 
on a suspended license when the suspension is a result of a prior DUI 
offense.
    This priority is one that has personal meaning for me. On September 
19, 1984, a high BAC driver caused the head-on collision that killed my 
32-year-old sister Becky and my 22-month old nephew Timmy. Three hours 
after the crash, the offender tested at a .16 BAC. Police pulled four 
empty bottles of alcohol from his vehicle.
    While higher-risk drivers are a small portion of the population, 
they pose a significant threat to innocent motorists. On a typical 
weekend night, only one percent of drivers have a BAC of .15 or higher, 
but high BAC drivers were involved in over one-half of all alcohol-
related traffic deaths in 2000. And, about one-third of all drivers 
arrested or convicted of DUI are repeat offenders. Clearly, we need 
leadership from Congress and the Administration to encourage States to 
act now to get this most dangerous segment of the driving public off of 
our roads.
    MADD is backing research-based solutions to address the higher-risk 
driver through what we call: Restrictions, Restitutions and Recovery. 
Restrictions include mandatory sentencing, strict licensing and vehicle 
sanctions such as immobilization and ignition interlock devices. 
Restitution includes payment to victims and to the community by 
offenders. Recovery focuses on efforts to address the offender's 
substance abuse and addiction. States that do not enact comprehensive 
higher-risk driver legislation would lose Federal highway construction 
funds.
    Lastly, MADD calls on Congress to enact a national ban on open 
containers in the passenger compartment of motor vehicles. Open 
container laws separate the consumption of alcohol from the operation 
of a vehicle. A common-sense measure, banning open containers in the 
passenger compartment of a vehicle will decrease the likelihood that 
drinking and driving will occur. One NHTSA study found that States with 
open container laws have lower rates of alcohol-related fatalities, 
while another study conducted by the Stanford University Institute for 
Economic Policy Research found that, controlling for other variables, 
open container laws had a significant effect on reducing fatal crash 
rates (by over 5 percent).
    The Kentucky Bus Crash reminds us that for every loss and for every 
tragic death and injury there is untold suffering and emotion. That 
said, MADD is committed to advocating research-based and proven-
effective countermeasures to prevent others from having to experience 
what the families of these victims have suffered.
    It's not about feel good. It's about doing what is right, and doing 
what will most effectively save lives. That is what drives our agenda, 
and that is what is behind our proposals for the reauthorization of 
TEA-21.

   NHTSA'S FISCAL YEAR 2004 BUDGET PROVIDES INADEQUATE RESOURCES AND 
             LITTLE GUIDANCE TO REACH HIGHWAY SAFETY GOALS

    In the Fiscal Year 2004 Budget in Brief, NHTSA states that it is 
``committed to pursuing an aggressive safety agenda'' and that 
``[b]ehavioral safety initiatives will be directed to increasing safety 
belt use and deterring impaired driving, which are central to achieving 
the Department's traffic fatality goal.'' While NHTSA's funding request 
appears to have increased monies for behavioral funding, this is not 
the case. In fact, the fiscal year 2004 request is less than the fiscal 
year 2003 request. This is because the fiscal year 2004 request 
includes $222 million of TEA-21 resources for the Sections 157 and 163 
grant programs formerly appropriated in the Federal Highway 
Administration budget. NHTSA has always administered these funds and is 
now requesting receipt of this funding directly. This apparent increase 
is really no increase at all, just a shifting of grant funds.
    The current fiscal year 2004 request for behavioral funding is 
$516,309,000, but once Sections 157 and 163 monies are subtracted the 
amount is lowered to $294,309,000. The fiscal year 2004 request is 
actually $234,000 less than the fiscal year 2003 request.
    Additionally, only a percentage of this funding will be spent on 
behavioral safety since States are able to use this funding for roadway 
safety/highway construction projects.
    One of NHTSA's primary fiscal year 2004 goals is to reduce the rate 
of alcohol-related highway fatalities per 100 million vehicle miles 
traveled (VMT) to 0.53. In its Budget in Brief, NHTSA states the 
following:

    ``The 2003 target of .53 per 100 million VMT, if met, will result 
in a reduction of alcohol-related fatalities to 15,600 . . . It will be 
a challenge to meet this target by the end of 2003. The agency is 
implementing new programs in 2003 that should begin to see positive 
results by the end of the year. Even though NHTSA should begin to see 
results in 2003, the agency still may not be able to achieve the target 
without the States and communities enacting and, more importantly, 
enforcing strong alcohol laws and reforming their individual impaired 
driving control systems.''

    However, it is not clear from the fiscal year 2004 budget what 
these new programs are and where the money is coming from to continue 
them. NHTSA's fiscal year 2004 budget request clearly does not reflect 
the severity of the impaired driving problem. While NHTSA's fiscal year 
2004 budget states that ``Protecting vehicle occupants and deterring 
impaired drivers are among the major ways we are able to reduce death 
and injury,'' the level of funding for impaired driving countermeasures 
is utterly insufficient. For example, the Impaired Driving Division 
budget request is significantly lower than fiscal year 2002 enacted 
levels (10,926,000 fiscal year 2004 request compared with 13,497,000 
fiscal year 2002 enacted). NHTSA states that ``Aggressive actions are 
needed to expand focus on several key high-risk populations, including 
underage drinkers, 21-34 year olds, and repeat offenders,'' but seeks 
fewer resources to reach these goals.
    Under ``Anticipated Fiscal Year 2003 Accomplishments'' NHTSA 
recognizes that ``Two nationwide law enforcement mobilizations (July 
and December) will be conducted,'' bolstered by a national media public 
service advertising campaign. The ``Click It or Ticket'' national law 
enforcement mobilization campaign has been highly successful at 
increasing seat belt usage. Thanks to the Senate, funds were dedicated 
in the fiscal year 2003 budget to conduct similar national 
mobilizations to reduce alcohol-impaired driving deaths and injuries. 
However, NHTSA does not request any funding to continue this effort.
    Additionally, NHTSA's State & Community Highway Safety Program 
drastically reduces funds available to States for impaired driving 
initiatives. NHTSA's fiscal year 2004 request provides a $50 million 
impaired driving grant program to only a subset of States to 
demonstrate the effectiveness of a comprehensive approach to reducing 
impaired driving and for identifying causes of weakness in a State's 
impaired driving control system. This funding level is $100 million 
less than funds available to States in fiscal year 2003 for impaired 
driving improvements.
    While NHTSA continuously states that reducing alcohol-related 
traffic fatalities is a top priority, the fiscal year 2004 budget 
request does not support these assertions.

  ADMINISTRATION'S ``SAFETEA'' PROPOSAL CUTS ALCOHOL-IMPAIRED DRIVING 
        FUNDING AND INCENTIVES, LACKS BEHAVIORAL SAFETY FUNDING

    MADD was dismayed to learn that impaired driving control programs 
merit less than one page out of the 378 page U.S. Department of 
Transportation (DOT) surface transportation proposal. DOT's proposal, 
``SAFETEA,'' falls woefully short of real ``safety'' for America's 
roadways and includes an inadequate response to this urgent national 
problem.
    ``SAFETEA'' decreases funding for alcohol-impaired programs by 67 
percent. The proposal recommends an impaired driving program of only 
$50 million, far less than current funding levels and clearly not 
enough to reverse this deadly trend. In fiscal year 2003, TEA-21 
authorized $150 million for alcohol-impaired driving countermeasures 
and also contained requirements for States to enact repeat offender and 
open container laws. If States failed to pass these alcohol-impaired 
driving laws then a percentage of their Federal construction funds were 
transferred. Not only does ``SAFETEA'' cut impaired driving funding to 
$50 million, it also does not include any incentives to States to enact 
alcohol-impaired driving laws.
    In comparison, DOT's Recreational Trails Program (RTP)--$60 million 
in fiscal year 2004--receives 20 percent more funding than the Impaired 
Driving Grants Program. The RTP program provides funds to develop and 
maintain recreational trails for motorized and non-motorized 
recreational trail users. It appears, at least from a budget 
standpoint, that keeping recreational trails safe for a small 
population of users is even more important to DOT than keeping all 
highway users safe from impaired drivers.
    The overwhelming majority of ``safety'' funding in the ``SAFETEA'' 
proposal is budgeted in the new ``Highway Safety Improvement Program'' 
(HSIP), which is really a highway construction project program. In 2004 
alone, $1 billion is allocated to the HSIP program. These funds are to 
be used for ``safety improvement projects,'' defined below.

    ``A safety improvement project corrects or improves a hazardous 
roadway condition, or proactively addresses highway safety problems 
that may include: intersection improvements; installation of rumble 
strips and other warning devices; elimination of roadside obstacles; 
railway-highway grade crossing safety; pedestrian or bicycle safety; 
traffic calming; improving highway signage and pavement marking; 
installing traffic control devices at high crash locations or priority 
control systems for emergency vehicles at signalized intersections, 
safety conscious planning and improving crash data collection and 
analysis, etc.''

    While these are all important activities, DOT itself recognizes 
that human behavior, not roadway environment, is overwhelmingly seen as 
the most prevalent factor in contributing to crashes. The General 
Accounting Office (GAO) released a report in March 2003 that reconfirms 
this premise after surveying data, experts and studies focusing on 
factors that contribute to motor vehicle crashes. Given that behavioral 
factors account for the majority of traffic crashes, it is difficult to 
understand the vastly disproportionate funding levels for behavioral 
versus roadway construction safety programs and why DOT allows a 
significant portion of the behavioral funds to be used to augment even 
more roadway construction spending.
    While NHTSA continuously states that reducing alcohol-related 
traffic fatalities is a top priority, the Administration's ``SAFETEA'' 
proposal does not support these claims.

INCREASED RESOURCES ARE REQUIRED TO SIGNIFICANTLY REDUCE HIGHWAY DEATHS 
                              AND INJURIES

    Research demonstrates that certain programs and initiatives will 
significantly reduce traffic deaths and injuries. In order to implement 
these programs and initiatives, increased resources are needed. The 
reauthorization of Federal highway safety programs provides the vehicle 
to obtain more resources to combat this public health problem. MADD 
urges Congress to consider the merits of each traffic safety program 
based upon their ability to reduce or prevent alcohol-related traffic 
fatalities. MADD's goal is to ensure that Federal traffic safety 
dollars are spent on effective programs and that States pass basic laws 
to combat alcohol-impaired driving.
    NHTSA's traffic safety budget is wholly inadequate. Faced with the 
highest number of highway fatalities since 1990, and a cost to 
America's economy of over $230.6 billion annually, the agency's budget 
request should reflect the growing need for more resources rather than 
maintain the status quo. Currently, the Federal government's funding 
for traffic safety programs does not reflect the importance of this 
public health crisis. The reauthorization of TEA-21 offers Congress the 
opportunity to review and reallocate funds to traffic safety.

   GAO REPORT HIGHLIGHTS DEFICIENCIES IN OVERSIGHT OF HIGHWAY SAFETY 
                              INITIATIVES

    Recently the General Accounting Office (GAO) released a report 
detailing the management and use of Federal highway safety programs and 
funding. GAO concluded the following:

    `` . . . NHTSA's oversight of highway safety programs is less 
effective than it could be, both in ensuring the efficient and proper 
use of Federal funds and in helping the States achieve their highway 
safety goals.''

    GAO's report shows that Federal oversight of State spending on 
highway safety programs has been inadequate in the face of rising 
traffic deaths and that NHTSA has not been consistently monitoring how 
funds are being used. GAO also found that NHTSA has no consistent 
policy for conducting State reviews or improvement plans. As a result, 
some regional offices conduct reviews as infrequently as every two 
years, while others conduct them only when a State requests one. This 
clearly enables some States to slip through the cracks. For example, 
the report found that the rate of alcohol-related traffic deaths rose 
in 14 States between 1997 and 2001; in seven of those States, the rate 
was higher than the national average, but only one of the seven States 
had a NHTSA improvement plan. The GAO also found that seat belt use was 
declining in some States that didn't have NHTSA improvement plans.
    The GAO report also reveals how States use some of their highway 
``safety'' funding. States that did not meet either the open container 
or the repeat offender requirements in TEA-21 has a percentage of funds 
transferred from their Federal highway construction program to their 
Section 402 highway safety grants program. However, States were also 
able to allocate transferred funds to highway construction projects 
under the Federal Highway Administration's (FHWA) Hazard Elimination 
Program (HEP). An overwhelming 69 percent of the transferred funds were 
used by States for construction anyway projects anyway, the GAO 
reported.
    The GAO report demonstrates that more Federal oversight and 
guidance is needed for the expenditure of Federal highway safety funds 
to ensure that these funds are spent on effective behavioral programs. 
Clearly there are legitimate areas of public health and safety in which 
the Federal government should be involved in setting standards. Similar 
to airline safety, highway safety warrants Federal government 
involvement. In this country we have a national highway system. 
Families should be protected from the consequences of impaired driving 
whether they are driving through Alabama, Washington or North Dakota. 
Impaired drivers do not recognize state boundaries. Drunk driving is a 
national problem and it demands a national solution.
        call to action: nation's leaders must provide a roadmap
    However, our Nation lacks a clear, coordinated national and state 
solution to reduce impaired-driving deaths and injuries. Congress now 
has the opportunity to dedicate proper funding to address this public 
health epidemic, and to ensure proper use of these funds. While 
continued research efforts are critical in order to identify new and 
improved methods to deter drunk driving, there are many proven, 
research-based strategies that are not being used to reverse the 
current deadly trend. These strategies can and must be employed to make 
progress in the effort.
    MADD urges Congress to provide adequate funding to NHTSA , and to 
require NHTSA to develop a roadmap for itself and the States to 
significantly reduce alcohol-related deaths and injuries. The Nation is 
waiting for short-term, immediate strategies such as high-visibility 
enforcement efforts and sobriety checkpoints to turn this trend around, 
as well as long-term strategies that will ensure our safety on 
America's roadways for years to come. Our Nation can no longer afford 
the current state of inaction on this issue.
    Today, we are at a historic crossroads as Congress takes up the 
multi-billion dollar reauthorization of TEA-21 that will shape 
transportation policy for the rest of this decade and beyond. 
Maintaining the status quo, or worse, decreasing resources dedicated to 
fighting drunk driving will not reverse this deadly trend. This is our 
best chance to ensure adequate highway safety funding, to ensure that 
these funds are being used effectively, and to enact laws that will 
keep drunk drivers from getting behind the wheel. I urge Congress to 
adopt MADD's proposal and create safer roads for all Americans. Thank 
you.

    Senator Campbell. Thank you. Mr. Hurley.
STATEMENT OF CHARLES HURLEY, VICE PRESIDENT, NATIONAL 
            SAFETY COUNCIL
    Mr. Hurley. Thank you, Senators. I am Chuck Hurley, Vice 
President of the National Safety Council's Transportation 
Safety Group and Executive Director of the Airbag and Seatbelt 
Safety Campaign.
    Much of the recent progress in highway safety is a direct 
result of the leadership of this committee. Chairman Shelby's 
support of ``Click It or Ticket'', Senator Murray's support of 
``Click It or Ticket'', and the support that the committee has 
given to paid ads has been instrumental. In fact, people are 
alive across this country because of the work the committee has 
done in recent years. Other States certainly on the committee 
are also involved in this progress.
    Regarding the administration, we want to applaud the 
administration's focus on belt use, and specifically the $100 
million fund that Dr. Runge, we give him credit for getting 
that in the budget. We believe that that will entice a number 
of more States.
    I am proud to say, and Senator Durbin will probably say 
when he gets here, that Illinois this week became the 19th 
State plus the District of Columbia and Puerto Rico to get a 
primary belt law. That makes right at 59 percent of the 
population of the United States covered by belt law, which is a 
good start. We need to get that to 100 percent.
    Again, to emphasize how important belt use is, if we could 
get the country to where Washington State has proven we can 
go--and as Dr. Runge said, the other Western States and Puerto 
Rico as well--we could save upwards of 4,000 lives a year by 
getting belt use up to the level of most developed countries in 
the world.
    Belt use and drunk driving are not just two other highway 
safety priorities. They are fundamental to the progress we hope 
to achieve.
    I would also like to commend the performance of the Federal 
Motor Carrier Safety Administration for its 4-year record of 
reductions, the 3.5 percent reduction I think in fatalities 
since last year, and also the provisions for traffic records 
and data collection in the budget as well.
    Regarding MADD, the Nation owes MADD an extraordinary debt 
of gratitude. I have been with the National Safety Council a 
long time, have lobbied the U.S. Senate before MADD. Senator 
Pell introduced a bill in the late 1970's, a very modest bill, 
got no hearing whatsoever.
    With MADD's first national press conference in October, 
1980 things began to change. Without MADD, we would not have 
had President Reagan's Drunk Driving Commission. We would not 
have had a drinking age of 21. We would not have had most 
administrative license revocation laws. We would not have had 
the .08 law. And we probably would still be losing 27,000 lives 
a year. Equally importantly, the victims of this violent crime 
would have no place to turn. So, again MADD is owed an 
extraordinary debt of gratitude.
    Regarding law enforcement, it is hard to overstate the role 
that they play in highway safety. I know a number of us, Wendy 
and I, really consider law enforcement to be every day heroes. 
Out there all day long, late at night, stopping people not 
knowing what is in that car. A good example was this week at 
the checkpoint and the launch here in the District of ``Click 
It or Ticket'', where at 10:00 in the morning they stopped a 
suspected drunk driver on Nebraska Avenue that was so drunk at 
10:00 in the morning that he passed out and was taken away in 
an ambulance.
    The work law enforcement does every day is extraordinary. 
We ask them to do some of our toughest jobs, but none tougher 
than pulling kids out of cars and knocking on doors late at 
night. A number of them have said that they would rather give 
out 1,000 tickets than have to do that again.
    Regarding the budget, we at the National Safety Council 
have a sincere concern that the budget in key areas is simply 
not adequate. Wendy Hamilton of MADD raised the issue of the 
paid ads. That is critical, I think, to make further progress 
in this country on both belts and alcohol. The fact that it is 
not in the budget is very concerning to us.
    It has been said that people who admire law and sausage 
have watched neither being made. The same probably extends to 
budgets. I am not sure how it was not put in the budget but we 
hope that this committee will put it back.
    We also are concerned, again, that there is simply not 
enough funding for drunk driving efforts. As Wendy Hamilton 
indicated, for the proposed funding to be higher for 
recreational trails than for drunk driving programs in this 
country to us makes no sense whatsoever and we hope this 
committee will seek to address that.
    In the exhibits attached to my statement we have tried, at 
the Airbag and Seatbelt Safety Campaign to put what has proven 
to work into your hands in exhibits. We hope that that will be 
made a part of the record.
    The one exhibit I would like to draw your attention to is 
one of our favorite charts. This is exhibit D, I believe. It is 
on the left-hand side, the last attachment on the left-hand 
side. It shows how important paid advertising is and how 
important high visibility enforcement is.
    You can see with the green line of serious and fatal 
covered injuries and the red line of observed driver belt use 
in North Carolina, where Dr. Runge and I would like to be, you 
can see that real progress began really with the Operation 
Buckle Down Program. As you drive belt use over 80, the serious 
and fatal injuries drop very substantially.
    At 75 percent we have virtually every low risk driver in 
the Nation buckled up. But that is a daytime rate. That is when 
belt use is observed.
    In contrast to that, the high risk drivers, specifically 
teenagers, their belt use in fatal crashes is only 36 percent. 
The belt use their teen passengers is only 23 percent. And it 
is not really until you get to high visibility enforcement that 
you do pick up the high risk drivers.
    In addition, in North Carolina the Booze It and Lose It 
Program was able, through highly visible enforcement and paid 
ads, just as we are recommending to the committee, that took an 
already good program in North Carolina and cut the rate of 
intoxicated drivers at nighttime checkpoints in half.
    High visibility enforcement works. We strongly support its 
inclusion in the budget.
    If Senator Durbin were here I am sure he would want to also 
point out that with Illinois' enactment of the primary belt law 
this week that they are looking very much forward to the 
administration's proposal where they would qualify for a 
maximum grant of $31,280,000. I believe they would be the first 
success story of this proposal. We would strongly support any 
effort to get Illinois that money.
    They also passed probably the Nation's best racial 
profiling law, a booster seat bill, a passenger restriction on 
graduated licensing intermediate stage drivers as well, and 
have really become a model for the Nation.

                           PREPARED STATEMENT

    Finally, I would like to thank the funders of the campaign, 
without whom our work would not be possible, the automobile 
manufacturers, the airbag suppliers and one major insurer.
    We would, I think, all be delighted to respond to questions 
that the Senators might have. Thank you.
    [The statement follows:]

                  Prepared Statement of Charles Hurley

    Mr. Chairman and members of the Subcommittee, thank you for 
inviting us to testify before you about a very important issue, highway 
safety. I am Chuck Hurley, Vice President of the Transportation Safety 
Group at the National Safety Council and Executive Director of its Air 
Bag & Seat Belt Safety Campaign.
    Allow me to express our thanks for the leadership of the 
Subcommittee--Senators Shelby and Murray--for the support you have 
provided for the efforts of NHTSA and the Campaign to increase seat 
belt use. The resources you have made available have helped to save 
lives and prevent injuries.

                     HISTORY/CAMPAIGN'S PHILOSOPHY

    In July 1996, an alarming trend was emerging: people--most of them 
children--were being killed by air bags. Pressure to overturn the 
mandate for driver and passenger side air bags--proven life savers for 
properly restrained adults--was mounting. As one million new passenger 
air bag equipped vehicles entered the fleet every month, a coalition of 
interested parties, primarily funded by the auto manufacturers, formed 
what is now the Air Bag & Seat Belt Safety Campaign, which celebrated 
its seventh anniversary yesterday.
    Our goal was to save lives by informing the public of the steps 
they could take to maximize the benefits and minimize the risks of air 
bags, and to increase seat belt use. A close examination of the child 
air bag fatalities revealed a chilling trend--these children were 
almost all unbuckled or incorrectly restrained in the front seat.
    Seat belt use is the key to maximizing the lifesaving benefits of 
air bags and to reducing the staggering number of people killed and 
injured in crashes every year. The Campaign is focused on increasing 
seat belt and child safety seat use in addition to continuing to 
promote air bag safety. The Campaign's work is grounded on a 
fundamental principle--to employ only strategies tested and proven to 
work. As such, communications are used to support interventions proven 
effective in getting people to buckle up.
    At recent and current levels of belt use, the only interventions 
proven effective in significantly increasing seat belt and child 
restraint use are strong laws and highly visible enforcement. The three 
key elements of the Campaign's strategy are to enact strong safety belt 
laws, enforce those laws to the fullest extent of the law and to 
educate the public.

                           PRIMARY BELT LAWS

    Achieving the country's current 75 percent belt use rate has been 
remarkable considering that we are building on a foundation of weak 
State seat belt laws. Only 18 States and the District of Columbia have 
strong, primary enforcement laws which allow a vehicle to be stopped 
and the driver and/or passengers ticketed solely for not wearing a 
safety belt. Secondary laws, which require the vehicle to be stopped 
for another violation before issuing a seat belt ticket, are more 
suggestions than they are laws.
    The Campaign has been active in 25 States pursuing stronger seat 
belt laws with successes in seven States. We have been involved with 
every State that has passed a primary enforcement law since 1997. When 
we started, 37.5 percent of the U.S. population was covered by primary 
laws. Today, that figure stands at 54 percent. This increase represents 
an additional 51 million people now covered by these lifesaving 
measures.

                       ENFORCEMENT MOBILIZATIONS

    The centerpiece of the Campaign is the Click it or Ticket 
Mobilization--a twice yearly, 50-State seat belt and child passenger 
safety enforcement drive. The Mobilization is sponsored by the Campaign 
in partnership with the National Highway Traffic Safety Administration, 
the National Transportation Safety Board, the International Association 
of Chiefs of Police, Mothers Against Drunk Driving, the National 
Sheriffs Association, the National Organization of Black Law 
Enforcement Executives and with the support of more than 1,000 
businesses and community organizations.
    Just last week, we were delighted to be joined by so many members 
of the Administration, including Transportation Secretary Norman 
Mineta, NHTSA Administrator Jeff Runge, M.D., and Surgeon General 
Richard Carmona, M.D., as we kicked off the Click it or Ticket 
Mobilization. This is the first Mobilization to be supported by 
significant national and State advertising, with funding sponsored by 
the leadership of this Subcommittee.
    The Click it or Ticket enforcement push runs from May 19 to June 1. 
During the Mobilization, the message to teens and young adults--in the 
TV and radio ads, in schools, in internet chat rooms, and at 
enforcement zones near where young people congregate--is to use a seat 
belt or risk getting a ticket.
    The purpose is not to give out more tickets, it is to increase belt 
use, save lives, and prevent injuries.
    The Click it or Ticket Mobilization replicates a highly effective 
seat belt enforcement example that is based on a model developed in 
Canada where high visibility enforcement has resulted in belt use rates 
that exceed 90 percent.
    The first statewide implementation of the Click it or Ticket model, 
including paid advertisements that supported the enforcement, came in 
North Carolina in 1993. Belt use immediately jumped 15 percentage 
points in three weeks and remains above 80 percent in the State. This 
sTEP (selective Traffic Enforcement Program) model combines periodic 
waves of stepped up enforcement of seat belt and child passenger safety 
laws with aggressive publicity highlighting the enforcement. The 
program aims to deliver the message that law enforcement will be 
ticketing seat belt and child passenger safety law violators.
    The Air Bag & Seat Belt Safety Campaign created the first 
nationwide Mobilization in May 1997, with 1,000 law enforcement 
agencies from all 50 States participating. Now, after 12 Mobilizations, 
the number of participating agencies has climbed to more than 12,500, 
representing hundreds of thousands of law enforcement officers 
nationwide, and reaching 99 percent of the U.S. population.
    The fact that there continues to be such strong participation and 
leadership from our Nation's law enforcement in the Mobilizations is a 
clear demonstration of their commitment to saving lives. We ask our 
police to do the toughest jobs, but none tougher than pulling dead 
children out of vehicles, and knocking on doors late at night to inform 
family members they've lost a loved one to a traffic crash. We are 
honored to work with police throughout the year, but especially during 
these Mobilizations.
    In the 6 years since the Mobilizations began:
  --Child fatalities from traffic crashes have dropped by 20 percent.
  --Restraint use among toddlers has jumped dramatically from 60 to 94 
        percent and among infants, ages 0-1 from 85 to 99 percent. 
        Restraint use for children ages 4 to 7 is 83 percent.
  --Adult seat belt use has risen from 61 percent to 75 percent--the 
        highest use rate ever--with 39 million more Americans buckling 
        up.
  --The rate of child-related airbag fatalities has declined 94 
        percent.

                      SUCCESS OF PAID ADVERTISING

    In the early days of the Mobilizations, there was a heavy emphasis 
on earned media. Working with others, we were able to generate 
extensive coverage about the job that our law enforcement was doing to 
ensure our safety. However, it became evident to us that to continue to 
achieve gains in national seat belt use rates, the element of paid 
advertising needed to be added to the equation.
    Young people in particular are least likely to buckle up and least 
likely to be impacted by earned media because they tend to not watch or 
read the news. To reach them with an enforcement message (research 
shows that those who refuse to buckle up are likely to change their 
behavior with the threat of a ticket and not from a public education 
message), we needed paid advertising to assure targeted messaging. By 
targeting paid advertisements to their demographic, we directly let 
them know that if they won't buckle up to save their lives, they should 
do so to avoid a ticket.
    In May 2001, high-visibility enforcement was coupled with paid 
advertising in eight southeastern States with remarkable success. The 
Campaign partnered with NHTSA's Region IV office in Atlanta to 
implement the first multi-state seat belt use enforcement program. The 
Campaign invested $500,000 in paid advertisements throughout the region 
as the individual States purchased an additional $3.25 million worth of 
paid media.
    As a result of this program, safety belt use increased in the 
region by nine percentage points. Sustaining belt use at that rate 
would have produced a savings of 650 lives and $950 million in economic 
costs. This increase represented an additional 4.5 million people 
buckling up!
    The success of Region IV was followed up with an additional 12-
State pilot program in May 2002. With the assistance of this 
Subcommittee, $8 million was earmarked in NHTSA's budget to expand on 
previous successes and determine if the program would work in other 
parts of the country.
    Once again, the program worked and lives were saved. While there 
were 12 States that received specific funding through the earmark, 
additional States also participated in high-visibility enforcement 
activities with their own funds. In total, 23 States and the District 
of Columbia used the Click it or Ticket slogan with paid 
advertisements. Another 14 States used a non-Click it or Ticket slogan 
with paid advertisements.
    With so many States implementing varying programs, NHTSA was able 
to extensively evaluate the effectiveness of these projects. States 
that fully implemented the Click it or Ticket model with paid 
advertising saw an average increase of 8.6 percentage points in seat 
belt use. That was compared to States that diverged slightly from the 
model, with some paid advertising and States that diverged from full 
implementation with no paid advertising. The latter two categories of 
States saw an increase in belt use of 2.7 percentage points and 0.5 
percentage points, respectively.
    Congress followed up this past February with another earmark to 
support the Mobilization that is happening right now across the 
country. In the Omnibus fiscal year 2003 Appropriations bill, $10 
million was earmarked for a national paid advertising campaign to 
support the current seat belt Mobilization.
    Through the leadership of this Subcommittee, as well as other 
groups like MADD, this same strategy has been extended to include 
impaired driving mobilizations. We are pleased to be able to partner 
with MADD in our mutual goal of reducing fatalities through enforcement 
strategies that are proven to work.
    The Campaign continues to believe that paid advertising is an 
essential element in the national effort to increase existing belt use 
rates. Research has shown that further educational appeals to non-belt 
users will produce little or no change in behavior.
    The 2001 Report of a National Seat Belt Summit, a gathering of more 
than 45 national leaders in early 2001, concluded the following: 
``Catchy slogans and public service campaigns alone are not the answer. 
Public policies must support strong State belt-use laws, encourage 
effective enforcement of those laws, and provide the resources 
necessary to carry out these activities.'' The Report called for 
expansion of ``highly visible and effective enforcement programs, 
supported by coordinated paid advertising . . .''

                             MOVING FORWARD

    Given all of the data that is available, we request that the 
Subcommittee continue to earmark substantial funding to purchase 
national and State paid advertising to support three Mobilizations in 
fiscal year 2004. By providing funding to purchase national paid media 
the country can take the necessary steps to achieve the goals of higher 
seat belt use, and improved traffic safety.
    We are still studying the Administration's highway reauthorization 
and funding proposals. We applaud the Administration's emphasis on seat 
belt use and primary seat belt use laws. We specifically support the 
$100 million in incentive grants to States that have or will enact 
primary belt use laws.
    On behalf of the National Safety Council, let me state that we do 
not believe there is adequate funding in the Administration's 
reauthorization proposal for drunk driving or the other important state 
highway safety programs.
    Thank you, Mr. Chairman, and I would be pleased to respond to any 
questions the Subcommittee might have.

    [Clerk's note.--Attachments to Mr. Hurley's prepared 
statement will be retained in subcommittee files.]
    Senator Campbell. Thank you. I have a few and I am going to 
bounce around a little bit here. Maybe I will just go ahead, 
since you were the last one who spoke, Mr. Hurley.
    You mentioned some of the highway funding going to perhaps 
other things. What is your view on transportation money, 
highway money, going to bike trails and hiking trails and so 
on?
    Mr. Hurley. We support that obviously, and we also support 
the safety-related construction. It does save lives. But most 
of the SAFETEA road construction would see benefits over a 20- 
to 30-year period.
    As Wendy Hamilton of MADD has said, if we want to reduce 
the FARS right now, the best way to do it is the things that 
are recommended in high visibility enforcement. It is an 
unfortunate fact that priorities do have to compete in the 
highway bill. But for recreational trails to be funded at a 
higher level than drunk driving, we think, is a hugely 
misplaced set of priorities.
    Senator Campbell. Thank you.
    As you know, we went from a huge surplus in just about 20 
months now to who knows, maybe a $350 billion deficit in the 
next 10 years. I think a lot of things are going to be in 
competition for the existing dollars, as you probably know.
    Ms. Sandberg, did I hear you say there are 800,000 
shipments of HAZMAT a day in the United States?
    Ms. Sandberg. Yes, sir.
    Senator Campbell. Do you have a figure for the number that 
are involved in accidents?
    Ms. Sandberg. I do not have that, but I can get it for the 
record.
    [The information follows:]

    Only 15-20 trucks transporting hazardous materials are involved in 
an accident each day. In the majority of these crashes (84 percent), 
there is no leakage of hazardous materials.

    Senator Campbell. If you would supply that I would 
appreciate it. I was one person that was not thrilled at all 
about the movement of the hazardous material to Yucca, Nevada. 
One of the reasons was a lot of it was going to go through the 
city in my State which is Denver, or on rail down what is 
called Glenwood Canyon besides a river that supplies something 
like seven States. It is part of the Colorado system. We were 
really concerned about that. I would be interested in knowing 
that number.
    Let me skip to maybe something else now and I will probably 
get in trouble for bringing this up, but the Federal Motor 
Carrier Safety Administration is reviewing and about to change 
their hours of service proposal. I am not sure if we have got 
the availability of resources to carry at the rulemaking and to 
conduct what the Congress has mandated. Would either one of you 
like to, Dr. Runge or Ms. Sandberg, like to comment on that?
    Ms. Sandberg. The changes in the hours of service rule?
    Senator Campbell. Yes.
    Ms. Sandberg. Yes. Actually, we recently made those changes 
after a number of years of deliberation. Actually, we had over 
53,000 comments.
    The changes in the rules, in working with our partners at 
the States who do most of the enforcement, the main group is 
the Commercial Vehicle Safety Alliance, has indicated that they 
feel that the new rules are going to be easier to enforce 
because they move truck drivers more towards a 24-hour clock.
    What it requires is that driver have 10 hours off. They can 
work 14 consecutive hours. Once they go on the clock, those 
hours start consecutively so that they cannot take breaks and 
build their work day into 20 or 24 work days.
    Senator Campbell. They can work 14, but not drive 14.
    Ms. Sandberg. No, they are only allowed to drive 11 of that 
14. So that moves them more towards a 24-hour clock, which 
helps law enforcement look at their log books and determine 
exactly how much they have been working and able to enforcement 
that.
    We also have a follow-on rulemaking that will occur within 
the next year or so which is to shore up one of the areas that 
has been a concern of the enforcement community, and that is 
the documents that drivers are required to keep as part of 
their log book. So that it shows restaurant receipts and those 
kinds of things.
    So we are working on trying to shore up the areas where 
enforcement has told us that there are some concerns.
    Senator Campbell. I never was a supporter of that, either. 
You probably know that. I do not know if you have ever driven 
much in the 18-wheelers, but I have. And I can tell, knowing 
from some people who have done it, that faking log books is not 
all that difficult. It has been done for years. Even before 
there was log books there were things called clocks that they 
used to keep. Not difficult at all to fake those things.
    So I hope it works. I know the ATA is supporting these rule 
changes, the American Trucking Association. But all I hear from 
drivers themselves is that it is going to be bad. It is going 
to really cut into their ability to make a living. It is going 
to clog the highways with more trucks that have to make up the 
shipping for the ones that have to be parked.
    I have heard it from truck stop owners, literally all kinds 
of people thinking that the hours of service are going to be 
more detrimental than helpful. I hope they will be helpful.
    But there is something else that has been on my mind 
lately. And this is probably where I am going to get in trouble 
with AARP and a few other senior groups. That is the way the 
regs work now, if you have a truck that is over 26,000 pounds 
gross vehicle weight you have to have a license. You have to 
have a CDL, different levels.
    But there are vehicles out there, big RVs, 45 feet long. 
They can go legal limit now 45 feet. Some of them gross 40,000 
pounds. That is big vehicle. And they can tow a 20-foot 
trailer, too. And a lot of the people that are buying those 
great big beautiful motor homes, that are very expensive as you 
might guess, are people that summer where it is nice in the 
summer and they go where it is nice in the winter. That means 
they are going back and forth twice a year from Wisconsin to 
Florida or from maybe Oregon to Yuma, Arizona, where there are 
thousands upon thousands of RVs every winter.
    I guess the good news of that is that they are only driving 
it twice a year. But that is also the bad news, they are only 
driving it twice a year. Because these vehicles are much bigger 
than most of the lower levels of the guys who have to have CDLs 
that are professional drivers and have to go through training 
and do all this other stuff, I am wondering what your reaction 
is to the view, at least in some circles, the people that drive 
these great big RVs ought to also be required to have some kind 
of training or special licenses, because they have got air 
brakes, they have got diesel engines, they have everything that 
the tracks have on them. And yet they do not have to comply 
with anything.
    Ms. Sandberg. We have not, at the Motor Carrier 
Administration, specifically looked at requiring commercial 
drivers licenses for these types of vehicles. Right now our 
focus has been on commercial motor vehicles, which is trucks 
and buses.
    Senator Campbell. They are not going to be commercial 
drivers. They do not haul anything except their family and 
their toys. But I am thinking from a safety standpoint and a 
training standpoint because a lot of them--one thing about the 
truck drivers, they are out there 8 or 10 hours a day driving 
the things. But the people during the big RVs are not. They 
drive them from A to B and then they park them for months.
    Ms. Sandberg. Clearly from a training standpoint, and I 
will have to put on my NHTSA hat here from when I was over at 
NHTSA, one of the things that we always looked at is that any 
time somebody moves to a different type of vehicle, they should 
have some type of training. I think we were speaking before the 
hearing about people that buy a motorcycle and how helpful it 
is if they have some motorcycle training before they get on 
that motorcycle.
    The same with some of the training regimes that we have 
worked on in NHTSA with States to look at young drivers and 
making sure that they are appropriately trained before they get 
behind the wheel of that car, whether it be through graduated 
drivers license programs or other types of education.
    I am not aware of any studies looking specifically at RVs 
and drivers that have not driven that large of a vehicle 
before.

                         MOTORCYCLE FATALITIES

    Senator Campbell. From a legislative standpoint, there is 
the low of possibility and the law of probability. It is 
possible we could make some kind of a law or rule about 
training but the probability, knowing what kind of a buzz saw 
that would cause with the senior groups, it is probably not 
going to happen. But it is just something for thought.
    Since you brought up something that is of particular 
interest to me, as you know, and that is motorcycles and 
motorcycle safety, I read recently that the number of deaths on 
motorcycles has gone up quite a bit in this last year. Have you 
done, Dr. Runge, studies on who it is that is dying? Age group, 
training, something along that nature.
    Dr. Runge. Yes, Senator Campbell. As a matter of fact, when 
we look at the increase in deaths on the highways over the last 
year, a goodly proportion of that increase was due to an 
increase in motorcycle fatalities. Fortunately, this past year 
the increase has dampened a bit, but we still saw about a 3 
percent increase in motorcycle fatalities year to year. As you 
suggest, the largest number of those is in the 50- to 59-year-
old age group.
    However, we still have a tremendous problem with impaired 
riding. Although just under 40 percent of motorcycle crashes 
are alcohol-related, it should be pointed out that even at 
lower levels of alcohol, riding a motorcycle becomes more 
difficult. I think there are right brain functions, activities 
that are second nature to a rider, such as handling a curve and 
looking peripherally, that do not do well.
    Senator Campbell. People who drive automobiles and drinking 
are impaired. People to drive motorcycles and drink are just 
plain crazy.
    Dr. Runge. Thank you for pointing that out.
    We are addressing this. We do have a $656,000 request in 
the fiscal year 2004 budget particularly related to programs 
for motorcycle riders. We are interested in training. We just 
developed a motorcycle safety plan, which I hope you have had a 
chance to take a look at, that we sent over in December. We 
would like to begin to implement the recommendations in that 
plan in the coming fiscal year.
    This is an area where our stakeholders and our customers 
have very strong feelings about what should be done. We 
developed our plan in concert with them. We hope that kind of 
collaboration can continue.

            HIGH VISIBILITY ENFORCEMENT FOR IMPAIRED DRIVING

    Senator Campbell. In my view, the education and training 
certainly is more acceptable than more and more penalties which 
sometimes work and sometimes do not. We talk about alcohol-
related crashes. My dad was an alcoholic. And over the years, I 
came to believe that all that tragedy and stuff that alcoholism 
causes, it is a form of sickness. Sometimes more and more 
penalties do not stop a person that has a sickness. They do it 
anyway.
    I might also note with interest that the people who are 
dying, the highest percent that are dying on motorcycles now 
are the 50 to 60, you said. It would be my guess they were 
people who did not ride their whole life. Mom said they could 
not have one when they were young. Now mom is gone and they 
have got some money. And they saw that movie, Easy Rider, and 
they know they can do it. And they are too macho to take any 
dang training and so they have got to get on there and they buy 
some hundred thousand dollar killer and get out there and get 
hurt. But thank you for those numbers.
    I think I had one other question before I ask Senator 
DeWine for his input. This ``Click It or Ticket'' campaign that 
was talked about, considering that has been rather successful, 
is there anything in the wind or being suggested that we might 
use something along that line for impaired driving or alcohol-
related accidents?
    Dr. Runge. Yes, sir, we currently do that. In fact, Mr. 
Hurley and Ms. Hamilton have gone on record as supporting high 
visibility enforcement with us. Mr. Hurley mentioned the 
``Booze It & Lose It'' campaign that was successful in North 
Carolina.
    This committee, in fact, appropriated right around $10 
million for a high visibility national advertising campaign 
this year, which we will kick off in about 4 weeks. In the 
alcohol area, we want to replicate those successes that have 
been achieved with seatbelts.

                       EMERGENCY VEHICLE SENSORS

    Senator Campbell. Thank you. Maybe one last question, and 
you might not have an answer to this because it came to me kind 
of accidentally.
    There are so many noises out there driving now, 
distractions and noises. Radios, soundproof cars to drown out 
some of those noises, and older drivers that may have some 
hearing problems. I was recently told about a sensor that has 
been developed that can be put in commercial vehicles or 
personal vehicles that indicate when an emergency vehicle is 
near. I did not know how it senses it.
    I was thinking, you know, we have got those things that you 
put on your bumper where deer can sense that you are near 
through some kind of a sound they can hear. So maybe it is 
related to that.
    Are you aware of any kind of a pilot program that is being 
developed? I heard of one that is being developed in Colorado, 
by the way, in Summit County. A program is being developed that 
would tell you if police cars are coming? And I do not mean 
radar units. Something to keep you out of trouble.
    Dr. Runge. I am not aware of that, but we will be happy to 
check into it and get back to you.
    [The information follows:]

             Emergency Vehicle Crash Avoidance Technologies

    According to NHTSA statistics, in 1997 approximately 15,000 
emergency vehicles were involved in traffic crashes, 75 percent of 
which are attributable to the other driver not yielding to the 
emergency vehicle. For emergency vehicles to safely respond to calls, 
they need systems that attract the attention of other drivers and 
elicit an appropriate response, specifically creating a clear path 
through which the emergency vehicle can travel. To accomplish this 
goal, many organizations operate sirens when responding to critical 
situations. However, with enhanced soundproofing in vehicles and 
increased capabilities of in-vehicle sound systems, there is newfound 
concern that sirens are not heard, thereby contributing to crashes with 
emergency vehicles.
    To remedy this issue, numerous inventors have developed 
technologies to provide enhanced information of emergency vehicle 
travel to other drivers. These devices are probably similar to the one 
being tested in Colorado. Some systems use wireless transmitters to 
send warning signals from the emergency vehicle to a transmitter in 
vehicles nearby. Other systems use acoustic sensors to pick up sirens 
and amplify them inside the vehicle. For example, Safety Cast, consists 
of a mobile transmitter designed to broadcast messages from emergency 
vehicles to other vehicles in the area. The Safety Cast consists of a 
two-mode alert: a tone followed by a message detailing the situation. 
Promoters of the product state that with this design drivers will be 
able, ``. . . to make a much more planned and safer decision on how to 
respond'' to emergency vehicles.\1\ Another recent design, the 
Emergency Vehicle Early Warning Safety Systems (E-Views),\2\ delivers 
directional information of emergency vehicle location with signs 
mounted on traffic signal mast arms. The Keio University in Japan has 
also designed a siren detection system that provides warning 
information to drivers when an external microphone detects sirens. 
(These systems operate on a different principle than air-fed deer 
whistles which were mentioned in the Congressional question. Contrary 
to popular beliefs, a recent study from the University of Connecticut 
found the whistles to be ``acoustically ineffective.'' \3\)
---------------------------------------------------------------------------
    \1\ More information is available at www.mysafetycase.com.
    \2\ More information is available at www.eviewsinc.com.
    \3\ Palmer, J. ``Air-fed Deer Whistles Scientifically Tested.'' 
UConn News, University of Connecticut Office of University 
Communications, November 19, 2002.
---------------------------------------------------------------------------
    Previous NHTSA research found that the costs of achieving effective 
in-vehicle emergency vehicle warning systems far outweighed the 
benefits.\4\ The systems need to overcome significant technical hurdles 
to make the devices reliable under harsh driving environments and to 
minimize presenting drivers with distracting or annoying false alarms. 
However, advancing in-vehicle technology could prove to make such 
interventions cost-effective. In order to determine effectiveness, 
extensive research would need to address the following issues:
---------------------------------------------------------------------------
    \4\ Peterson, D.D. and Boyer, D.S. (1975). ``Feasibility Study of 
In-vehicle Warning Systems.'' DOT HS-801 569.
---------------------------------------------------------------------------
  --System compatibility with all sirens implemented in the United 
        States;
  --Infrastructure requirements;
  --Interface design, intended to not only gains the attention of 
        drivers but promotes the most appropriate response;
  --Maintenance requirements and system reliability;
  --System state requirements, e.g., does the driver need to have the 
        radio on, etc.

    Senator Campbell. Thank you. I have no further questions. 
Senator DeWine, did you have some questions?
    Senator DeWine. Mr. Chairman, thank you very much. Let me 
first just say that I am sure that Chairman Campbell would not 
charge you anything for his great quote about those who drink 
and ride motorcycles, if you want to use that. You would not 
charge them anything would you, Senator, about your great quote 
about those who drink and drive motorcycles? They could 
probably use that.
    Senator Campbell. Yes, you can use it. They are either 
crazy or suicidal.

             BUDGET REDUCTIONS IN IMPAIRED DRIVING PROGRAM

    Senator DeWine. I think that is a great quote.
    Doctor, let me ask you, we have talked about the cuts in 
the alcohol programs. They cut, I believe, $110 million in the 
safety incentives to prevent operation of motor vehicles by 
intoxicated persons, Section 163, $40 million cut in the 
alcohol impaired driving countermeasures incentive grants. We 
have talked a little bit about those.
    But you are not saying that those are not effective 
programs, are you?
    Dr. Runge. If I could just frame this issue, Senator 
DeWine, this is one of these unfortunate issues of timing where 
we have reauthorization, and the budget moving through 
simultaneously. But, it is worth reflecting on the philosophy 
behind this reauthorization. Those monies that you just spoke 
of were formerly in the Federal Highway Administration's 
budget, but were administered by NHTSA.
    What we are trying to do with reauthorization is to put the 
responsibility where it belongs, and the ability to deal with 
it where it belongs. And that is in the States.
    The State alcohol-related fatality rates go from a low of 
0.29 fatalities per 100 million vehicle miles traveled in Utah 
to 1.27, 3\1/2\ times that much, in South Carolina. We have, in 
the past, painted a very broad brush across this entire 
country. That has not been shown to be effective. There are 
pockets in this country where it is very dangerous to drive.
    The reauthorization proposal brings the funds that formerly 
were in the Federal Highway Administration budget over to NHTSA 
in a combined 402 program that gets the money into the States 
with performance incentives. That is, the State's goals will be 
aligned with the national goals. In order to qualify for 
incentive funds, States will need to implement programs with 
their money--and the same money is there, it is level funded--
they will have to apply those funds, instead of buying key 
chains and bobble-headed dolls. They will have to spend money 
where it belongs, which is in high-visibility enforcement and 
in dealing with the repeat offender and the chronic alcohol-
user who gets behind the wheel of a car.
    That is the philosophy behind this, and that is the basis 
of our fiscal year 2004 budget proposal.
    Over the course of 6 years, there is a decrease in the 
funding that is specifically for alcohol from about $14.7 
million to right around $11 million. However, that does not 
include the 402 funds that are still there, which we want to be 
applied to tackle the problem.
    We are setting up incentives that will require States to do 
that, and giving them best practices which you all have paid 
for. We know what works. We know what is there. Getting the 
States to do it is a real challenge.
    In Tennessee, they reduced alcohol fatalities with a 
double-digit effectiveness with ``Checkpoint Tennessee''. But, 
when the money went away, that money that you are speaking of, 
the program went away. That cannot happen anymore. We have got 
to hold States accountable for the money that they spend on 
these issues.

      REAUTHORIZATION PROPOSAL EFFECT ON IMPAIRED DRIVING PROGRAM

    Senator DeWine. I want to make sure I understand, and I am 
going to take some more time to study your proposal. I have 
looked at it already, but we are not going to resolve this 
obviously today. I will be in contact with you personally about 
this. But I want to make sure I initially understand what you 
are telling me.
    You are not telling me that you are transferring money away 
from this overall anti-drunk driving prevention or education 
program. Is that what you are telling me?
    Dr. Runge. That is correct. What we have done with 
reauthorization is to take seven or eight different grant 
programs and combine them into a single 402 program. Plus, we 
added a $50 million program that is specifically for alcohol 
programs in those States with the worst impaired driving 
problems. That $50 million is not meant to be spread all over 
the entire country.
    There are 12 States that, if they just got themselves to 
the national average, the result would be that we would be 80 
percent of the way to our goal. We have got to get into those 
States and, first of all, evaluate them, find out what is going 
on in there, and then give them some special resources to pull 
themselves up by their boot straps, because right now, what we 
are doing is not working.
    That is the $50 million program that is being talked about. 
The rest of the grant programs are in a combined 402 program, 
with a level-funded formula program, as well as a well-funded 
incentive piece on top of that, so that States who meet those 
goals can get additional resources.
    Senator DeWine. Would anybody on the panel like to comment 
on that? Mr. Hurley or Ms. Hamilton?
    Ms. Hamilton. We have information that we will be happy to 
submit to the panel. The highway safety performance grant--
there are three pockets of money. The State and community 
grants, the 402, is $162 million. That is down $3 million from 
the year before. That is a loss in funding.
    There is performance grants of $175 million, which can be 
given to the States to be used on alcohol-impaired 
countermeasures, but it gives the States the option of using 
that money for highway safety improvement programs.
    As we saw from the GAO report, that is what happened in the 
majority of the times in the previous program where they were 
allowed to use that money for hazard elimination. It is just 
the same thing, a new game, and basically a shell game.
    Again, previously in TEA-21, there was $150 million that 
went to the States each year to deal with impaired driving 
programs. It is only $50 million now. That is $100 million 
loss. And it is only going to 12 States.
    There needs to be money. I agree with Dr. Runge, there are 
States out there that it is more deadly to drive in than 
others. They need to have funding to do it, using it on 
effective research based programs that have shown to work and 
save lives and prevent injuries. But they also need to provide 
money to States so that they can sustain the level of 
performance and perhaps benefit even more.

                    DIVERTING IMPAIRED DRIVING FUNDS

    Senator DeWine. Doctor, what about the argument? And you 
can argue whether or it is good policy or not. But is she 
correct? Is Ms. Hamilton correct when she is saying that States 
could actually, under your proposal, divert the money to 
highway construction? You can argue that is good or bad, but is 
that true?
    Dr. Runge. The programs that she is talking about were 
incentive grant programs for repeat offenders, and required 
States to meet four or five criteria to receive funding. Those 
funds can also be spent partly on road hazard elimination in 
the States that meet those eligibility criteria.
    Therefore, it should not change the ratio significantly.
    Senator DeWine. You are saying they could do it before and 
they can do it again?
    Dr. Runge. That is right. Let me back up for a second and 
talk about an underpinning of this program. Every State would 
be required to submit a comprehensive highway safety plan under 
the reauthorization proposal. The plan will have stakeholders 
that will be defined by regulation, but it will be people like 
MADD and law-enforcement, as well as the road builders and 
others in the State DOT, who will, based on each State's data, 
determine where their safety problems are.
    There is no need for Utah to have largess for alcohol 
programs. But there is a tremendous need for South Carolina, 
Louisiana, Montana, South Dakota, Arizona, Wyoming, and others 
with very high impaired driving-related fatality rates, to 
devote significant portions to reducing impaired driving.
    U.S. DOT will take it very seriously when a State submits a 
comprehensive highway safety plan, whether or not the data 
truly represent how they intend to spend their money. The 
flexibility that we give States also enables them to spend a 
good portion of their hazard elimination money on behavioral 
programs if their State data indicates that it is needed.
    We are putting a tremendous amount of eggs in the basket of 
each State's traffic records and data improvement, which is why 
we also have $50 million in our proposed fiscal year 2004 
budget to help States shore up their State traffic data, so 
that we can pinpoint where the problems are occurring.

                       STATE DATA ACCOUNTABILITY

    Senator DeWine. Let me play off that for a moment. My home 
State of Ohio has begun to do a pretty good job in listing the 
most hazardous intersections and stretches of highway. We do it 
statistically. We do it in ranking order. Some States are doing 
that. Few States, based on my experience at least, in what I 
have seen, are doing both a ranking and then putting their 
money where their ranking is.
    In past highway bills, we have paid lip service to that. We 
have said oh, that is a good thing. You should do that. We have 
not put much teeth behind that. And we have not insured, in the 
highway bills, that significant money would go to that.
    I would like your comments on that because I am very 
interested, frankly, as we write a new highway bill, that we do 
that. It seems to me that when we are talking about putting 
highway dollars--I am beyond frankly what we are talking about 
here today, but this is your area of highway safety--that what 
we should be doing is figuring out where we can save the most 
lives for the most dollars and at least taking part of the 
general highway construction dollars and saying okay, we are 
going to find the 50 or the 100 most dangerous places in 
Indiana or Ohio our Maine, and let us go deal with them every 
year. And let us figure out where we can get the most bang for 
the buck or save most lives for the buck. But we have not 
really been doing that consistently across the country.
    Now what you are talking about doing it frankly is on a 
fairly--with all due respect I think it is the right thing to 
do--but it is on a fairly small dollar amount when we are 
talking about the dollars we are dealing with here.
    I am talking about doing it on big highway bill and doing 
it with some serious dollars, I mean big dollars.
    Do you want to comment on that? It seems to me that the 
good news I am hearing from what you are saying is that the 
studies you are talking about doing, and the $50 million you 
are talking about doing, certainly is a start at least in 
trying to compile the data that the States will need to be able 
to come up with that information.
    Dr. Runge. Thank you. I think you are exactly right.
    In the past, there has been lip service played to 
accountability. The A in SAFETEA is accountability.
    A lot depends on a State's comprehensive highway safety 
plan, and a lot depends on their ability to gather traffic data 
and to acquire it in a way that is scientifically legitimate.
    With respect to where those problems are, it may not just 
be where, it is also the who, what, when, and where of the 
issue, the whole epidemiology of the problem. Some States do a 
great job of defining that. Low velocity highways with high 
crash fatalities may not need road design. They may need just 
higher seatbelt use and less impaired driving.
    We will strive to make sure that those data are acquired 
and that States are held accountable for that highway safety 
plan.
    Also, in the reauthorization bill there is a billion dollar 
highway safety core program in Federal highways. A State's 
share of that can be spent--100 percent of it can be spent on 
data improvements if the State needs it. It can be spent on 
hazard elimination. It can be spent on behavioral programs. It 
can be spent on alcohol programs and belt programs.
    We are trying to give States the flexibility to spend their 
money where it needs to go. You are exactly right. A lot 
depends on how we define that safety plan and how the U.S. DOT 
is able to insist that the money be spent in a way that, in 
fact, does address the highway safety problem.
    I hope we have the committee's support for that 
accountability.

                     FLEXIBILITY AND ACCOUNTABILITY

    Senator DeWine. The key, it seems to me, we are all for 
flexibility, but it is clear from your comments earlier you are 
for flexibility but you are also for accountability.
    Dr. Runge. Yes sir.
    Senator DeWine. You talked about key chains and other 
things that you do not seem to think amount to a whole lot, and 
I would happen to agree with you.
    I go back to my experience as Lieutenant Governor of Ohio, 
and one of the areas where I was in charge was highway safety. 
We looked at things that mattered and some things that frankly 
did not matter.
    So how we strike the right balance of allowing States to 
pick and choose what is appropriate for their State but also 
give them the guidance to move forward and to try to target 
things that do, in fact, matter is the key I think.
    Ms. Hamilton?
    Ms. Hamilton. Senator, flexibility is important to the 
States. We understand that they are struggling with this and 
they are very concerned about MADD's proposal. However, we saw 
in the past that that money is going for hazard elimination 
programs.
    What you talked about before, what is going to save the 
most lives most quickly is, quite frankly, the bill that you 
introduced today with Senator Lautenberg for enforcement on 
belt and alcohol prevention programs to give law enforcement 
the resources that they need for the next 6 years and the paid 
advertising to let people know that impaired driving and 
seatbelt usage is important.
    We can build better roads. We can design safer cars. But 
unless we develop safer drivers, we are not going to make any 
kind of a dent in this problem. And we have got to take the 
time right now to put the resources into behavioral safety 
programs that we know are effective. We have 30 years of 
research and data from NHTSA, from all over this country and 
the world, in fact, that tells us what works, enforcement.
    Senator DeWine. Mr. Chairman, if I could just make one 
additional comment. I know I have gone over my time. But just 
to make sure everyone understands at least this one Senator's 
position.
    I believe that the money we are talking about today, 
frankly, should primarily be going for education issues and 
behavioral modification issues and the things that Ms. Hamilton 
is talking about.
    The highway construction and the hazardous changes in 
construction that I was talking about, I think, should come out 
of the big bill that we are talking about, and the bill that 
frankly we will be, I hope, writing later this year. I think a 
bigger percentage of that bill should be absolutely dedicated 
to focusing on trying to eliminate the hazards on the highway.
    I think we do not put enough of that into targeting what 
matters on our highways. And I think what the doctor is talking 
about is it makes sense to spend some money to get the data and 
allow every State to have some assistance to get the data to 
make those intelligent decisions, but then take money out of 
our big bill and focus that money on the things that really do, 
in fact, matter.
    Let us go into every State. Every State has got them. Every 
State has got the dangerous intersections. Why in the world do 
we keep waiting until we get the fifth or sixth fatality when 
we know, and everyone in the community knows, this is a bad 
intersection. Everyone in the community knows this is a bad 
curve. Highway patrol can tell you. You go into the Xenia, Ohio 
highway patrol post, they can tell you the bad intersections. 
They can tell you where there is going to be a bad accident. 
They can tell you it is going to come. Now when it is going to 
come, but it is going to come.
    Why do we wait? It is just absolutely crazy.
    Mr. Hurley. Senator, first, I want to thank you for your 
leadership on highway safety, your support for MADD, and 
specifically your support for high visibility enforcement.
    On the accountability issues, which is critical, and it is 
a very complicated bill. We are still studying it. But it does 
appear to be an overall flat funding of highway safety with 
very serious concerns about reduced funding in key areas that 
we have talked about.
    We support the idea of performance partnerships with the 
States of accountability and the rest of that. However, NHTSA, 
without a change in the statute, gave up plan approval 4 or 5 
years ago. The General Accounting Office report that Senator 
Dorgan just asked for and received had some very serious 
comments about that. I would hope that this could be a part of 
the record, as well.
    The best States probably do not need plan approval. The 
worst States probably need more than plan approval. There has 
to be a whole consideration of performance partnerships with 
the States that really has not occurred yet. I am hopeful that 
we can get into that with the leadership at DOT because the 
current system does not seem to be working all that well. Thank 
you.
    Senator DeWine. Mr. Chairman, thank you very much.
    Senator Campbell. Thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    We have no further questions from the members that are 
here. However, Senator Shelby does have some. Rather than 
asking them for him and getting them all confused, I will 
submit those to you in writing. If you could answer them in 
writing.
    And I think Senator Murray may also have some questions.
    [The following questions were not asked at the hearing, but 
were submitted to the Department and witnesses for response 
subsequent to the hearing:]

      Questions Submitted to the National Highway Traffic Safety 
                             Administration

            Questions Submitted by Senator Richard C. Shelby

    Question. The positive effects of the ``Click It or Ticket'' 
mobilizations to increase seatbelt usage rates are undeniable. 
According to NHTSA's evaluation, seatbelt usage increased by 8.6 
percent. In the Omnibus Appropriations Act this Committee again set 
aside funds for these mobilizations and directed NHTSA to expand this 
approach to target alcohol-related driving, which we are all concerned 
about. With the demonstrated success of the program, why isn't funding 
specifically identified in your budget proposal to continue these 
campaigns in 2004?
    Answer. NHTSA intends to continue the ``Click It or Ticket'' and 
``You Drink & Drive. You Lose.'' mobilizations in 2004 and beyond. For 
the last 5 years, funding has been provided through the Sec. 157 
Incentive/Innovative Grant Program, authorized under TEA-21. NHTSA 
utilized most of the Innovative grant funds awarded to the States to 
support the semi-annual mobilizations.
    The momentum and commitment for the mobilizations reached an all 
time high this year with 43 States, DC, and Puerto Rico adopting the 
``Click It or Ticket'' model in May 2003. Early in 2003, the Agency 
solicited input from the Governors Highway Safety Association and the 
highway safety offices of the 50 States, the District of Columbia, and 
Puerto Rico regarding their future plans to conduct the mobilizations. 
The responses indicated a solid commitment to continue the 
mobilizations through Section 402 apportionments or other funding 
mechanisms. Thus, NHTSA did not specifically earmark grant funds to the 
States for this purpose. The President's fiscal year 2004 budget 
request rolls $112 million of what was Section 157 funding in fiscal 
year 2004 into a consolidated Highway Safety Grant program. This 
proposal is also reflected in SAFETEA, the administration's 
reauthorization proposal. This proposal eases the grant administration 
burden of the States while providing the same level of resources as 
previously to fund these programs.
    The Department's SAFETEA reauthorization proposal also includes 
special performance-based incentive grant programs under Section 402 as 
incentive for State progress in both reducing impaired driving and 
increasing safety belt use.
    Question. The Department's goal for highway-related fatalities in 
2004 is 1.38 per 100 million vehicle miles traveled. The budget 
indicates that the two major reasons for the lack of significant 
progress in reducing overall highway-related fatalities can be directly 
attributed to motorcycles and pedestrians. The budget, however, appears 
to assume a steady rate among these groups and a necessity to focus on 
passenger cars and light trucks. What specific actions will the 
Department undertake to address and to reduce the number of fatalities 
among motorcycles and pedestrians in particular?
    Answer. NHTSA's fiscal year 2004 budget addresses the action items 
in the NHTSA ``Motorcycle Safety Program'' document released in January 
2003 and the ``National Agenda for Motorcycle Safety'' developed in 
collaboration with motorcycle safety partners.
    A new fiscal year 2004 initiative will address a concern that 
motorcycle-training programs accommodate all those who seek training. 
NHTSA plans to work with identified State rider education and training 
programs to develop and implement long-range strategic plans to make 
training available for all those who need it and in a timely fashion. 
NHTSA will continue research on motorcycle lighting as a means to 
improve motorcyclist conspicuity and will continue research on 
motorcycle braking systems.
    Additionally, NHTSA will: conduct research on crash avoidance 
skills; conduct research on motorcyclists conspicuity; support projects 
to reduce impaired riding by developing and testing activities that may 
include peer-to-peer efforts, social norm models, enforcement efforts, 
and motorcycle impoundment; and collect and analyze motorcycle crash, 
injury, and fatality data and compare motorcyclists who successfully 
completed formal rider training to those who have not to determine any 
difference in crash involvement.
    Pedestrian crashes are addressed through a combination of public 
information, legislation, enforcement, engineering, and outreach 
strategies. NHTSA will: fund competitive demonstration projects 
designed to involve the law enforcement community to improve pedestrian 
safety; develop a community guide to tackle the challenges of 
implementing comprehensive pedestrian safety programs; explore the 
feasibility of developing and disseminating a school crossing guard 
curriculum; and develop community-level Safe Routes to School workshops 
to increase pedestrian safety around schools.
    NHTSA will also disseminate tools to encourage communities to 
promote safe walking. Non-traditional partners, such as smart growth 
coalitions or local government commissions, will be identified and 
encouraged to incorporate pedestrian safety into their organizations' 
missions. NHTSA will continue its partnership with the Federal Highway 
Administration to incorporate infrastructure improvements with 
behavioral safety principles.
    Question. The NHTSA budget proposes a new initiative to award 
discretionary grants to States to demonstrate the effectiveness of a 
comprehensive approach to reducing impaired driving. Could you explain 
how this program is different from the old program in terms of scope, 
distribution of dollars and more importantly, how it is an improvement 
over the old program?
    Answer. The SAFETEA proposal would make $50 million available each 
year for discretionary grants to a certain number of States with high 
rates of alcohol-related fatalities and/or high total numbers of 
alcohol-related fatalities. These discretionary grants would fund 
programmatic activities specified by NHTSA and agreed to by the 
recipient States. These activities would be of proven effectiveness, 
e.g., well-publicized and high-intensity enforcement of impaired 
driving violations. Thus, under the proposal, NHTSA would annually 
direct $50 million to States with the greatest need for improvement in 
the impaired driving arena, and would see to it that those States spend 
the money in ways most likely to succeed in moving the impaired driving 
numbers down.
    Under TEA-21, the only State grant funds, which had to be spent on 
impaired driving programs, were the Section 410 alcohol incentive grant 
funds, which totaled $40 million in fiscal year 2003. The States that 
received these funds already had good legislative and programmatic 
infrastructure for combating impaired driving, because these laws and 
programs were needed to qualify for funding. Additional funds were 
awarded to States that enacted .08 BAC laws. However, these funds could 
be spent on any highway construction or highway safety program, not 
just impaired driving.
    Additionally, of the $337 million that SAFETEA would provide in 
Section 402 basic formula and performance grants in fiscal year 2004, 
all but $25 million resulting from safety belt use rate performance 
would be available for impaired driving programs if States choose to 
allocate for that purpose. SAFETEA thus gives States great latitude in 
directing resources to address priority problems, including impaired 
driving.

                       HIGHWAY SAFETY INITIATIVES

    Question. Dr. Runge, your opening statement says that NHTSA has 
``pledged to solve the highway safety issues confronting this Nation.'' 
However, other than consolidating some grant programs and a new 
accounting of other grant programs, I see no new, innovative programs 
included in this budget or in reauthorization proposal that would 
convince me that NHTSA is on the way to solving the highway safety 
issues confronting this Nation.
    What specifically in this budget is going to make significant 
strides in improving safety?
    Answer. The Department's reauthorization proposal offers more than 
consolidation of grants. The two performance based grant programs, the 
General Performance Grant Program and the Safety Belt Performance Grant 
Program would encourage States to take actions on strengthening their 
highway safety programs and implementing laws to increase safety belts 
and to deter impaired driving. The proposal will also help States with 
high alcohol-related fatalities receive much needed support to improve 
their alcohol programs. The proposal calls for NHTSA to develop and 
facilitate a coordinated and comprehensive EMS infrastructure by 
designating NHTSA as the lead agency for EMS.
    Another component of the reauthorization proposal is to conduct a 
national motor vehicle crash causation survey. The survey will collect 
much needed, real-world crash causation data to identify and understand 
motor vehicle crash factors that are integral to developing crash-
preventing countermeasures. The proposal will also authorize NHTSA to 
institute an International Cooperative Safety Program to exchange 
research and educational programs that are beneficial to NHTSA in 
carrying out its mandate to reduce motor vehicle injuries and 
fatalities. Further, the proposal provides incentive grants to the 
States to improve their traffic record data, which will benefit the 
local, State, and Federal transportation-related agencies in 
identifying their transportation safety problems and evaluating their 
programs and countermeasures.

                  HIGHWAY SAFETY GRANT FUNDING LEVELS

    Question. I am concerned that much of this ``increase'' in funding 
for highway safety is merely the shifting of funds from Highways to 
NHTSA. I have expressed this to the Secretary and still believe that we 
need more information to conduct a proper analysis.
    Dr. Runge, how much of NHTSA's increase is actually new money?
    Answer. NHTSA's proposed total funding for grants to States in 
fiscal year 2004 is $447 million. That is identical to the amount of 
funds provided to the States under TEA-21 in fiscal year 2003.

                              SAFETY BELTS

    Question. With respect to seat belt usage, Dr. Runge, you have 
said, ``we have a model that works. For every 1 percent increase in 
belt use, we get $800 million in economic costs saved, 2.8 million more 
people buckling up, 276 lives saved, and reduce the severity of 6,400 
moderate to critical injuries.''
    Dr. Runge, given the clear benefits of increasing seat belt usage 
rates, why does the fiscal year 2004 budget exclude specific funding 
for ``Click It or Ticket'' Campaigns in the States when I am not aware 
of any program that has been more effective at getting people to buckle 
up?
    Answer. ``Click It or Ticket'' has indeed proven effective in 
increasing safety belt use. NHTSA intends to continue the ``Click It or 
Ticket'' mobilizations in 2004, and beyond. Early in calendar year 
2003, the Agency solicited input from the Governors Highway Safety 
Association and the highway safety offices of the fifty States, the 
District of Columbia, and Puerto Rico. Given the commitment to 
continuing the mobilizations that was expressed, NHTSA does not believe 
that it is necessary to earmark grant funds to the States for this 
purpose. Also, the Agency's intent is to focus a significant portion of 
research and development (Section 403) funds to support the two 
mobilizations through program development, technical assistance, and 
evaluation initiatives.
    Question. Is there an initiative in the budget that will work as 
well or better than the mobilizations?
    Answer. Given the proven success of conducting high visibility 
enforcement campaigns and the expressed commitment from State Highway 
Safety Offices to continue the national mobilization strategy, NHTSA 
plans ongoing support for the ``Click It or Ticket'' mobilizations. 
However, the Agency also plans to work with States on the development 
of a variation on the model that involves continuous high-visibility 
enforcement operations (24 hours a day, 7 days per week).
    Through additional incentive funds proposed in the Department's 
SAFETEA reauthorization submission, NHTSA will continue support for 
``Click It or Ticket'' mobilizations during fiscal year 2004. At the 
same time, States that have experienced the full benefit of the ``Click 
It or Ticket'' approach will be encouraged to move toward a continuous 
high-visibility enforcement model. Several States with the highest use 
rates, including California and Washington, have had success with this 
approach.
    In 2004, States will be conducting one safety belt mobilization in 
May, an impaired driving crackdown in December, and the States will 
conduct high visibility enforcement mobilizations throughout the summer 
months.

                            IMPAIRED DRIVING

    Question. The preliminary National Highway Traffic Safety 
Administration (NHTSA) data estimates 17,970 deaths last year due to 
crashes involving alcohol--that's about 500 more than in 2001 and 
represents 42 percent of all traffic fatalities. This number is too 
high and we must take action.
    Dr. Runge, can you tell me what NHTSA is doing this year to focus 
on the problem of impaired driving and further what specifically the 
budget propose to reduce the number of impaired drivers and related 
accidents in the future?
    Answer. NHTSA's 2004 goal is to reduce alcohol-related fatalities 
to no more than 0.53 alcohol-related fatalities per 100 million vehicle 
miles traveled (VMT). To achieve the goal, NHTSA will work with States 
to develop a plan for maximizing general deterrence through high 
visibility law enforcement, while also maintaining attention to 
effective specific deterrence programs for dealing with offenders.
    NHTSA demonstration programs in both the safety belt and impaired 
driving areas have proven that highly visible enforcement, coupled with 
paid and earned media, is an extremely effective general deterrent 
strategy. Nearly all States have agreed to pursue both sustained (year-
long) high-visibility impaired driving enforcement, as well as periodic 
enforcement crackdowns during July and December 2003. Sustained 
enforcement will continue in 2004, with States conducting high 
visibility enforcement operations according to their own schedules 
throughout the summer months and a coordinated national crackdown in 
December.
    Media directed at high-risk groups is critical to the success of 
these enforcement efforts. States and the District of Columbia have 
agreed to utilize the national ``You Drink & Drive. You Lose.'' theme, 
which reminds motorists that if they drive while impaired, they will be 
arrested. In 2003, Congress provided the agency with $12 million to 
support paid advertising to supplement State efforts during these 
periods and to evaluate the efforts.
    The Agency believes that this unprecedented level of coordinated 
national law enforcement and associated media coverage will be 
effective in creating deterrence to drinking and driving and will 
change behavior. The Agency is currently conducting an evaluation of 
the effect of paid media and sustained enforcement on impaired driving.
    To ensure longer-term progress, the Agency will also encourage 
sustained, highly visible enforcement and continue to advance the areas 
of prevention, intervention, and treatment. Long-term success will be 
dependent on people making informed choices about drinking and driving 
and getting treatment to resolve substance abuse problems.
    Question. The NHTSA budget proposes a new initiative to award 
discretionary grants to States to demonstrate the effectiveness of a 
comprehensive approach to reducing impaired driving.
    Dr. Runge, could you explain how this program is different from the 
old program in terms of scope, distribution of dollars and more 
importantly, how it is an improvement over the old program?
    Answer. The SAFETEA proposal would make $50 million available each 
year for discretionary grants to certain States with high rates of 
alcohol-related fatalities and/or high total numbers of alcohol-related 
fatalities. These discretionary grants would fund programmatic 
activities specified by NHTSA and agreed to by the recipient States. 
These activities would be of proven effectiveness, e.g., well-
publicized and high-intensity enforcement of impaired driving 
violations. Thus, under the proposal, NHTSA would annually direct $50 
million to States with the greatest need for improvement in the 
impaired driving arena, and would ensure that those States spend the 
money in ways most likely to succeed in moving the impaired driving 
numbers down.
    Under TEA-21, the only State grant funds, which had to be spent on 
impaired driving programs were the Section 410 alcohol incentive grant 
funds, which totaled $40 million in fiscal year 2003. The States that 
received these funds already had good legislative and programmatic 
infrastructure for combating impaired driving, because these laws and 
programs were needed to qualify for funding. Additional funds were 
awarded to States that enacted .08 BAC laws. However, these funds could 
be spent on any highway construction or highway safety program, not 
just impaired driving.
    Additionally, of the $337 million that SAFETEA would provide in 
Section 402 basic formula and performance grants in fiscal year 2004, 
all but $25 million resulting from safety belt use rate performance 
would be available for impaired driving programs if States choose to 
allocate for that purpose. SAFETEA thus gives States great latitude in 
directing resources to address priority problems, including impaired 
driving.

                           CHILD SAFETY SEATS

    Question. For the past several years, the Committee has provided 
funding for child safety seat campaigns. These campaigns have been very 
successful at increasing the proper use of child safety seats while we 
developed the second generation of child safety seats, which are now 
accompanied by LATCH systems in all new passenger vehicles to allow for 
easier installation and safer car seats.
    One of the reasons this campaign has been so successful is due to 
the broad base of support coming from State and local public safety 
community, community activists, and private industry. Without this 
coalition of support it is difficult to imagine that the campaign would 
have had the effect of continued decreases in child fatalities.
    Question. Dr. Runge, is this a model that can be used in other 
areas that need improvement?
    Answer. The success of the child passenger safety campaign has 
clear and compelling implications for its utility as a model in other 
program areas. NHTSA recognizes the transferable nature of this model 
to other highway safety programs and has already taken numerous steps 
to incorporate similar strategies in ongoing and future efforts.
    In the early years of the campaign, the model focused solely on 
child occupant restraints. NHTSA and partners, such as the Air Bag & 
Seat Belt Safety Campaign (ABSBSC), were able to build on the momentum 
created in child passenger safety in particular the hazard posed to 
front seated children by airbags and transfer the effort to occupant 
protection issues for all ages. Over the years, what began as 
``Operation ABC (America Buckles Up Children)'' evolved into an 
endeavor that included teen and adult restraint use as well. This model 
was also used as the basis for what is known now as the ``Click It or 
Ticket/Operation ABC'' campaign, which is also demonstrating 
considerable gains in safety belt use.
    The model is being refined even further in the area of Impaired 
Driving. NHTSA and partners, such as Mothers Against Drunk Driving 
(MADD), embarked on the NHTSA-led ``You Drink, You Drive. You Lose.'' 
campaign in fiscal year 2003. Here again, the State and local public 
safety community, community activists, law enforcement, key advocacy 
groups, and private industry are coming together to address a public 
health concern and implement strategies to overcome this problem.

                          OCCUPANT PROTECTION

    Question. The Committee has supported NHTSA's efforts to increase 
seat belt usage among target populations whose usage rates are well 
below the national average. We know that safety belt usage among teens 
and young adults is lower than the national average.
    Dr. Runge, what is NHTSA doing to identify and reach out to these 
and other target populations?
    Answer. NHTSA is conducting a variety of focused outreach and 
demonstration programs to increase safety belt use among high-risk 
groups. One important strategy for NHTSA is continuing the long-
standing partnerships with minority organizations to increase safety 
belt use within these communities. Examples of these partnerships 
include: The National Council of Negro Women; The National Latino 
Children's Institute; The Hispanic American Police Command Officers 
Association; The Bureau of Indian Affairs; and The National Asian 
Pacific American Families Against Substance Abuse.
    Successful outreach to the African American community was 
exemplified in a recent meeting of African American leaders cosponsored 
by Secretary Mineta and Dr. Dorothy Height, Chair of the National 
Council of Negro Women, for the purpose of reviewing the success of the 
Blue Ribbon Panel to Increase Seat Belt Use Among African Americans and 
laying out plans for next steps. The 2002 National Occupant Protection 
Usage Survey (NOPUS) showed an 8 percentage point increase in African 
American safety belt use since the Panel's findings were released in 
2000.
    In the Hispanic community, families are being educated about the 
importance of safety belt use through child passenger safety venues. 
Culturally sensitive educational materials and curricula have been 
developed, and an infrastructure of certified child passenger safety 
technicians and fitting stations will soon be implemented in Hispanic 
neighborhoods.
    In 2001, NHTSA awarded teen safe driving demonstration grants in 
Pennsylvania, Maryland, Minnesota, and Washington. This program focuses 
on common high-risk behaviors for youth 15-20 years of age, including 
lack of safety belt use, impaired driving, and speed. NHTSA also 
tailored the May 2003 ``Click It or Ticket/Operation ABC'' mobilization 
to teens, reaching out to high schools around the Nation to encourage 
students to buckle up. NHTSA is also: conducting research into the 
effectiveness of Graduated Driver's Licensing in reducing teen injuries 
and fatalities in motor vehicle crashes; researching innovative and 
model programs to increase teen safety belt use; and conducting focus 
groups to develop effective messaging and strategies to reach teens.
    Question. How are the programs being received in these communities?
    Answer. Preliminary results from the four Teen Safe Driving 
Demonstration Programs administered by NHTSA suggest that the 
strategies implemented are well received and hold promise to increase 
the awareness of young people about high risk driving behaviors and 
increase safety belt use.
    For example, in the Spokane, Washington, Teen Safe Driving 
initiative, law enforcement officers visit high schools and conduct 
``Room to Live'' presentations on risky driving behavior for teens--
speeding, lack of safety belt use, and impaired driving. Results from 
the 500 students that evaluated this portion of the program include: 97 
percent of students thought the program was effective; 98 percent of 
the students thought other students would benefit from the program; 91 
percent of the students felt that safety belts were more important to 
them after the presentation; and there was a 29 percent increase in the 
number of students who said they would wear their safety belt all the 
time.
    Preparing communities for interventions to increase safety belt use 
through education and direct involvement in the planning and 
implementation of programs is key to building consensus and positive 
reception by the community. In the teen demonstration grants awarded by 
NHTSA in 2001, letters were sent to families, schools were notified, 
press events were held, and young people were (and are) directly 
involved in the development and implementation of the program. This has 
resulted in support for the program goals, strong partnerships, and 
successful collaboration. In fact, the cities involved in the Minnesota 
Teen Safe Driving Initiative jointly won the League of Minnesota Cities 
Achievement Award in Public Safety for their initiative.
    Successful strategies identified in these demonstration grants, as 
well as findings from current research by NHTSA to identify effective 
and promising strategies to reach teens, will be documented and 
promoted as effective strategies for use by other States.
    Question. If 75 percent of rollovers are unbelted, is it possible 
to focus on occupants who are at greater risk of being in a rollover 
accident as a target population?
    Answer. NHTSA believes that it is possible to focus safety belt 
program efforts on drivers of vehicles that are more likely than others 
to be involved in rollover crashes. In fiscal year 2001 and 2002, the 
Agency awarded two demonstration projects to test strategies for 
increasing belt use in sport utility vehicles (SUV) and pickup trucks. 
Early results from these demonstrations appear encouraging. Occupants 
of these vehicles are over-represented in rollover crashes. Preliminary 
results from the Virginia and Colorado demonstration sites highlight 
the benefit of these projects. Virginia's ``Buckle Up Now'' 
demonstration project, which focused on the southern counties of the 
State, saw safety belt usage increase from 61 to 77 percent following 
introduction of the campaign.
    The pickup truck demonstration projects in Florida and South Dakota 
made significant strides in increasing safety belt usage among pickup 
truck occupants. Florida reported a 16-percentage point increase--from 
33 to 49 percent. Best practices guides based on findings from these 
projects will be published in fiscal year 2004.

                             SHARE THE ROAD

    Question. How do NHTSA and FMCSA coordinate with regard to the 
``Share the Road'' education program, and how do you believe that 
program can be made more effective?
    Answer. As directed by TEA-21, NHTSA provided FMCSA with funding to 
support the ``Share the Road'' program. This program is executed by 
FMCSA. With the transfer of funds, FMCSA provides NHTSA with an 
overview of program activities. FMCSA also coordinates program 
activities through the Share the Road Coalition and intermittent 
notification of issues as they arise during the fiscal year.
    Recently, GAO completed a report on the effectiveness of the 
``Share the Road'' program and how to improve the program delivery. GAO 
provided recommendations on improving the effectiveness of the ``Share 
the Road'' program. The DOT agrees with the GAO's recommendations.

                                 ______
                                 
              Questions Submitted by Senator Patty Murray

    Question. Dr. Runge, when the Federal Government has tried to get 
the States to enact meaningful safety laws, it has taken two 
approaches. In some instances, like the Minimum Drinking Age Act and 
the 0.08 law, we have withheld highway construction funds from States 
that don't pass the law. In other instances, we have provided incentive 
payments to get the States to make safety improvements. The record is 
clear, when we sanction highway construction funds, all the States 
eventually comply. When we provide incentive payments, the record is 
quite mixed. NHTSA's own data show that seat belt use increases as much 
as 15 percent in States that have primary seat belt laws on the books. 
Currently, 18 States and the District of Columbia have primary seat 
belt laws in effect, including my own State of Washington. Yet, your 
2004 budget request includes $100 million for a new primary belt 
incentive grant program. This program is designed to encourage the 
remaining 32 States to pass a primary seat belt law.
    Why did NHTSA choose to create an incentive grant program rather 
than a penalty program to get States to enact primary seat belt laws? 
Given the lives that can be saved as a result of these laws, doesn't 
this safety requirement call out for universal compliance?
    Answer. NHTSA believes incentives have a greater opportunity to be 
effective because the fiscal landscape has changed. Many States are 
facing huge fiscal challenges. NHTSA dialog with State legislative and 
executive offices during last year has indicated their desire to keep 
incentive programs in the reauthorization. The Agency believes that the 
proposed incentive for enacting a primary safety law--five times the 
State's fiscal year 2003 allocation for Section 402--is significant 
enough to create impetus for law changes in States that are searching 
for financial help in almost every program.
    Question. What specific examples can you provide us to demonstrate 
that States are more likely to pass safety legislation when the Federal 
Government provides incentive funding?
    Answer. The Section 410 Alcohol-Impaired Driving Countermeasures 
Grant program was amended by the Intermodal Surface Transportation 
Equity Act (ISTEA) to provide financial incentives to States for the 
development of improved laws and programs to deal with impaired 
driving. Many States actively pursued enacting new or improved laws to 
reduce drinking and driving, such as administrative license revocation 
(ALR), .02 BAC laws for under age 21 drivers, and .08 BAC laws. During 
the ISTEA authorization (1991-1997):
  --Eight States enacted .08 BAC laws.
  --Thirty-four States plus enacted .02 BAC laws for drivers under age 
        21 (25 enacted before the passage of the NHS sanction provision 
        in 11/95).
  --Ten States enacted ALR laws.
    ISTEA also established an innovative occupant protection law 
incentive grant phase of Section 153, which authorized 3 years of 
incentive grants, beginning fiscal year 1992, for States with both a 
safety belt and a motorcycle helmet use law.
  --Ten States took legislative action to enact a conforming safety 
        belt or motorcycle helmet law during the incentive phase 
        (fiscal year 1992-fiscal year 1994).
  --Seven States adopted new safety belt laws: Nebraska, North Dakota, 
        West Virginia, Vermont, Massachusetts, South Dakota, and 
        Kentucky.
  --Two States, Ohio and Connecticut, amended their existing safety 
        belt use laws to remove unacceptable air bag exemptions.
  --For the seven States which enacted new safety belt laws and the one 
        State which enacted a motorcycle helmet law during the Section 
        153 incentive phase, increased belt and helmet use rates 
        following the enactment of these laws resulted in a combined 
        savings of about 140 lives, 2,400 moderate to serious injuries, 
        and nearly $220 million.
  --Twenty-five of 27 eligible jurisdictions chose to participate in 
        the grant program. Thirty-six million dollars in grants 
        leveraged $52 million dollars in matching funds to increase 
        safety programs and compliance with occupant protection and 
        motorcycle helmet laws.
    NHTSA believes significant incentives will work again because the 
fiscal landscape has changed dramatically in the past 2 years. Many 
States are facing huge fiscal challenges. The dialog between NHTSA and 
State legislative and executive offices in the past year has been 
increasingly about incentives remaining in the current authorization. A 
fivefold Section 402 amount incentive for passing a primary safety law 
is significant enough, NHTSA believes, to create law changes in States 
that are searching for economies in every program.

                     MOTORCYCLE FATALITY INCREASES

    Question. Dr. Runge, motorcycle deaths have gone up every year 
since 1997 and the deaths of older cyclists have been rising for an 
even longer period of time. The early estimates for 2002 indicate that 
the overall number of motorcycle fatalities increased by 3 percent over 
2001. And while the number of fatalities for younger riders decreased, 
for riders over the age of 50, there was an astounding 24 percent jump 
in the number of motorcyclists killed.
    To what do you attribute the increase in the number of motorcycle 
fatalities and why has there been a spike in the number of older rider 
fatalities?
    Answer. Three major changes have occurred to impact the motorcycle 
crash problem: the number of registered motorcycles has increased, the 
average age of riders has increased, and motorcycle helmet usage has 
decreased.
    Motorcycle sales have increased for 10 consecutive years, resulting 
in more motorcycles on the highways, thereby increasing exposure. Many 
of these motorcycles have larger engine displacement.
    The average age of a motorcycle operator in 1998 was 38.1 years 
compared to 33.1 years in 1990, 28.5 years in 1985, and 26.9 years in 
1980. Motorcycle ownership by age illustrates that more individuals 
over the age of 50 are purchasing motorcycles. Ownership for those age 
50 years and over in 1998 was 19.1 percent compared to 10.1 percent in 
1990, 8.1 percent in 1985, and 5.7 percent in 1980 (Motorcycle Industry 
Council data).
    According to the National Occupant Protection Use Survey, 
motorcycle helmet use has decreased from 71 percent in 2000 to 58 
percent in 2002. Reduced helmet use, impaired riding, especially riders 
with high blood alcohol concentrations, and speeding are risk factors 
that have affected the number of motorcyclists killed in traffic 
crashes.
    Question. In last year's bill, we provided additional funding for 
training and crash avoidance skills. How have you put these funds to 
use?
    Answer. In fiscal year 2003, the Committee increased the motorcycle 
program budget by $300,000 with the instruction that these additional 
funds be used to improve crash avoidance skills and motorcyclist 
conspicuity.
    To improve crash avoidance skills, NHTSA is entering into a 
cooperative agreement with the Motorcycle Safety Foundation to ensure 
that the appropriate crash avoidance skills are incorporated into 
revised curricula and are updated as needed. Motorcyclist training will 
reflect these changes as appropriate.
    To improve motorcyclist conspicuity, NHTSA is planning research to 
determine if daytime running lamps on passenger cars affect the 
motorcycle visibility in the traffic mix. Additionally, NHTSA will 
conduct research to determine if modulating headlamps on motorcycles 
increases the visibility and recognition of a motorcycle in the traffic 
mix.

                    NHTSA'S PAID ADVERTISING PROGRAM

    Question. Dr. Runge, over the last few years, this subcommittee 
provided funding for paid media to support the highly successful 
``Click It or Ticket'' program. In fact, the national ads for this 
program have been running this month during the seat belt mobilization 
campaign. This year, we expanded the program to include national media 
for the drunk driving mobilizations that will occur in July and 
December.
    Dr. Runge and Mr. Hurley, what kind of feedback have you been 
getting about the ``Click It or Ticket'' ads?
    Answer. It is clear the ad campaign was successful. Anecdotal 
feedback relating to the frequency of the ads and recall of the 
campaign message by the public was extremely positive. Further, 
preliminary research indicates that the campaign moved all key 
indicators among the core audience of adult drivers and, more 
importantly, those most at risk, males age 18-34.
    Among all drivers surveyed, recall of the special effort by police 
to ticket drivers for safety belt violations increased from 47 percent 
in the pre-media survey to 75 percent on May 29, when post-campaign 
surveys were conducted. Among males age 18-34, recall of the 
enforcement campaign increased from 49 percent prior to the campaign to 
78 percent after the campaign. This level of recall is significantly 
higher than after the 2002 campaign. A majority (50 percent) of drivers 
said police in their community were doing more to enforce their State's 
safety belt laws over the past 4 to 6 weeks. This is up from 32 percent 
prior to the campaign. Forty-six percent of men age 18-34 said police 
in their community were doing more to enforce their State's safety belt 
laws over the past 4 to 6 weeks. This is up from 33 percent among this 
audience prior to the enforcement effort.
    Among all drivers, the percentage of those saying they would be 
likely to receive a ticket if they did not wear their safety belt 
increased from 56 percent prior to the campaign to 62 percent after the 
campaign. This is the highest percentage of drivers who perceived 
themselves as likely to receive a ticket we have reached in the history 
of this campaign.
    Twenty-nine percent of drivers correctly identified, without being 
prompted, ``Click it or Ticket'' as the name of the special effort by 
police to ticket drivers for safety belt violations. Forty-two percent 
of men age 18-34 correctly identified, without being prompted, ``Click 
it or Ticket'' as the name of the special enforcement effort.
    Question. Dr. Runge, given the demonstrated effectiveness of this 
program, why didn't your 2004 budget proposal include funding for paid 
media to continue these campaigns?
    Answer. NHTSA intends to continue the ``Click It or Ticket'' and 
``You Drink & Drive. You Lose.'' mobilizations in 2004, and beyond. 
Early in calendar year 2003, the Agency solicited input from the 
Governors Highway Safety Association and the highway safety offices of 
the 50 States, the District of Columbia and Puerto Rico to gauge their 
support continuing the paid media initiative. Given the solid 
commitment to continuing the mobilizations that was expressed, NHTSA 
does not believe that it is necessary to earmark grant funds to the 
States for this purpose. States can use their existing grant funds to 
support these efforts.
    Question. This will be the first year that national media will be 
used for the drunk driving mobilization efforts in July and December.
    Dr. Runge, can you assure us that NHTSA is putting the same level 
of effort into the media campaign for the drunk driving mobilizations 
as you did with the seat belt mobilizations? Can we expect the 
Department to have a national kick-off for the drunk driving media 
campaign similar to what was held at the National Press Club a few 
weeks ago for the seat belt mobilizations?
    Answer. In fiscal year 2003 Congress provided an additional $11 
million appropriation to NHTSA to support paid advertising for the 
``You Drink & Drive. You Lose.'' crackdown. With this additional 
funding, the Agency produced an advertisement, focusing on high 
visibility enforcement, which will be aired nationally June 20 through 
July 13. In addition, the Agency has purchased advertising time in 13 
States that have either high alcohol-related fatality numbers or rates 
to saturate their media markets during the same time. The Department 
conducted a national press event on June 19 to raise awareness of the 
motoring public that the ``You Drink & Drive. You Lose.'' national 
crackdown will take place over three weekends surrounding the July 4th 
holiday. At that event, NHTSA unveiled the national advertisement 
reinforcing the message that law enforcement will be out in force 
looking for impaired drivers. In addition to Departmental 
representatives, potential speakers for the event include members of 
the law enforcement community, Mothers Against Drunk Driving, and an 
offender in the high-risk age group (e.g., ages 21-34) who has served 
jail time for impaired driving. To drive this message home, the 
location for the press event will likely be a booking facility at a 
local police department.

                 INCREASE OF ALCOHOL-RELATED FATALITIES

    Question. Alcohol-related fatalities increased for the third year 
in a row to nearly 18,000 deaths in 2002--and this is just the early 
estimate. Last year, Senator Shelby and I fought to increase the 
funding for the NHTSA's impaired driving program in NHTSA's Operations 
and Research account. We were successful in providing a 36 percent 
increase over the President's 2003 request. I was disappointed that 
your 2004 budget request cut the funding for NHTSA's impaired driving 
program by 25 percent.
    Dr. Runge, I'll ask the same question that I asked you last year, 
why did you decide to cut the funding for your impaired driving program 
at a time when alcohol-related fatalities are increasing?
    Answer. The funding request for fiscal year 2004 has not decreased 
and remains essentially level compared with the Agency's fiscal year 
2003 request. NHTSA's fiscal year 2004 impaired driving program will 
continue to focus on highly sustained and periodic law enforcement 
campaigns, together with implementing improvements to the prosecution, 
adjudication, and records systems. For fiscal year 2004, the Agency has 
proposed a State grant program that will focus resources on a number of 
high risk States with high alcohol-related crashes. Targeted use of 
resources to sustain high visibility enforcement and encouragement of 
States to adopt proven remedies should revive the downward trend in 
alcohol-related fatalities that the Nation experienced over the last 
decade.
    Question. NHTSA also administers grant programs to the States for 
various alcohol-impaired driving countermeasures through the Section 
402 State and Community Formula Grant program. A few weeks ago, 
Secretary Mineta testified before this subcommittee and stated that the 
2004 request includes $148 million for impaired driving programs and 
that the funds will be used to increase the number of highly visible 
sobriety checkpoints and other State highway patrol programs. In 
reviewing your 2004 budget, it appears that only $50 million is 
specifically targeted for State grants on impaired driving initiatives.
    Would you outline for us how much funding is specifically directed 
toward impaired driving programs? For example, how much money will be 
spent on high visibility enforcement efforts?
    Answer. The SAFETEA proposal would direct $50 million each year to 
initiatives to curb impaired driving through discretionary grants to a 
limited number of States with high rates of alcohol-related fatalities 
or high total numbers of alcohol-related fatalities. The discretionary 
grants would fund programmatic activities specified by NHTSA and agreed 
to by the recipient States. These activities would be of proven 
effectiveness, e.g., well-publicized and high-intensity enforcement of 
impaired driving violations. Additionally, of the $337 million that 
SAFETEA would provide in Section 402 basic formula and performance 
grants in fiscal year 2004, all but the $25 million resulting from 
safety belt use rate performance would be available for impaired 
driving. SAFETEA thus gives all States greater latitude in directing 
resources to address priority problems, including high visibility 
impaired driving enforcement efforts.

               NHTSA'S OVERSIGHT OF STATE SAFETY PROGRAMS

    Question. Dr. Runge, the second word in the administration's 
SAFETEA proposal stands for ``accountable.'' Yet, the recent report 
released by the General Accounting Office draws the conclusion that 
NHTSA has been inconsistent in holding the States accountable for their 
highway safety programs. The GAO reported that NHTSA's use of 
management reviews varied from region to region and that the regional 
offices have made limited and inconsistent use of improvement plans. 
While some States may do a good job at meeting their safety objectives, 
it is clear that others may benefit from greater input and guidance 
from NHTSA.
    How specifically does your SAFETEA proposal improve the 
accountability of State highway safety programs? Does any part of your 
SAFETEA proposal withhold Federal funding from States that fail to meet 
stated safety goals?
    Answer. The SAFETEA proposal would improve the accountability of 
State highway safety programs because it would allocate the majority of 
funds to States based on specific measures of their performance in 
achieving safety improvements and improved outcomes. In fiscal year 
2004, $100 million would go to States that succeeded in enacting 
primary safety belt laws, or that achieved belt use rates of 90 percent 
or higher. Another $50 million would be distributed only to States that 
succeeded in achieving low or improved rates of total motor vehicle 
fatalities, alcohol-related fatalities, and/or motorcyclist, 
pedestrian, and bicyclist fatalities. Another $25 million would go only 
to States that achieved high or improved safety belt use rates. Fifty 
million dollars would be distributed to a limited number of States that 
agree to conduct assessments of their programs and carry out impaired 
driving programs that include specified performance elements. Beginning 
in fiscal year 2005, States that fail to enact primary safety belt laws 
or achieve 90 percent safety belt use without such a law would transfer 
10 percent of their highway safety improvement program funds to their 
Section 402 highway safety program.

                            CRASH CAUSATION

    Question. NHTSA's 2004 budget includes the first $10 million 
installment of your $60 million proposal to update the 30-year-old Tri-
Level Study on motor vehicle crash causation. The motor vehicle crash 
causation study is expected to commence at the completion of the truck 
crash causation study that has been funded through the Federal Motor 
Carrier Safety Administration but conducted by NHTSA over the last 3 
years. The 2003 Conference Report directed NHTSA to have the CDC's 
National Center for Injury Prevention and Control evaluate the adequacy 
of the crash causation research design.
    Dr. Runge, given that the motor vehicle crash causation study is 
expected to use the same methodology as the truck crash causation 
study, would it make sense to see the results of the CDC evaluation 
before moving ahead with the motor vehicle crash causation study?
    Answer. The Large Truck Crash Causation Study (LTCCS) design and 
implementation was thoroughly reviewed by a knowledgeable 
Transportation Research Board (TRB) committee. Most of the TRB 
recommendations were incorporated into the LTCCS study. Those that are 
applicable to the upcoming National Motor Vehicle Crash Causation 
Survey (NMVCCS) will be included in its design. In response to the 
specific direction in the 2003 Conference Report, the National Highway 
Traffic Safety Administration (NHTSA) has prepared a written 
description of the Large Truck Crash Causation Study sample design. It 
details the sampling process, as well as providing a description of the 
practical application of this design into field operations. This report 
is being provided to CDC for review. The results of the CDC evaluation 
will be taken into consideration.

              NHTSA'S ``CHECKPOINT STRIKEFORCE'' CAMPAIGN

    Question. Dr. Runge, last June, your agency launched a sobriety 
checkpoint blitz called ``Checkpoint Strikeforce'' which was the first 
border-through-border law enforcement effort to deter drunk driving in 
the mid-Atlantic region. The program, which utilized sobriety 
checkpoints, law enforcement saturation patrols and public awareness 
campaigns, began just before the Fourth of July and ended in January 
this year.
    What can you tell us about the results of ``Checkpoint 
Strikeforce'' to date?
    Answer. The first phase of NHTSA Region III's ``Checkpoint 
Strikeforce'' program ran from July 4, 2002, through January 4, 2003. 
The five States (Delaware, Maryland, Pennsylvania, Virginia, West 
Virginia) and the District of Columbia collectively conducted 720 
sobriety checkpoints at which they contacted over 406,000 motorists and 
made 1,775 arrests for driving while under the influence (DWI) of 
alcohol. Overall, more than 3,000 enforcement actions (e.g., citations, 
arrests) were taken, including 77 arrests for felony charges.
    Analysis of public attitude and awareness survey data is 
continuing. In Virginia, for example, it is estimated that the 
``Checkpoint Strikeforce'' message reached more than 2 million viewers 
through television news stories, and 4 million print impressions were 
made through newspapers and other print media. Surveys showed that 71 
percent of Virginians ``strongly support'' checkpoints and 82 percent 
believe checkpoints are a ``useful tool in keeping drunk drivers off 
the road.''
    The ultimate objective of ``Checkpoint Strikeforce'' is to deter 
impaired driving and reduce crashes, injuries, and fatalities. Analysis 
of crash and fatality data is incomplete. However, preliminary results 
suggest that alcohol-related fatalities are down in four of the six 
States, compared to the comparable period the year before.
    Question. Are you planning a similar effort in any other region?
    Answer. A similar effort is underway across the Nation, with every 
State, the District of Columbia, and Puerto Rico participating to some 
degree. The Campaign is called ``You Drink & Drive. You Lose.'' 
although some States use different terminology to describe the program 
of sustained impaired driving enforcement, punctuated by periodic high-
intensity crackdowns with heavy publicity. For example, Illinois and 
Washington call their Campaigns ``Drive Hammered, Get Nailed.'' The 
sustained enforcement component of the Campaign is patterned on 
``Checkpoint Strikeforce'', but with a higher degree of intensity. In 
addition, ``You Drink & Drive. You Lose.'' also relies on the State 
highway safety offices to coordinate the schedule of the agencies' 
special operations so that there is a public perception that the 
stepped up enforcement occurs continually. Although all States have 
numerous law enforcement agencies participating, NHTSA's attention in 
2003 is focused on 13 Strategic Evaluation States (Alaska, Arizona, 
California, Florida, Georgia, Louisiana, Mississippi, Montana, New 
Mexico, Ohio, Pennsylvania, Texas, and West Virginia) that have high 
rates and/or numbers of alcohol-related fatalities. A nationwide 
advertising campaign is being enhanced in those 13 States with 
statewide television and radio advertisements, and their enforcement, 
public awareness and crash data are being monitored to assess the 
program's effectiveness.

         COORDINATED GOVERNMENTAL EFFORT TO FIGHT DRUNK DRIVING

    Question. Dr. Runge, roughly one-third of all drivers arrested or 
convicted for DUIs or DWIs were repeat offenders. These individuals are 
over-represented in fatal crashes and less likely to be influenced by 
education or legal sanctions. Given that these hard-core drinkers are 
probably the toughest individuals to reach, it seems that there ought 
to be a coordinated governmental effort to reach them. Last year, we 
directed NHTSA to work with the Attorney General's office to identify 
the best strategies to reduce plea bargaining and to make sure that 
impaired driving convictions are applied in a consistent manner. Beyond 
that, I think it is important that we look at the public health aspects 
of this problem to make sure that people are getting the treatment that 
they need. I know that you spoke to the National Institute on Alcohol 
Abuse and Alcoholism in February about how your two agencies might work 
together on this very challenging problem.
    What can you tell us about NHTSA's collaboration with the 
Department of Justice and the Department of Health and Human Services 
on drunk driving initiatives?
    Answer. NHTSA collaborates regularly with both the Department of 
Justice and the Department of Health and Human Services on initiatives 
that can reduce impaired driving.
    At the Department of Justice, NHTSA works closely with the Office 
of Juvenile Justice and Delinquency Prevention (OJJDP) and the Bureau 
of Justice Assistance (BJA) to support and expand the use of youth 
courts and impaired driving courts throughout the country. In addition, 
representatives of the Department of Justice participated in NHTSA's 
2002 Criminal Justice Summit and agreed to support its recommendations.
    At the Department of Health and Human Services, NHTSA works closely 
with a number of agencies, including the Substance Abuse and Mental 
Health Services Administration (SAMHSA), National Institute on Alcohol 
Abuse and Alcoholism (NIAAA), the Centers for Disease Control and 
Prevention (CDC), and the Office of the Surgeon General, regarding a 
range of programs that focus primarily on prevention, intervention, and 
treatment. In addition, this spring, NHTSA, SAMHSA, and NIAAA co-
sponsored a meeting of experts in alcohol research and the criminal 
justice system, to consider viable treatment options.
     top priorities for nhtsa and fmcsa's safety regulatory agenda
    Question. Ms. Sandberg and Dr. Runge, Americans all across the 
country rely on your two agencies to establish strong safety 
regulations to ensure that our trucks and cars are safe and that their 
drivers operate their vehicles in a safe and sober manner.
    What are your top three priorities for safety rules in the coming 
year that you think will achieve the most for highway safety?
    Answer. NHTSA's top three priorities for safety rules for fiscal 
year 2004 are:
    Upgrade Side Impact Requirements for Light Vehicles.--NHTSA is 
engaged in extensive research and rulemaking activities for an upgrade 
of FMVSS No. 214, Side Impact Protection. Side crashes killed 9,048 
light vehicle occupants and injured 773,000 in 2001. This upgrade will 
address new safety issues arising out of the significant changes in the 
U.S. side crash environment in recent years due to the increase in 
light trucks, vans, and multipurpose passenger vehicles and is a first 
step in addressing compatibility, one of the Administrator's 
priorities. Most importantly, the upgrade adds a vehicle-to-pole impact 
test simulating real world side crashes to rigid narrow objects.
    Improved Rear Impact Occupant Protection.--NHTSA estimates that 
each year 272,088 occupants of vehicles struck in the rear by another 
vehicle receive whiplash injuries. Although whiplash injuries may be of 
a relatively minor in severity, they entail large societal costs, 
estimated at $1.76 billion for rear impact whiplash. To reduce the 
frequency and severity of injuries in rear-end and other collisions, 
the Agency is developing rulemaking actions to upgrade its head 
restraint and seating system standards. It is important to protect 
occupants in the rear seats from those in the front seats without 
increasing the injury risk to those in the front. NHTSA believes that 
with adequate head restraints and energy management, both goals can be 
met. In the near term, a final rule on FMVSS No. 202, Head Restraints 
and Notice of Proposed Rulemaking on FMVSS No. 207, Seating Systems 
will be published.
    Rollover Protection.--Approximately 275,000 light vehicles are 
involved in rollover crashes each year. Rollover crashes are especially 
lethal; although they comprise only 4 percent of crashes, they account 
for almost one-third of light vehicle occupant fatalities and more than 
60 percent of SUV fatalities. Rollover crashes cause approximately 
10,000 fatalities and 27,000 serious injuries each year. Based on 
testing and analysis, NHTSA is preparing a final notice to announce 
dynamic rollover ratings to include in the NCAP rollover consumer 
information program. In addition, the Agency plans to publish a notice 
in fiscal year 2004 to upgrade FMVSS No. 216, Roof Crush Resistance.
nhtsa efforts to improve suv safety/reducing rollovers and aggressivity
    Question. Dr. Runge, in February, you testified before the Commerce 
Committee on your agency's efforts to improve the safety of Sport 
Utility Vehicles. Your testimony pointed out that the rate of rollover 
fatalities for SUVs is almost three times the rate of passenger cars 
and rollover crashes represent 32 percent of passenger vehicle occupant 
fatalities.
    The TREAD Act required NHTSA to develop a dynamic rollover test by 
November, 2002 but this deadline has not been met. When precisely will 
this final rule be completed?
    Answer. The Notice of Proposed Rulemaking for NCAP Rollover 
Resistance Ratings using both Static Stability Factor and dynamic 
maneuver tests in accordance with the TREAD Act was published October 
7, 2002. We expect to publish this Final Rule in the late summer of 
2003.
    Question. There is also the issue of the aggressivity of SUVs--when 
an SUV crashes with a passenger car, there are 16 driver fatalities in 
a passenger car for every one driver fatality in the SUV. You assigned 
an Integrated Project Team to evaluate aggressivity and incompatibility 
in multi-vehicle crashes.
    What is your timetable for developing rules to improve the safety 
features of the passenger car and to reduce the aggressiveness of 
larger vehicles such as SUVs?
    Answer. NHTSA's plans to improve passenger car safety and reduce 
the aggressiveness of larger vehicles are described in the 
Compatibility Integrated Project Team report that has been placed in 
Docket NHTSA-2003-14623. The initiative to improve passenger car safety 
is focused on side impact protection. A proposal to upgrade Federal 
motor vehicle safety standard No. 214, ``Side impact protection,'' is 
now being developed, with an expected publication in late calendar year 
2003.
    Rulemaking to reduce the aggressiveness (i.e., improve vehicle 
compatibility) of larger vehicles will not be initiated until some 
near-term research is completed. Although analyses and studies 
conducted to date have retrospectively demonstrated several vehicle 
characteristics that appear to have considerable promise for 
establishing compatibility requirements, the Agency has yet to 
demonstrate that any of these characteristics can prospectively be 
measured in a vehicle crash test and the level of compatibility be 
quantified. A comprehensive crash test program is being pursued in an 
effort to determine whether vehicles of comparable mass, but with 
considerably differing aggressiveness characteristics, produce 
quantifiable differences for occupants of the struck vehicle. If 
differences can be quantified, NHTSA will seek to identify 
countermeasures for potential establishment of compatibility 
requirements. The Agency expects to complete this testing and analysis 
in about a year, and then make a determination on whether to initiate a 
rulemaking effort.
    Question. Have you considered using the New Car Assessment Program 
to determine how well passenger cars fare when struck by a larger 
vehicle?
    Answer. Yes. NHTSA is pursuing this as part of the vehicle 
compatibility effort, which includes assessment of a number of proposed 
crash test barriers. When NHTSA is able to develop metrics and 
requirements that reflect the compatibility of a particular vehicle, 
the Agency will then investigate whether or not testing with these 
alternative crash barriers would provide useful consumer information, 
and if so, how to best convey that information to the public so that 
they can utilize it in their purchasing decisions.

          STEPS NHTSA IS TAKING TO IMPROVE VEHICLE BLIND SPOTS

    Question. Dr. Runge, the April issue of Consumer Reports includes a 
dramatic chart showing the blind spots in four different vehicle 
categories, from passenger sedans to minivans, SUVs and pickup trucks. 
The blind spots are far larger than many motorists believe, putting 
especially smaller kids in the greatest danger. Indeed, a 51" woman 
driving a Chevrolet Avalanche has a 50 foot blind spot in back of her. 
Even a 59" man has a 30 foot blind spot in the Avalanche. It is 
estimated that as many as 58 children were killed last year because 
they were rolled over by a vehicle that was backing up and unaware that 
they were there.
    What kind of data does NHTSA have on these types of non-crash, non-
traffic incidents that many times have grave safety implications? If 
your agency doesn't collect this data, why not?
    Answer. About 2 years ago, NHTSA began efforts to gather data 
relating to non-traffic, non-crash vehicle safety hazards--a process 
that, for a variety of reasons, can be difficult. Following the 
successful completion of a pilot study of 1997 death certificates, a 
more broad based program was instituted to review 1998 death 
certificates, as well as other data and information sources such as 
academic research, various health-related databases, and news sources. 
By the end of this summer, NHTSA expects to publish a comprehensive 
interim report on its non-traffic, non-crash research efforts, 
including those focusing on deaths and injuries resulting from vehicles 
backing up. NHTSA has reviewed about 60 percent of the 1998 death 
certificates it has received. The Agency has identified 49 vehicle-
backing deaths in those death certificates. Of the 49 deaths 
identified, 23 of the victims were 4 years old or younger, and 22 were 
60 years old or older, with 19 of these older than 70. However, it 
should be noted that the death certificate data does not indicate 
whether there was a ``blind spot'' on the striking vehicle.
    Question. What, if any, kind of testing has NHTSA done on backup 
warning devices already on the market to determine which work best in 
detecting a small child, for example, in the vehicle's blind spot?
    Answer. In 1994, NHTSA published a report evaluating electronic 
rear object detection systems for large trucks. The results of the 
testing indicated that the devices have difficulty consistently 
detecting many critical objects. They had a limited area of coverage, 
which helps to reduce irrelevant warnings, but as a result, their 
ability to detect moving pedestrians may be limited. Although NHTSA has 
not performed any recent testing, the technologies currently in use for 
passenger vehicles would be expected to have some of the same 
limitations as those studied previously. Although NHTSA is aware that a 
number of manufacturers offer some type of electronic backing aid, they 
characterize these technologies as parking aids and not as collision 
warning or pedestrian warning devices, in part, due to the current 
limitations of the technology. Such limitations include the likelihood 
that these devices could produce many false alarms to non-threatening 
objects. False alarms are likely to reduce the effectiveness of the 
warning by making drivers less responsive when there is a real 
collision threat.

                BLUE RIBBON COMMISSION ON HIGHWAY SAFETY

    Question. The administration's SAFETEA proposal includes a total of 
$7 million over 6 years for a National Blue Ribbon Commission on 
Highway Safety. The purpose of this safety commission is to study the 
Nation's highway safety needs and to make recommendations on how to 
reduce highway fatalities. The final report of the Commission would be 
delivered as late as February 1, 2009.
    I'd like the entire panel to answer this question. Given what we 
know about the benefits of seat belts, tough drunk driving laws, and 
strong vehicle safety standards, why do we need 6 years and $7 million 
to study a problem to which we already know the solutions?
    Answer. The focus of the Commission would be more than studying 
individual solutions to highway safety problems. The intent of this 
initiative is to have a shared effort by the administration, Congress, 
and the public to raise the level of concern regarding highway safety 
to the forefront of the public health issues. The level of discussion 
and awareness such as a Commission would engender, has yet to be 
generated, even in response to the fact that almost 43,000 Americans 
are killed each year on our highways. The Agency believes that it is 
appropriate that innovative policies and organizational perspectives be 
taken, resulting in a higher level of awareness and commitment to 
provide appropriate resources to implement the needed strategies.
    Question. Isn't this Commission just an excuse to put off 
meaningful action on the safety remedies that we already know work?
    Answer. Reducing the number of highway-related fatalities is a 
continuing challenge. The Agency does not intend to put off meaningful 
action on proven safety remedies. The proposed doubling of funds for 
highway safety in SAFETEA indicates a significant investment to 
implement the proven safety remedies. However, the Agency believes that 
it should move forward to develop new strategies to address issues of 
hardcore drunk-drivers and non-users of safety belts and motorcycle 
helmets. The Commission would provide a unique opportunity to involve 
all interested parties, including Federal, State, and local agencies, 
and other public and private sectors, to discuss the possible solutions 
and strategies to such issues.

                                 ______
                                 
 Questions Submitted to the Federal Motor Carrier Safety Administration
            Questions Submitted by Senator Richard C. Shelby

    Question. The Motor Carrier budget proposes $9 million to implement 
a Northern Border Truck Safety Grant program for HAZMAT inspections. 
However, the budget states that an emphasis will be placed on 
conducting additional roadside inspections at or near the more remote 
border crossing locations. Could you explain how exactly the Northern 
Border Truck Safety Grant program will be implemented and what kinds of 
inspections will be conducted? Additionally, what is the long-term goal 
of this new program?
    Answer. FMCSA intends to develop a formula-based allocation with a 
small discretionary set-aside modeled after the Motor Carrier Safety 
Assistance Program (MCSAP). FMCSA has many years of experience working 
with the southwest Border States in targeting the border enforcement 
funds to maximize effectiveness and efficiency in meeting the mandates 
of Congress and the administration. The variety of situations in the 
Border States, the unique issues with their cross-border partners, the 
characteristics of the ports of entry, types of cargo being transported 
and inspection regimes, have provided us with the knowledge and 
experience to effectively allocate the majority of the border 
enforcement funds on a formula basis. The formula will be developed 
through rulemaking.
    If authorized, we would continue to distribute the funds according 
to the priorities and criteria established and published in the Code of 
Federal Regulations. The amounts available would be based on documented 
needs, the unique circumstances, and information provided within the 
individual State's funding request. The FMCSA and States have worked 
cooperatively to meet Congressional mandates and optimize the level of 
enforcement and compliance activities conducted with the limited funds 
available for border enforcement programs. To date, all of the States 
that have applied for funding have been allocated part of the available 
funds.
    We anticipate the States will request funds for additional 
inspection activities, primarily on commercial motor vehicles 
transporting hazardous materials, and to develop communications with 
Federal inspections agencies in the Bureau of Customs and Border 
Protection and the Transportation Security Administration (TSA). The 
overall goal of this program is to ensure that State commercial motor 
vehicle inspection agencies along the Canadian border have sufficient 
resources to ensure that drivers and commercial motor vehicles, 
especially those transporting hazardous materials, are safe and secure 
from the threat of terrorist acts through increased inspections and 
enhanced communications with Federal security agencies.
    Question. The FMCSA budget proposes a total of $33 million for 
implementation of the new entrant program. Given that there are 
approximately 50,000 new entrants every year, how many audits does the 
Department actually expect to conduct if this program is fully funded?
    Answer. The FMCSA expects to conduct approximately 40,000 new 
entrant audits per year.
    Question. If we cannot expect to conduct an audit of every new 
entrant, what consideration has been given to phasing in the program or 
setting up some sort of criteria for prioritizing these new entrants 
that will be audited?
    Answer. The FMCSA has established a new entrant implementation plan 
that meets the statutory language and ensures that an audit be 
conducted on every new entrant within 18 months of beginning operation. 
New entrant audits are scheduled based on the date of the carrier's 
registration to ensure the 18-month deadline is met.
    The FMCSA took aggressive action prior to publication of the 
Interim Final Rule to ensure the program could begin full 
implementation in fiscal year 2003. Prior to the implementation of the 
rule, the agency issued a press release and established New Entrant 
Program information on its website. FMCSA's National Training Center 
established an aggressive training schedule to offer opportunities to 
Federal and State personnel who will conduct the safety audits under 
the program. In fiscal year 2003, our budget provided 100 percent High 
Priority MCSAP funds in the amount of $2 million to 34 States to begin 
implementing the program. The funds may be used to hire additional 
staff and to train the staff designated to conduct the audits. Forty-
six States have signed onto the program. The agency also delivered the 
FMCSA Field Operations Training Manual to each FMCSA Division 
Administrator on April 10, 2003, with instructions to provide a copy to 
their MCSAP counterpart and to meet and discuss the program with them. 
FMCSA stands ready to conduct the audits now.
    FMCSA believes that it has taken all appropriate actions to fully 
implement the program. Our goal is to get the most exposure so that we 
can positively impact safety and make any adjustments prior to full 
funding in 2004. To phase in the program over time would serve only to 
delay conducting audits on carriers, thus posing an increased risk to 
the public. FMCSA believes that the safety benefits of the program are 
great and that the more carriers it visits, the greater the potential 
for the Agency to reduce the number of commercial motor vehicle 
crashes, injuries, and fatalities.
    Question. The FMCSA budget proposes $16.2 million for 
implementation of the New Entrant program and an additional $17 million 
in MCSAP funding for the same, for a total of $33 million. Since only 
46 States have agreed to participate, what is the proposed Federal-
State funding split? Specifically, how will the additional MCSAP money 
be distributed and how will the Federal share be used?
    Answer. In January 2003, FMCSA anticipated that 30 percent of the 
States would participate in the New Entrant program. While 46 States 
indicate that they will participate, they are participating at 
differing levels. The $17 million will be distributed to the States 
based on their level of participation and financial need. Some States 
have indicated that they will handle all new entrant audits given the 
appropriate Federal funding, while some have indicated that they will 
strive to participate to the extent they are able. Legislative 
authority and personnel ceilings are two issues many States must 
address prior to full commitment. The current amounts contained in the 
President's budget reflect anticipated participation of State efforts 
to conduct new entrant safety audits.
    The Federal share will be used to hire 32 Federal positions for the 
management, oversight, and quality control of the New Entrant audit 
program, as well as to hire private contractors to conduct the new 
entrant audits.
    Question. FMCSA is responsible for implementation of HAZMAT rules 
and regulations following implementation of the Patriot Act. To date, 
what steps have been taken to comply with these requirements?
    Answer. On May 5, 2003, TSA published an Interim Final Rule in the 
Federal Register that implemented the background check provisions of 
the USA PATRIOT Act. TSA is developing the program to implement that 
regulation. Also on May 5, FMCSA issued a companion regulation 
prohibiting States from issuing, renewing, transferring, or upgrading a 
commercial driver's license (CDL) with a hazardous materials 
endorsement unless TSA has first conducted a background records check 
of the applicant and determined that the applicant does not pose a 
security risk warranting denial of the hazardous materials endorsement.
    Question. Are Household Goods operators required to submit to any 
specific certification process through FMCSA or other regulatory 
agency?
    Answer. All household goods applicants are required to certify that 
they are fit, willing and able to provide the specialized service 
necessary to transport household goods. This assessment of fitness 
includes the applicant's general familiarity with the Federal Motor 
Carrier Commercial Regulations for household goods transportation.
    In addition, all applicants must certify that they will offer a 
dispute settlement or arbitration program to resolve loss and damage 
disputes on collect-on-delivery shipments. Applicants must ensure 
willingness to acquire the protective equipment and trained operators 
necessary to perform household goods movement. In its decision letter 
granting the carrier authority to operate in interstate commerce, FMCSA 
advises applicants that an arbitration program is required.
    Question. How many Hazardous Materials incidents occur each year?
    Answer. DOT collects hazardous materials incident data in two 
different ways. FMCSA compiles data on trucks carrying hazardous 
materials involved in crashes in the Motor Carrier Management 
Information System (MCMIS) through reports of police officers 
responding to the crash. RSPA requires carriers to report unintentional 
releases of hazardous materials in transportation, which is defined as 
an ``incident.'' RSPA uses these data to extract ``serious'' incidents, 
which include releases resulting in the closure of a major 
transportation artery, a fatality or injury, the evacuation of 25 or 
more people, and other major impacts to the transportation system.

 HAZARDOUS MATERIAL TRUCK CRASHES AND RELEASES, PAST 5 YEARS REPORTED TO
                                  FMCSA
------------------------------------------------------------------------
                                                             Crash w/
                  Year                        Crashes         Release
------------------------------------------------------------------------
1998....................................           2,977             589
1999....................................           3,527             500
2000....................................           2,271             380
2001....................................           1,891             297
2002....................................           1,577             202
------------------------------------------------------------------------
Source: MCMIS.


  HAZARDOUS MATERIALS HIGHWAY INCIDENTS, PAST 5 YEARS REPORTED TO RSPA
------------------------------------------------------------------------
                                                              Serious
                  Year                       Incidents     Incidents \1\
------------------------------------------------------------------------
1998....................................          13,110             356
1999....................................          15,008             456
2000....................................          15,129             463
2001....................................          15,825             487
2002....................................          13,514         \2\ 453
------------------------------------------------------------------------
Source: Hazardous Materials Information System, RSPA.

\1\ Serious Incident Defined by RSPA in 2002.
\2\ Estimate--Data are incomplete.

    Question. How do NHTSA and FMCSA coordinate with regard to the 
``Share the Road'' education program, and how do you believe that 
program can be made more effective?
    Answer. In fiscal year 2003, Congress earmarked $500,000 to be 
transferred from the National Highway Traffic Safety Administration 
(NHTSA) to the Federal Motor Carrier Safety Administration (FMCSA) for 
the Share the Road program. Once FMCSA provides NHTSA with a spending 
plan for the funds, the monies will be transferred. FMCSA partners with 
NHTSA on a steering team on the Share the Road Coalition, and 
communicates regularly to discuss issues as they arise throughout the 
year.
    To improve the effectiveness of Share the Road, the FMCSA has 
broadened the program's scope to include all highway users and has 
identified specific target audiences that offer the highest opportunity 
for safety improvement. Education and outreach materials are being 
developed and tested to evaluate effectiveness. Future plans to 
increase the effectiveness of the Share the Road program include 
distributing those projects considered most effective throughout the 
country via FMCSA field staff and State and industry partners, and by 
making them available to community safety advocates concerned with 
truck safety issues. In response to recent GAO recommendations, the 
Agency plans to develop a Share the Road program planning document and 
conduct comprehensive program reviews to identify opportunities for 
improvement.
    Question. The new entrant program appears to be the primary new 
initiative in the Motor Carrier budget. The budget proposes $33 million 
for implementation of this program.
    (a) Ms. Sandberg, it is my understanding that there are 
approximately 50,000 new entrants every year. How many audits does the 
Motor Carrier Administration expect to conduct at this level of 
funding?
    (b) If we cannot expect to conduct an audit of every new entrant, 
what consideration have you given to phasing-in the program or to 
establishing some sort of criteria for prioritizing those new entrants 
that will be audited?
    Answer. (a) The FMCSA expects to conduct approximately 40,000 new 
entrant audits per year.
    (b) The FMCSA has established a new entrant implementation plan 
that meets the intent of the statutory language and will ensure that an 
audit is conducted on every new entrant within 18 months of beginning 
operation. New entrant audits are scheduled based on the date of the 
carrier's registration to ensure the 18-month deadline is met.
    The FMCSA took aggressive action prior to publication of the 
Interim Final Rule to ensure the program could begin full 
implementation in fiscal year 2003. Prior to the implementation of the 
rule, the Agency issued a press release and established New Entrant 
Program information on its website. FMCSA's National Training Center 
established an aggressive training schedule to offer opportunities to 
Federal and State personnel who will conduct the safety audits under 
the program. In fiscal year 2003, FMCSA's budget provided 100 percent 
High Priority MCSAP funds in the amount of $2 million to 34 States to 
begin implementing the program. The funds may be used to hire 
additional staff and to train the staff designated to conduct the 
audits. Forty-six States have signed onto the program. The agency also 
delivered the FMCSA Field Operations Training Manual to each FMCSA 
Division Administrator on April 10, 2003, with instructions to provide 
a copy to their MCSAP counterpart and to meet and discuss the program 
with them. FMCSA stands ready to conduct the audits now.
    FMCSA believes that it has taken all appropriate actions to 
implement the program. Its goal is to get the most exposure for the 
program to impact positively on safety and make any adjustments prior 
to full funding in 2004. To phase the program in over time would only 
serve to delay conducting audits on carriers, thus posing an increased 
risk to the public. We believe that the safety benefits of the program 
are great and that the more carriers we visit, the greater the 
potential to reduce the number of commercial motor vehicle crashes, 
injuries, and fatalities.
    Question. Ms. Sandberg, what is the status of the Large Truck Crash 
Causation Study, and when will you be sending a progress report to 
Congress?
    Answer. Collection of field data on injury and fatal crashes 
involving large trucks for the Large Truck Crash Causation Study will 
continue until the end of 2003. As of May 2003, investigations had 
begun on 868 large truck crashes (with a goal of investigating 1000 
total crashes). Coding and quality control on all cases should be 
completed by the middle of 2004. The full study database should be 
released to the public by the end of 2004. Both FMCSA and NHTSA will be 
conducting multiple analyses.
    FMCSA will forward a letter report to Congress on the progress of 
the study and the adjustments made to the study as a result of 
recommendations from the Transportation Research Board later this 
summer. In addition, FMCSA plans to issue a report in the fall of this 
year with preliminary information on the data collected for the study.
    Question. An important part of the implementation of the New 
Entrant program relies on the cooperation of the States to conduct 
safety audits. However, at this time only 46 States have agreed to 
participate in the program.
    Ms. Sandberg, how will the program be implemented in the remaining 
4 States and how does FMCSA propose to fund it?
    Answer. FMCSA will be responsible for implementing the New Entrant 
program where States cannot fully participate or choose not to 
participate. Currently, FMCSA Safety Investigators are conducting 
safety audits in these four States and others where there is a need. In 
fiscal year 2004, FMCSA is requesting $16 million to support a Federal 
program to hire contractors to conduct new entrant audits. The FMCSA 
anticipates that private entities will be conducting the audits on the 
new entrant carriers in these four States and other States where 100 
percent State participation is not available. In addition to the 
Federal program, there is also $17 million requested for grants to 
States to conduct audits.
    Question. Ms. Sandberg, Motor Carriers recently issued a new Hours 
of Service rule. While this rule increases by 1 hour the number of 
hours a driver may be on the road, it also increases by 2 hours the 
number of required off-duty hours.
    Could you explain how you believe this new rule is going to make 
our highways safer?
    Answer. The new science-based rule makes significant strides in 
providing commercial drivers a 24-hour work/rest schedule in line with 
the body's circadian rhythm. The longer off-duty time allows drivers to 
have more regular schedules and increases the potential for quality 
sleep. This approach is consistent with fatigue and sleep-related 
studies considered in development of the rule that indicate the amount 
and quality of sleep a person receives has a strong influence on 
alertness. The final rule helps to eliminate some of the worst aspects 
of daily rotating schedules and the compression of weekly on-duty time 
into a short portion of the workweek. This reduces the workday from 15 
to 14 hours, replaces 8 off-duty hours with 10 off-duty hours, and, in 
particular, will not allow work breaks to extend the 14 hours on-duty 
time.
    Question. Ms. Sandberg, your statement mentions the HAZMAT 
permitting program as required by Congress. It is not clear how much of 
the HAZMAT permitting process has been turned over to the 
Transportation Security Administration at the Department of Homeland 
Security and how much authority remains with the Motor Carrier 
Administration.
    I have been told that virtually all of that process has been turned 
over to TSA while you are expected to support the contract to conduct 
the background investigations. Ms. Sandberg, can you clarify this for 
me?
    Answer. FMCSA has not turned over any aspect of the HAZMAT 
permitting process to TSA. This requirement comes out of the Hazardous 
Materials Transportation Uniform Safety Act of 1990 and is separate 
from the background check requirements of the USA PATRIOT Act.
    FMCSA has coordinated with TSA in developing the proposal for the 
permit program, however, FMCSA will oversee the permit application 
process and FMCSA field staff will conduct investigations of companies 
applying for permits to determine fitness. In fact, TSA is transferring 
funding for implementing a hazardous materials permit program to FMCSA. 
Currently, FMCSA has submitted a Supplemental Notice of Proposed 
Rulemaking (SNPRM) to establish a safety permit program and require 
motor carriers transporting these materials to obtain a safety permit 
prior to transporting these hazardous materials. The Office of 
Management and Budget (OMB) is currently reviewing the SNPRM for 
Hazardous Materials Safety Permits.
    Question. The March 2001, General Accounting Office report to 
Congress concluded that FMCSA oversight of the household goods moving 
industry and enforcement of the consumer protection regulations has 
been minimal since 1996. As a result of this vacuum, rogue movers have 
proliferated and are literally holding consumers' possessions as ransom 
for addition payment.
    (a) Ms. Sandberg, what is your plan to address this problem?
    (b) How is the budget increase for household goods enforcement 
planning to be used specifically for enforcement and investigation?
    Answer. (a) FMCSA has taken a proactive approach by developing a 
comprehensive Household Goods (HHG) Outreach and Enforcement Program to 
focus on addressing consumer complaints and enforcing regulations on 
non-compliant carriers.
    A HHG Program Manager has been hired to administer and implement 
the agency's overall HHG Enforcement Program, as well as coordinate 
regulatory strike force activities.
    FMCSA has enhanced its enforcement program by developing 
enforcement criteria to identify the most egregious HHG violators and 
to conduct enforcement strike forces on targeted carriers. HHG 
carriers/brokers identified for investigation under this process have 
demonstrated a continuous pattern of noncompliance with our commercial 
regulations.
    (b) The budget request supports a study on the moving industry 
dispute settlement programs for resolving loss and damage claims, and 
provide funding to hire seven additional commercial investigators to 
conduct HHG investigations on the most egregious violators of the 
commercial regulations.

                                 ______
                                 
              Questions Submitted by Senator Patty Murray

    Question. Ms. Sandberg, your 2004 budget includes $9 million for 
the agency's regulatory development program. This funding will be used 
to establish a medical review board and a national medical examiner 
registry in an effort to upgrade the quality of commercial driver 
medical examinations nationally.
    As you know, the FAA has its own program to ensure that pilots are 
medically qualified. What input, if any, have you had from the FAA in 
developing this program?
    Answer. FMCSA is conducting a planning analysis to identify a 
feasible set of strategies to be used to develop and maintain a 
national registry of medical examiners and a program to certify all 
medical examiners that perform commercial driver physical examinations. 
It will review the procedures that the FAA and other Federal agencies 
use to certify medical examiners and investigate different approaches 
for establishing a national database of medical examiners.
    Question. When precisely can we expect this registry to be fully 
implemented?
    Answer. Estimation of a precise implementation date for the 
registry of medical examiners is complicated by uncertainties in 
designing a new program that is not yet defined in a Notice of Proposed 
Rulemaking (NPRM). Until the agency has completed its planning analysis 
for the national registry and published a final rule, an estimation of 
a full implementation date would be speculative.
    Question. NHTSA's 2004 budget includes the first $10 million 
installment of your $60 million proposal to update the 30-year-old Tri-
Level Study on motor vehicle crash causation. The motor vehicle crash 
causation study is expected to commence at the completion of the truck 
crash causation study that has been funded through the Federal Motor 
Carrier Safety Administration but conducted by NHTSA over the last 3 
years. The 2003 Conference Report directed NHTSA to have the CDC's 
National Center for Injury Prevention and Control evaluate the adequacy 
of the crash causation research design.
    Ms. Sandberg, the Transportation Research Board has provided your 
agency with a series of recommendations on the crash causation study. 
Which, if any, of TRB's recommendations have you decided not to 
implement?
    Answer. FMCSA hired the Transportation Research Board to consult on 
the design and implementation of the Large Truck Crash Causation Study. 
The TRB panel, consisting of experts from varying fields, met five 
times over the past 3 years. A panel subcommittee met an additional two 
times to address several specific issues. The TRB panel made many 
suggestions, but made only a few formal recommendations for the sample 
design, the data collection forms and data coding protocol. Numerous 
changes were incorporated into the LTCCS as a result of the TRB 
suggestions. Of the formal recommendations, two were not implemented:
  --``Exclude two-axle straight trucks from the study to focus 
        exclusively on larger straight trucks and combination 
        vehicles'' (November 15, 2000, letter to FMCSA). Since FMCSA 
        regulates these vehicles, we need crash causation data on 
        crashes involving these vehicles.
  --``Study should collect more data on vehicle components, vehicle 
        dynamics, brake condition, measurement of skid marks, roadway 
        geometry, and objective estimates of pre-crash speed'' 
        (December 4, 2001, letter to FMCSA). Collection of some 
        information on many of these elements is already part of the 
        study. However, collection of more in-depth data would require 
        complete reconstructions of each crash and vehicle, which was 
        not possible given the study resources, design, and timeline.
    Question. Ms. Sandberg and Dr. Runge, Americans all across the 
country rely on your two agencies to establish strong safety 
regulations to ensure that our trucks and cars are safe and that their 
drivers operate their vehicles in a safe and sober manner.
    What are your top three priorities for safety rules in the coming 
year that you think will achieve the most for highway safety?
    Answer. For FMCSA, the top three safety rules that will achieve the 
most for highway safety are:
  --Implementing the new driver hours-of-service rule to help minimize 
        the number of crashes due to large truck driver fatigue.
  --Implementing the new entrant interim final rule to ensure that new 
        motor carriers are in compliance with safety regulations at the 
        onset of their operations.
  --Developing a notice of proposed rulemaking that would merge the 
        requirement for driver medical certification with that of 
        obtaining a commercial driver's license (CDL). The 1999 
        Louisiana bus crash might have been avoided had such a 
        requirement been in place.
    Question. Ms. Sandberg, your testimony refers to a revised process 
for the development of motor carrier safety regulations that is 
designed to improve both the quality and timeliness of your agency's 
rulemakings.
    Why should we be convinced that these changes would result in 
greater motor carrier safety? How much time will you be saving in the 
rulemaking process--are we talking months or years?
    Answer. FMCSA's new Rulemaking Order, which was signed in January 
2003, established for the first time a clearly defined process by which 
FMCSA can develop its safety regulations. While it is difficult to 
predict specific time saved, I anticipate that it will have a positive 
impact on both the quality and timeliness of our rulemakings, as well 
as commercial motor vehicle (CMV) safety. In the legislation that 
established the FMCSA, Congress placed special emphasis on the 
importance of timely rulemaking as an important way to achieve 
reductions in the number and severity of CMV crashes.
    Question. This new process is designed to build consensus with 
senior managers earlier in the rule's development. Does this new 
process also include any sort of negotiated rulemaking process--similar 
to what the FRA uses with its Rail Safety Advisory Committee? Under 
what scenarios might you choose to use a negotiated rulemaking process 
where both industry and safety groups engage in the rule's development?
    Answer. The FMCSA has no standing advisory committee similar to 
FRA's Rail Safety Advisory Committee, which was formally established 
under the Federal Advisory Committee Act. However, FMCSA's new 
rulemaking process provides for negotiated rulemaking. The Agency would 
use, and has used, this approach when there are complex issues and 
there is sharp disagreement among the regulated parties that cannot 
otherwise be resolved through the standard notice and comment approach 
to rulemaking. An example where the Agency has used this approach is 
the recently published regulation on driver hours-of-service.
    Question. Ms. Sandberg, just over a year ago, the Inspector General 
released a report on your agency's oversight of the Commercial Driver's 
License (CDL) program. The principal findings of the IG's report were 
as follows: first, CDL fraud is a significant problem; second, that 
FMCSA needs to strengthen its oversight of State CDL programs; and 
third, the FMCSA should use sanctions when necessary to enforce 
compliance with CDL requirements.
    (a) What specific steps has your agency taken to reduce CDL fraud 
and to strengthen your oversight of the State CDL programs?
    (b) Given what you know about the effectiveness of sanctions from 
your experience as Deputy Administrator of NHTSA, has your agency 
withheld any highway funds from States that have failed to correct 
significant CDL problems?
    Answer. (a) Through a cooperative agreement with the American 
Association of Motor Vehicle Administrators, FMCSA is using an $8 
million fiscal year 2002 supplemental appropriation to develop a 14-
task effort to better detect and prevent fraudulent activities within 
the State CDL programs. These tasks include activities such as 
fraudulent document recognition training for State licensing agency 
staff, uniform identification practices and documents, the development 
of best practices for State and third party test examiners, and the 
conducting of a CDL Fraud Symposium in November 2002, where States 
shared information on efforts to detect and prevent fraud.
    FMCSA has strengthened and enhanced the CDL compliance and 
oversight program. A 3-year cycle of this enhanced CDL compliance 
process has just been completed where written administrative procedures 
and laws are reviewed and a complete ``hands on'' operational review is 
conducted to make sure that written procedures are being followed. 
Starting in 2002, a legal sufficiency review is being conducted on 
State CDL laws, statutes, and administrative procedures.
    (b) No. To date, FMCSA has not withheld any Federal-aid highway 
funds from any State in order to get significant CDL compliance 
problems and deficiencies corrected. While FMCSA has initiated the 
process to withhold funds in several States, these States were able to 
correct the deficiencies before the funds were withheld. The 
withholding of funds has been used as a last resort. The Agency has 
been successful in getting States to develop reasonable action plans 
and schedules to correct deficiencies. Continued monitoring of these 
action plans has been instrumental in correcting deficiencies within 
the agreed time period.
    Question. Ms. Sandberg, when Secretary Mineta appeared before this 
subcommittee on May 8th, I asked him whether the Department intended to 
appeal the Ninth Circuit's decision regarding the U.S.-Mexico 
commercial vehicle border crossings. He stated that the administration 
was weighing its options as to whether the decision should be appealed 
to the Supreme Court or alternatively, whether the Department should 
prepare the required environmental impact statement.
    Which option has the administration decided to pursue?
    Answer. FMCSA does not view seeking Supreme Court review of the 
Ninth Circuit decision and preparing an environmental impact statement 
(EIS) as mutually exclusive options. Although the administration has 
not yet determined whether to file a petition for review with the 
Supreme Court, FMCSA has solicited bids from contractors for EIS 
preparation and expects to select a contractor within the next 30 days. 
Therefore, the Agency is taking the necessary steps to prepare an EIS 
regardless of whether the administration seeks further legal review of 
the Ninth Circuit decision.
    Question. Despite the delay in opening the border, this 
subcommittee has funded every penny you have requested to build up the 
inspection force and your oversight capacity at the border. As a 
result, you currently have 43 percent of all of your Motor Carrier 
Field Safety Enforcement personnel located at the U.S.-Mexican Border.
    (a) Given the anticipated delay in the opening of the border 
because of this court case, do you believe it still makes sense in 
terms of improving truck safety nationwide to have 43 percent of all of 
your truck safety enforcement personnel at the Mexico border?
    (b) Would you like this Committee to consider a temporary statutory 
waiver that would allow you to move these safety enforcement personnel 
throughout the United States?
    Answer. (a) Federal staffing at the Southern Border is necessary to 
conduct inspections, safety audits, and compliance reviews on U.S. and 
Mexican carriers. With 80,000 distinct vehicles making over 4.3 million 
crossings a year, there is a need for a significant Federal presence at 
border crossings. Although Border States have an enforcement presence 
at crossings, the extended hours crossings are open, coupled with large 
crossing volumes, require a Federal presence. In addition, FMCSA is 
responsible for conducting safety audits and compliance reviews for a 
large commercial zone population of carriers. Once the border is open, 
the added burden of conducting reviews on long-haul carriers will be 
placed on the Federal staff.
    (b) The ability to efficiently and effectively deploy staff can be 
accomplished under authorities FMCSA currently has available. 
Therefore, a statutory waiver is not necessary.
    Question. Ms. Sandberg, the Motor Carrier Safety Improvement Act 
required that your agency conduct safety reviews for each new entrant 
trucking firm within the first 18 months after the trucking company 
begins operations. These new entrants, which total anywhere from 40,000 
to 50,000 a year, pose a significant commercial motor vehicle safety 
risk. Your testimony indicates that 46 States have agreed to either 
partially or fully conduct new entrant safety audits. Your 2004 budget 
requests $16.2 million along with $17 million in Motor Carrier Safety 
Assistance Program for the joint Federal and State efforts.
    (a) Which States have not agreed to conduct new entrant safety 
audits and why haven't they agreed to do so?
    (b) How, if at all, will these new entrant audits differ from the 
safety audits that you conduct on trucking companies with existing 
operating authority?
    Answer. (a) Delaware, the District of Columbia, Oregon, and Wyoming 
have indicated they will not participate in the new entrant program, 
due primarily to their inability to staff the program at the State 
level.
    (b) A new entrant safety audit is a requirement for all new motor 
carriers applying for a U.S. DOT number after January 1, 2003. The 
purpose of the safety audit is to provide educational and technical 
assistance to the new entrant and gather safety data needed to make an 
assessment of the new entrant safety performance and the adequacy of 
its safety management controls. The motor carrier contact is required 
to be conducted within the first 18 months of operations. It is non-
enforcement oriented and will result in a pass/fail outcome based upon 
the motor carrier's overall safety management controls. If the carrier 
fails the safety audit, it must take corrective actions or it will not 
be granted permanent operating authority.
    A compliance review is an on-site investigation of the motor 
carrier's compliance with the Federal motor carrier safety and 
hazardous materials regulations and is usually conducted on motor 
carriers that are determined to be higher risk. Higher risk can be 
derived from data gathered regarding on-road performance, including 
inspections and crashes, as well as prior compliance reviews, 
complaints, and special projects. Unlike safety audits, motor carriers 
are not required to undergo a compliance review as a condition of 
authority but are always subject to a compliance review, even during 
the initial 18 months of operation. Compliance reviews result in a 
rating of satisfactory, conditional, or unsatisfactory, based upon the 
violations discovered during the investigation and the data gathered 
from on-road activity. If a carrier is rated unsatisfactory, it must 
have the rating upgraded in order to avoid an operations out-of-service 
declaration within 60 days of the compliance review for private and 
for-hire carriers, and within 45 days for transporters of passengers 
and placarded hazardous materials. The compliance review is a 
compliance monitoring and enforcement event. The motor carrier and 
drivers are subject to fines and other penalties for serious 
noncompliance with Federal safety and hazardous material violations.
    Question. The Inspector General's follow-up audit on the 
implementation of the safety requirements at the U.S.-Mexico border 
includes a recommendation to use safety auditors and investigators for 
the new entrant program while the border opening is delayed due to the 
Ninth Circuit Court decision.
    Do you intend to use these auditors and investigators to conduct 
new entrant safety audits?
    Answer. FMCSA is assessing the recommendations contained in the 
Inspector General's report on implementation of safety requirements at 
the U.S.-Mexico border and will respond formally to those 
recommendations in the very near future. One of the issues we must 
consider in using border auditors and investigators for new entrant 
audits is that we maintain an appropriate level of enforcement staff at 
the border to ensure commercial zone safety.

                                 ______
                                 
          Questions Submitted to Mothers Against Drunk Driving
            Questions Submitted by Senator Richard C. Shelby

    Question. Mr. Hurley and Ms. Hamilton, have you analyzed the 
funding levels proposed in the current budget and in the SAFETEA 
proposal?
    Answer. The Department of Transportation's fiscal year 2004 budget 
request and ``SAFETEA'' reauthorization proposal are woefully 
inadequate in terms of addressing the rising levels of alcohol-related 
traffic deaths in America.
    NHTSA Fiscal Year 2004 Budget.--NHTSA's funding request appears to 
have increased monies for behavioral funding, however, this is not the 
case. The fiscal year 2004 request is significantly less than the 
fiscal year 2003 request. The fiscal year 2004 request includes $222 
million of TEA-21 resources for the Sections 157 and 163 grant programs 
formerly appropriated in the Federal Highway Administration budget. 
NHTSA has always administered these funds and is now requesting receipt 
of this funding directly. This apparent increase is really no increase 
at all.
    The fiscal year 2004 request for behavioral funding is 
$516,309,000, however when Section 157 and 163 monies are subtracted, 
the amount is reduced to $294,309,000. The fiscal year 2004 request is 
a quarter of a million less than the fiscal year 2003 request. 
Additionally, only a percentage of this funding is guaranteed for 
behavioral safety since States are able to use this funding for roadway 
safety/highway construction projects.
    The levels of funding specifically for impaired driving 
countermeasures are reduced in the fiscal year 2004 request. The fiscal 
year 2004 request provides a $50 million impaired driving grant program 
to a limited number of ``problem'' States to demonstrate the 
effectiveness of a comprehensive approach to reducing impaired driving 
and for identifying causes of weakness in a State's impaired driving 
control system. This funding level is $100 million less than funds 
available to States in fiscal year 2003 for impaired driving 
improvements.
    Additionally, the NHTSA Impaired Driving Division budget request is 
significantly lower than fiscal year 2002 enacted levels ($10.9 million 
in fiscal year 2004 request compared with $13.5 million fiscal year 
2002 enacted).
    SAFETEA Proposal.--The administration's ``SAFETEA'' proposal 
significantly decreases funding for alcohol-impaired programs (-67 
percent). SAFETEA proposes an impaired driving program totaling only 
$50 million, far less than current funding levels. In fiscal year 2003, 
TEA-21 authorized $150 million for alcohol-impaired driving 
countermeasures (impaired driving grants and .08 BAC incentives) and 
contained requirements for States to enact repeat offender and open 
container laws. If States failed to pass these alcohol-impaired driving 
laws then a percentage of their Federal construction funds were 
transferred. Not only does ``SAFETEA'' slash impaired driving funding 
to $50 million, it fails to include incentives to States to enact 
effective alcohol-impaired driving countermeasures.
    While the administration, the Department of Transportation and 
NHTSA claim reducing alcohol-related traffic fatalities is a top 
priority, their fiscal year 2004 budget request and ``SAFETEA'' 
proposal fails to provide a coherent plan to address the carnage caused 
by alcohol-impaired driving on America's roadways.
    Question. Ms. Hamilton, do you have any thoughts about Dr. Runge's 
discussion of NHTSA's plans and would you propose to approach the 
problem differently?
    Answer. MADD believes that Dr. Runge and NHTSA have a strong 
understanding of what is needed to drive down the number of people 
killed and injured in alcohol-related crashes. However, their fiscal 
year 2004 budget proposal and administration's SAFETEA plan fails to 
provide adequate funding, fails to apply effective data and science 
driven countermeasures, and fails to provide leadership to seriously 
address the increasing amount of death and injury due to alcohol-
related traffic crashes.
    MADD believes that progress will occur when adequate funding is 
provided for traffic safety programs and when a commitment is made to 
put proven impaired driving countermeasures, such as law enforcement 
mobilizations, into place. More accountability is needed at the 
national, regional and State levels to ensure that Federal funds are 
being used in a strategic and coordinated effort. Additionally, States 
should be encouraged to enact priority traffic safety laws, such as 
primary seat belt enforcement, and laws targeting higher-risk drivers 
(high BAC and repeat offenders).
    Question. Ms. Hamilton, this year NHTSA is running paid media in 
concert with the impaired driving mobilizations. I am interested in 
knowing if MADD was involved at all in the development of these ads and 
how effective you believe they will be in getting the message out?
    Answer. MADD would like to thank Senator Shelby and Senator Murray 
for their leadership in this area and for providing funds for these 
life-saving efforts. MADD strongly supports the expansion of well-
publicized law enforcement campaigns to curb drunk driving and increase 
seat belt use. These law enforcement activities should utilize frequent 
and highly visible sobriety checkpoints and/or saturation patrols. 
Research and field applications have shown these law enforcement 
activities to be among the most effective tools used to deter impaired 
driving. The CDC found that sobriety checkpoints can reduce impaired 
driving crashes by 18 to 24 percent. Checkpoints are especially 
effective when coupled with media campaigns that raise the visibility 
and awareness of alcohol-impaired driving enforcement efforts in the 
community with the objective of deterring impaired driving before it 
happens. Senate Bill 1139, introduced by Senator Mike DeWine and 
Senator Frank Lautenberg, provides funding for increased enforcement 
efforts across the country and if enacted will enhance the work of this 
committee and result in lives saved and injuries prevented.
    MADD is pleased with the quality and content of the advertising 
developed for this campaign. The first deployment of this campaign will 
occur from June 20 to July 13, 2003. MADD believes that raising public 
awareness through a coordinated national media campaign coupled with 
high visibility law enforcement (sobriety checkpoints and/or saturation 
patrols) will be successful. Based on the success of the Click-it-or-
Ticket campaign and several demonstration sobriety checkpoint programs 
these combined efforts have the greatest potential to save lives. 
However, it is vital that DOT/NHTSA commit 100 percent to promote this 
program, and they can demonstrate this commitment by ensuring that 
national wire services cover the kick off press event, by aggressively 
reaching out to diverse news outlets, by working closely with law 
enforcement and traffic safety partners, and by evaluating results.
    MADD was included in weekly NHTSA meetings that commenced 
approximately 4 weeks before the mobilization kickoff. MADD had 
occasional contact with NHTSA during the campaign's development did not 
participate in the development of the national ad. We would welcome 
more regular opportunities to work with NHTSA to ensure that these 
campaigns are as successful as possible.
    Question. The NHTSA budget proposes a new initiative to award 
discretionary grants to States to demonstrate the effectiveness of a 
comprehensive approach to reducing impaired driving. Ms. Hamilton and 
Mr. Hurley, I am interested in your thoughts about this new 
discretionary grant program and how effective you both believe that it 
will be.
    Answer. Sanctions are clearly the more effective approach to 
encourage States to adopt proven highway safety laws. While incentive 
programs have had some success, it is clear that--particularly with 
alcohol-related traffic laws--penalties have shown greater results than 
incentives. DOT estimates that the 21 Minimum Drinking Age (MDA) law 
has saved thousands of lives since the national standard was put in 
place in 1984. A national zero tolerance standard for youth, adopted by 
Congress is 1995, was also successful in getting States to enact better 
laws for underage drivers. Clearly the national .08 BAC standard, 
enacted in 2000, has been much more effective than the TEA-21 incentive 
program. Under the incentive program, only two States passed .08 BAC 
laws. Since the national .08 standard was enacted, 22 States have 
passed this important law.
    In addition, DOT's proposed grant program is flawed because it is 
only made available to States with the worst alcohol-related incidents, 
leaving the rest of the Nation with no access to these funds. And, the 
pot of money is not nearly as substantial as it should be to effect 
needed change.

                                 ______
                                 
              Questions Submitted by Senator Patty Murray

    Question. This will be the first year that national media will be 
used for the drunk driving mobilization efforts in July and December. 
Ms. Hamilton, what does MADD hope that we will accomplish through these 
national ads and what kind of contact has your organization had with 
NHTSA during the development of this media effort?
    Answer. MADD would like to thank Senator Shelby and Senator Murray 
for their leadership in this area and for providing funds for these 
life-saving efforts. MADD strongly supports the expansion of well-
publicized law enforcement campaigns to curb drunk driving and increase 
seat belt use. These law enforcement activities should utilize frequent 
and highly visible sobriety checkpoints and/or saturation patrols. 
Research and field applications have shown these law enforcement 
activities to be among the most effective tools used to deter impaired 
driving. The CDC found that sobriety checkpoints can reduce impaired 
driving crashes by 18 to 24 percent. Checkpoints are especially 
effective when coupled with media campaigns that raise the visibility 
and awareness of alcohol-impaired driving enforcement efforts in the 
community with the objective of deterring impaired driving before it 
happens. Senate Bill 1139, introduced by Senator Mike DeWine and 
Senator Frank Lautenberg, provides funding for increased enforcement 
efforts across the country and if enacted will enhance the work of this 
committee and result in lives saved and injuries prevented.
    MADD is pleased with the quality and content of the advertising 
developed for this campaign. The first deployment of this campaign will 
occur from June 20 to July 13, 2003. MADD believes that raising public 
awareness through a coordinated national media campaign coupled with 
high visibility law enforcement (sobriety checkpoints and/or saturation 
patrols) will be successful. Based on the success of the Click-it-or-
Ticket campaign and several demonstration sobriety checkpoint programs 
these combined efforts have the greatest potential to save lives. 
However, it is vital that DOT/NHTSA commit 100 percent to promote this 
program, and they can demonstrate this commitment by ensuring that 
national wire services cover the kick off press event, by aggressively 
reaching out to diverse news outlets, by working closely with law 
enforcement and traffic safety partners, and by evaluating results.
    MADD was included in weekly NHTSA meetings that commenced 
approximately 4 weeks before the mobilization kickoff. MADD had 
occasional contact with NHTSA during the campaign's development but did 
not participate in the development of the national ad. We would welcome 
more regular opportunities to work with NHTSA to ensure that these 
campaigns are as successful as possible.
    Question. Ms. Hamilton, how would you assess the funding levels in 
NHTSA's budget that are directed toward reducing drunk driving?
    Answer. NHTSA's fiscal year 2004 budget request is woefully 
inadequate in terms of addressing the rising levels of alcohol-related 
traffic deaths in America. NHTSA's testimony before the Committee gives 
the false impression that they have increased monies for behavioral 
funding in their fiscal year 2004 budget request. However, a detailed 
review of their proposal shows that this is not the case.
    The fiscal year 2004 request proposes $516,309,000 for behavioral 
funding, however when Section 157 and 163 monies are subtracted the 
amount is reduced to $294,309,000. The request includes $222 million of 
TEA-21 resources for the Sections 157 and 163 grant programs formerly 
appropriated in the Federal Highway Administration budget, which NHTSA 
has always administered and is now requesting receipt of this funding 
directly. This apparent increase is really no increase at all.
    The fiscal year 2004 request is actually $250,000 less than the 
fiscal year 2003 request. Additionally, only a percentage of funding 
guaranteed for behavioral safety since States are able to shift this 
funding to roadway safety/highway construction projects. The levels of 
funding for impaired driving countermeasure programs administered by 
NHTSA are reduced in the fiscal year 2004 request. The NHTSA Impaired 
Driving Division budget request is significantly lower than fiscal year 
2002 enacted levels ($10.9 million in fiscal year 2004 request compared 
with $13.5 million fiscal year 2002 enacted).
    NHTSA's State & Community Highway Safety Program drastically 
reduces funds available to States for impaired driving initiatives. The 
fiscal year 2004 request provides a $50 million impaired driving grant 
program to a limited number of ``problem'' States to demonstrate the 
effectiveness of a comprehensive approach to reducing impaired driving 
and for identifying causes of weakness in a State's impaired driving 
control system. This funding level is $100 million less than funds 
available to States in fiscal year 2003 for impaired driving 
improvements.
    Question. Ms. Hamilton and Mr. Hurley, how would you assess NHTSA's 
oversight of State highway safety plans and what specific changes would 
you suggest to improve their accountability?
    Answer. In May 2003, the General Accounting Office released a 
report that determined NHTSA's ``performance based'' approach to 
oversight of State and Community Highway Safety Program expenditures by 
the States has not yielded measurable safety benefits. GAO states that:

    `` . . . NHTSA's oversight of highway safety programs is less 
effective than it could be, both in ensuring the efficient and proper 
use of Federal funds and in helping the States achieve their highway 
safety goals.''

    Last year, members of this committee noted the disturbing increase 
in alcohol-related fatalities and questioned NHTSA's pronouncements 
that it would intensify its efforts to combat impaired driving. MADD 
shares the concerns raised by the GAO and Congress regarding the lack 
of accountability for traffic safety programs under TEA-21.
    MADD asks Congress to hold the National Highway Traffic Safety 
Administration, the agency's regional offices, and the States more 
accountable for the expenditure of Federal highway safety funds. Our 
goal is not to make their jobs more difficult. It is to recognize that 
political pressures and ``flavor of the month'' traffic safety issues 
can influence how dollars are spent. DOT claims that its primary goal 
is to reverse the current trend, but clearly it is time for Congress to 
create a more consistent process that ensures the efficient and proper 
use of Federal funds to help the Nation achieve its highway safety 
goals.
    Some suggested changes include:
  --Establish three levels of accountability: (1) NHTSA must be held 
        accountable--i.e., how does NHTSA spend its research and 
        evaluation funds, its demonstration project funds, and plan/
        create a strategy for use of other expenditures from 
        headquarters; (2) NHTSA Regional Offices must be held 
        accountable--i.e., how do the Regional Offices work to assist 
        the States in reaching their goals; (3) State highway safety 
        offices must be held accountable, i.e., what kind of programs 
        are States spending resources on--are they research based and 
        do they reflect the needs in that particular State.
  --Establish a memorandum of understanding between the Regional 
        Offices and the State highway safety offices to clearly lay out 
        the role of the regions and the role of the States.
  --Regional Offices (RO's) should be more involved in the planning 
        process with the States. RO's should assist the States with: 
        problem identification, development of a data-driven State 
        highway safety plan, setting States' goals, and in the 
        selection of proven countermeasures/programs that will work to 
        meet these goals. RO's need training and expertise to assist 
        the States.
  --State highway safety offices must create a highway safety plan that 
        reflects the needs in their States based on the data (i.e., if 
        alcohol-related deaths are high in a particular State, then 
        that State's highway safety plan should adequately reflect the 
        need to reduce alcohol-impaired driving with research-based, 
        proven solutions.)
  --A more systematic approach should be used--as shown by the GAO--to 
        ensure that NHTSA and the RO's use tools (i.e., Improvement 
        Plans and High-Risk designation) to improve State performance.
  --NHTSA and the RO's should provide the States with ``best 
        practices'' training and documents. NHTSA's publications and 
        website should be improved to reflect years of research in 
        terms of what works and what does not work. A catalogue of 
        research and resources should be available to the RO's and to 
        the States.
  --NHTSA must do a better job to ensure that proven, effective 
        countermeasures are being implemented. Decades of research is 
        being ignored.
    Question. Ms. Hamilton, as I mentioned, the Checkpoint Strikeforce 
project used public awareness, saturation patrols and sobriety 
checkpoints. Which of these three strategies do you believe is the most 
effective in deterring drunk driving?
    Answer. Sobriety checkpoints and saturation patrols coupled with a 
public information and enforcement campaign have proven to be highly 
effective in deterring impaired drivers. Research conducted both in the 
United States and abroad indicates that the use of sobriety checkpoints 
has been associated with substantial reductions in alcohol-related 
crashes. In addition, checkpoints can be instrumental in the 
enforcement of other traffic safety laws such as zero tolerance for 
youth and graduated licensing. The use of sobriety checkpoints is 
permitted in 41 States and the District of Columbia; in other States 
the use of saturation patrols has been proven to be a successful 
strategy. The research seems to indicate that sobriety checkpoints, 
when done effectively, are the best enforcement tool because they deter 
impaired driving and have a broader reach than other enforcement 
methods.
    As an example of the kinds of reductions that may be achieved with 
a large and sustained program, the State of Tennessee conducted an 
intensive sobriety checkpoint effort combined with public awareness 
from April 1994 to March 1995. Nearly 900 checkpoints were conducted 
and more than 140,000 drivers were checked for alcohol impairment with 
nearly 800 DUI arrests. Analysis indicated a 20 percent reduction over 
the number of impaired driving fatal crashes that would have occurred 
with no intervention. It was estimated that there was a reduction of 9 
impaired driving fatal crashes per month due to the influence of the 
checkpoint program, amounting to more than 100 lives saved over the 
intervention period. A check of five comparison States showed non-
significant increases in impaired-driving-fatal crashes over the same 
period.
    Question. Overrepresentation of repeat offenders is a public health 
problem. Is NHTSA collaborating with other agencies (DHHS) to address 
this problem? Any thoughts?
    Answer. MADD agrees that the crime of drunk driving involving 
``higher-risk'' drivers is a major public health problem. Higher-risk 
drivers often are repeat offenders--people who repeatedly drive after 
drinking, especially with high blood alcohol content (BAC). These 
drivers are particularly resistant to changing their behavior. Most 
U.S. drivers convicted of driving while intoxicated have a .15 percent 
BAC or higher. A driver at .15 BAC is over 300 times more likely to be 
involved in a fatal crash. While an estimated 85 percent of drivers in 
alcohol-related fatal crashes don't have prior drunk driving 
convictions, those who do pose a substantially greater risk of causing 
an alcohol-related crash.
    MADD believes that NHTSA should be working more actively with 
Federal agencies--health, justice and education--to address this 
serious problem. NHTSA should not have to be prompted by Congress to 
utilize the best research, disciplines and expertise to combat drunk 
driving. Recent evaluations of State efforts--including vehicle 
impoundment and forfeiture, license plate impoundment and tagging, and 
alcohol ignition interlock devices--demonstrate that a combination of 
proven measures help deter higher-risk offenders. These measures, 
combined with other effective tactics including license suspension and 
alcohol assessment/treatment programs, provide a growing array of tools 
for managing higher-risk drivers. Embracing this research, MADD has 
developed a practical program for all 50 States. MADD's Higher Risk 
Driver Program calls for:
  --Restricting vehicle operation by these offenders by suspending 
        their licenses for substantial periods, impounding or 
        immobilizing their vehicles and requiring alcohol ignition 
        interlock devices on their vehicles to prevent them from 
        starting if the offenders have been drinking.
  --Requiring these offenders to make restitution to the community and 
        drunk driving crash victims through fines and mandatory 
        incarceration and financial restitution to crash victims.
  --Promoting recovery programs for offenders with alcohol abuse 
        problems through mandatory alcohol assessment and treatment, 
        intensive probation and attendance at victim impact panels.
    Although most of the remedies in MADD's plan are not new, they 
typically have been implemented on a piecemeal basis, producing a 
system full of loopholes. Senate Bill 1141 incorporates all of these 
solutions. This comprehensive approach if enacted would reduce crashes 
caused by these high-risk drivers.
                                 ______
                                 
           Questions Submitted to the National Safety Council
            Questions Submitted by Senator Richard C. Shelby

                       HIGHWAY SAFETY INITIATIVES

    Question. Dr. Runge's opening statement says that NHTSA has 
``pledged to solve the highway safety issues confronting this Nation.'' 
However, other than consolidating some grant programs and a new 
accounting of other grant programs, I see no new, innovative programs 
included in this budget or in the reauthorization proposal that would 
convince me that NHTSA is on the way to solving the highway safety 
issues confronting this Nation.
    Mr. Hurley, from your perspective, do you think that the SAFETEA 
proposal will be successful in reducing highway fatalities? If not, 
what, in your view, could be done to improve the proposal to allow us 
to experience the greatest benefits?
    Answer. I know that the administration's intent is clearly to save 
lives, as demonstrated by their focus on primary belt laws and 
significant incentives to States that enact such laws. We support the 
intent of this provision. However, SAFETEA does not provide additional 
specific funding for high visibility enforcement of belt and alcohol 
laws, as well as targeted funds for programs that support those 
enforcement initiatives. These funds need to be added to the proposal.

                  HIGHWAY SAFETY GRANT FUNDING LEVELS

    Question. I am concerned that much of this ``increase'' in funding 
for highway safety is merely the shifting of funds from Highways to 
NHTSA. I have expressed this to the Secretary and still believe that we 
need more information to conduct a proper analysis.
    Mr. Hurley and Ms. Hamilton, have you analyzed the funding levels 
proposed in the current budget and in the SAFE-TEA proposal?
    Answer. The proposed $50 million in the administration budget for a 
13-State demonstration program should be placed in Section 403 and 
supplemented by $150 million along the lines proposed by the DeWine-
Lautenberg bill, S. 1139. This would provide adequate funding for the 
fundamentally important enforcement mobilizations for safety belts and 
alcohol.

                              SAFETY BELTS

    Question. With respect to seat belt usage, Dr. Runge has said, ``we 
have a model that works. For every 1 percent increase in belt use, we 
get $800 million in economic costs saved, 2.8 million more people 
buckling up, 276 lives saved, and reduce the severity of 6,400 moderate 
to critical injuries.''
    Mr. Hurley, how prudent is it to eliminate funding for ``Click It 
or Ticket'' campaigns?
    Given that it is the centerpiece of the Air Bag & Seat Belt Safety 
Campaign, I am interested in hearing how you will move forward absent 
these federally driven mobilizations and how effective you believe the 
campaign will be?
    Answer. The funding for national paid advertising to support the 
``Click It or Ticket'' and ``You Drink and Drive. You Lose.'' Campaigns 
is a direct result of the leadership of this subcommittee. We strongly 
support continued funding of these initiatives because they are proven 
to work. Since the Air Bag & Seat Belt Safety Campaign Mobilizations 
began in May 1997, belt use nationally has increased from 61 percent to 
75 percent. As Dr. Runge has estimated, that means 39.2 million more 
people buckling up and 3,864 lives saved each year. Until May of 2002, 
the Mobilizations primarily relied on earned media coverage by the news 
media to reach those who continue to violate the belt and child 
restraint laws. In large part due to the success of these 
Mobilizations, most people who listen to the news are now buckled. It 
should be stressed that the 75 percent use rate, while representing 
remarkable progress, is a daytime measurement. The 25 percent who still 
have not been reached by previous Mobilizations are inherently high 
risk. They are literally twice as likely to be in fatal crashes, which 
often occur late at night. The best proven way to reach this highest 
risk group, particularly young males which includes many teenagers and 
drunk drivers, is to target paid advertisements. These advertisements 
are focused on enforcement and targeted to the broadcast media they 
watch, which does not often coincide with the evening news. The funds 
provided by this subcommittee enabled NHTSA to do exactly that, in 
partnership with the States and the Air Bag & Seat Belt Campaign. 
Eliminating these critical funds would not only end perhaps the most 
proven effective initiative NHTSA has ever undertaken, but could well 
put in jeopardy the hard won gains that have already been achieved. 
While the Campaign and law enforcement nationwide would continue to 
make best efforts at these goals using earned media strategies, 
extensive research indicates that further progress would be extremely 
difficult to achieve.

                            IMPAIRED DRIVING

    Question. The NHTSA budget proposes a new initiative to award 
discretionary grants to States to demonstrate the effectiveness of a 
comprehensive approach to reducing impaired driving.
    Ms. Hamilton and Mr. Hurley, I am interested in your thoughts about 
this new discretionary grant program and how effective you both believe 
that it will be.
    Answer. NHTSA's initiative is likely to be effective in the 13 
States that are included, but by definition, it is not likely to have 
much, if any, effect on the other States and jurisdictions. This is 
exactly the kind of program NHTSA should conduct as part of its Section 
403 activities, but simply does not credibly address the national 
impaired driving problem. After 20 years of progress, impaired driving 
fatalities has increased in each of the last 3 years. This is an 
unmistakable trend requiring urgent national strategies such as those 
set forth in the DeWine-Lautenberg bill, S. 1139.

                           CHILD SAFETY SEATS

    Question. For the past several years, the Committee has provided 
funding for child safety seat campaigns. These campaigns have been very 
successful at increasing the proper use of child safety seats while we 
developed the second generation of child safety seats which are now 
accompanied by LATCH systems in all new passenger vehicles to allow for 
easier installation and safer car seats.
    One of the reasons that this campaign has been so successful is due 
to the broad base of support coming from State and local public safety 
community, community activists, and private industry. Without this 
coalition of support it is difficult to imagine that the campaign would 
have had the effect of continued decreases in child fatalities.
    Mr. Hurley, what is the Safety Council's view of how to build upon 
the positive results we are seeing in child occupant protection as well 
as how programs like this can be targeted in other areas to safe lives 
on our roads?
    Answer. Child passenger safety is a remarkable public health 
success story. Car seat use, the vaccine for the leading risk kids 
face, was 2 percent when Tennessee enacted the first mandatory use law 
in 1977. Now, it is nearly universal for infants, excellent for 
toddlers, and still lagging in booster seat use. Leadership by this 
subcommittee, the National Transportation Safety Board, and many other 
public and private organizations has made this possible. Correct use is 
one key part of this issue. Kids don't set the level of risk they face 
on the highway. Adults do that for them, hence the special obligation 
we all have to get it right. In less than 5 years, the number of 
Certified Child Passenger Technicians has gone from a mere handful, to 
more than 30,000 today. There are very few places in the United States 
where correct use assistance is unavailable.
    Having said that, it is essential to focus on two issues that 
sometimes get overlooked. Beginning with the air bag crisis of mid-
1990's, major efforts were undertaken to get kids properly restrained 
in the rear seat, where data indicated they are 35 percent better 
protected, with or without a front passenger air bag. With the advent 
of advanced air bag systems beginning in September 2003, there is a 
very real concern that some of the hard won gains may be lost to the 
implied but false message that is OK to put kids back in the front 
seat. It will take all of our collective efforts to re-imprint on a new 
generation of parents that proper restraint in the back seat, where 
possible, is still the best advice. Second, there has been a 20 percent 
reduction in child passenger fatalities in the last 5 years. While 
correct use is essential, it is critical to point out that most child 
passenger fatalities come not from incorrect use, but rather non-use. 
The clear majority of child passenger fatalities are completely 
unrestrained, far more often with unbelted drivers. And the leading 
risk children face from drunk drivers is as passengers of the drunk 
driver themselves. There is simply no excuse for these findings. The 
greatest proportion of the 20 percent reduction in child passenger 
fatalities has come from high visibility zero tolerance enforcement of 
seat belt, car seat, and drunk driving laws. Through the leadership of 
this subcommittee, we are very hopeful that funding will be provided to 
continue these lifesaving efforts.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray

          NHTSA'S INCENTIVE PROGRAM AND PRIMARY SEAT BELT LAWS

    Question. When the Federal Government has tried to get the States 
to enact meaningful safety laws, it has taken two approaches. In some 
instances, like the Minimum Drinking Age Act and the 0.08 law, we have 
withheld highway construction funds from States that don't pass the 
law. In other instances, we have provided incentive payments to get 
States to make safety improvements. The record is clear, when we 
sanction highway construction funds, all the States eventually comply. 
When we provide incentive payments, the record is quite mixed. NHTSA's 
own data show that seat belt use increases as much as 15 percent in 
States that have primary seat belt laws on the books. Currently, 18 
States and the District of Columbia have primary seat belt laws in 
effect, including my own State of Washington. Yet, the 2004 budget 
request includes $100 million for a new primary seat belt incentive 
grant program. This program is designed to encourage the remaining 32 
States to pass a primary seat belt law.
    Mr. Hurley, how confident are you that States will pass a primary 
seat belt law as a result of this grant program?
    Answer. We are very hopeful at the Air Bag & Seat Belt Safety 
Campaign that the $100 million proposed by the administration will 
help, but not guarantee the passage of more primary belt laws. The 
fiscal situation in most States has increased their interest in 
incentives such as the one being proposed. In Illinois, where Campaign 
support was successful in helping Illinois to pass a primary law, the 
prospect of significant Federal incentive funds was very helpful, but 
not the primary factor for passage. In Florida, and Massachusetts, the 
funds increased the priority of the issue, but were not in themselves 
sufficient to overcome opposition to primary belt legislation. While we 
fully support the proposal, the National Safety Council also supports 
highway trust fund sanctions in the final year of the upcoming 
reauthorization of the highway program.

                     MOTORCYCLE FATALITY INCREASES

    Question. Motorcycle deaths have gone up every year since 1997 and 
the deaths of older cyclists have been rising for an even longer 
period. The early estimates for 2002 indicate that the overall number 
of motorcycle fatalities increased by 3 percent over 2001. And while 
the number of fatalities for younger riders decreased, for riders over 
the age of 50, there was an astounding 24 percent jump in the number of 
motorcyclists killed.
    Mr. Hurley, where do you think NHTSA should concentrate its efforts 
to improve motorcycle safety?
    Answer. The three areas where NHTSA should concentrate its efforts 
are: (1) defining through evaluation the contribution of repeal of 
helmet laws to the increased fatalities by State and nationally, (2) 
defining through peer reviewed evaluation the extraordinary taxpayer 
subsidies to injured motorcyclists, such as the Harborview study of 10 
years ago that found the costs of caring for injured motorcyclists at 
64 percent paid by the taxpayers, and (3) defining through evaluation 
and reducing through enforcement the frequency of alcohol impaired 
motorcycle fatalities and injuries.

                    NHTSA'S PAID ADVERTISING PROGRAM

    Question. Over the last few years, this subcommittee provided 
funding for paid media to support the highly successful ``Click It or 
Ticket'' program. In fact, the national ads for this program have been 
running this month during the seat belt mobilization campaign. This 
year, we expanded the program to include national media for the drunk 
driving mobilizations that will occur in July and December.
    Dr. Runge and Mr. Hurley, what kind of feedback have you been 
getting about the ``Click It or Ticket'' ads?
    Answer. The feedback on the advertising has been overwhelmingly 
positive. The Air Bag & Seat Belt Safety Campaign conducts both pre- 
and post-public opinion surveys before and after each Mobilization. 
There is now tracking data spanning the past 7 years.
    Unaided recall of ``Click It or Ticket'' among all Americans jumped 
from 6 percent in the pre-test to 28 percent after the Mobilization. 
(Unaided recall means respondents could say with no prompting that the 
seat belt enforcement effort they had heard of was ``Click It or 
Ticket'' in an open end question.) Among the target audience of men 18-
34, unaided recall of ``Click It or Ticket'' moved 30 percentage points 
from the pre-survey of 12 percent to the post-survey of 42 percent.
    More importantly, recall of the ad is linked to higher recall of 
key campaign success measures such as perceived likelihood of getting a 
ticket for not wearing a seat belt and the perception that police are 
more aggressively enforcing seat belt laws. For the first time, there 
was a statistically significant increase in the percentage of men 18-34 
who said their seat belt use had increased in the past 6 months. This 
age group is one of the hardest to reach with this type of public 
health message, according to researchers.
    We also found clear evidence that cumulative advertising over 
repeated Mobilizations increases the overall effectiveness of the 
Mobilizations and the impact on key campaign success measures. These 
measures were all higher in States where paid advertising has run for 
consecutive years compared to States where paid advertising ran only in 
May 2003.
    It's clear from this data that the ad campaign was effective in 
reaching and influencing our target audience.

               NHTSA'S OVERSIGHT OF STATE SAFETY PROGRAMS

    Question. The second word in the administration's SAFETEA proposal 
stands for ``accountable.'' Yet, the recent report released by the 
General Accounting Office draws the conclusion that NHTSA has been 
inconsistent in holding the States accountable for their highway safety 
programs. The GAO reported that NHTSA's use of management reviews 
varied from region to region and that the regional offices have made 
limited and inconsistent use of improvement plans. While some States 
may do a good job at meeting their safety objectives, it is clear that 
others may benefit from greater input and guidance from NHTSA.
    Ms. Hamilton and Mr. Hurley, how would you assess NHTSA's oversight 
of State highway safety plans and what specific changes would you 
suggest to improve their accountability?
    Answer. The recent GAO report lays out very well the critical need 
for effective oversight by NHTSA of federally funded State programs. It 
simply was a mistake for NHTSA to unilaterally give up State plan 
approval. For the best performing States, the plan approval process 
should be minimal, with the emphasis on how NHTSA can best assist the 
achievement of excellence. For the middle tier States, the plan 
approval should make sure that scarce funding is only spent on those 
things proven to work. For the bottom performing States, there should 
be extensive review of the State programs, beginning with the data. 
Where States are unwilling or unable to meet reasonable objectives, 
there should be consideration of what other delivery mechanisms can 
best meet critical needs.

         COORDINATED GOVERNMENTAL EFFORT TO FIGHT DRUNK DRIVING

    Question. Roughly one-third of all drivers arrested or convicted 
for DUIs or DWIs were repeat offenders. These individuals are over-
represented in fatal crashes and less likely to be influenced by 
education or legal sanctions. Given that these hard-core drinkers are 
probably the toughest individuals to reach, it seems that there ought 
to be a coordinated governmental effort to reach them. Last year, we 
directed NHTSA to work with the Attorney General's office to identify 
the best strategies to reduce plea bargaining and to make sure that 
impaired driving convictions are applied in a consistent manner. Beyond 
that, I think it is important that we look at the public health aspects 
of this problem to make sure that people are getting the treatment that 
they need. I know that NHTSA spoke to the National Institute on Alcohol 
Abuse and Alcoholism in February about how the two agencies might work 
together on this very challenging problem.
    Mr. Hurley and Ms. Hamilton, do you have any thoughts you would 
like to add?
    Answer. Perhaps the most critical piece missing in the current 
effort to reduce drunk driving is now being implemented through the 
leadership of this subcommittee. The advent of national paid 
advertising to support coordinated enforcement will likely have 
substantial results. In North Carolina's ``Booze It and Lose It'' 
Campaign in 1995, arrests of intoxicated motorists at nighttime 
checkpoints were cut by more than half, to .87 percent. This remains 
one of the lowest levels ever achieved in this country. The National 
Safety Council also fully supports MADD's Hard Core Drunk Driver 
Initiative.

                BLUE RIBBON COMMISSION ON HIGHWAY SAFETY

    Question. The administration's SAFETEA proposal includes a total of 
$7 million over 6 years for a National Blue Ribbon Commission on 
Highway Safety. The purpose of this safety commission is to study the 
Nation's highway safety needs and to make recommendations on how to 
reduce highway fatalities. The final report of the Commission would be 
delivered as late as February 1, 2009.
    I'd like the entire panel to answer this question. Given what we 
know about the benefits of seat belts, tough drunk driving laws, and 
strong vehicle safety standards, why do we need 6 years and $7 million 
to study a problem to which we already know the solutions?
    Isn't this Commission just an excuse to put off meaningful action 
on the safety remedies that we already know work?
    Answer. The National Safety Council believes that most national 
commissions have not delivered on their promise, requiring far more 
work and yielding few tangible results. One clear exception was 
President Reagan's Drunk Driving Commission which consolidated what was 
known and proven to work, providing a blue print for progress for the 
next 20 years. As Sen. Murray indicated, commissions are often a 
convenient way of postponing critical decisions, rather that enabling 
real progress to occur.
    Much of what is necessary for reducing fatal and serious injuries 
on the highway is known in the peer review literature. What is lacking 
is often the political will to bring about progress. Commissions are a 
weak lever on political will. Before allowing such an initiative to go 
forward, thorough discussion and debate should take place on the 
Commission's precise leadership, membership, and scope. The Commission 
should also be strictly focused on only those efforts that have been 
proven to work.

                         CONCLUSION OF HEARINGS

    Senator Campbell. So I appreciate you appearing here, and 
the subcommittee is recessed. Thank you.
    [Whereupon, at 11:58 a.m., Thursday, May 22, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

</pre></body></html>
